<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   LEGISLATIVE BRANCH APPROPRIATIONS
                                FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                ________

                   SUBCOMMITTEE ON LEGISLATIVE BRANCH
                DEBBIE WASSERMAN SCHULTZ, Florida, Chair
 BARBARA LEE, California            TOM LATHAM, Iowa
 TOM UDALL, New Mexico              RAY LaHOOD, Illinois
 MICHAEL HONDA, California          JO BONNER, Alabama  
 BETTY McCOLLUM, Minnesota          
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
                                    
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                       Tom Forhan, Staff Assistant

                                ________

                                 PART 3

                   FISCAL YEAR 2009 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
           LEGISLATIVE BRANCH APPROPRIATIONS FOR 2009--Part 3
                                                                      ?

                   LEGISLATIVE BRANCH APPROPRIATIONS

                                FOR 2009

_______________________________________________________________________

                                HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION


                                ________

                   SUBCOMMITTEE ON LEGISLATIVE BRANCH
                DEBBIE WASSERMAN SCHULTZ, Florida, Chair
 BARBARA LEE, California            TOM LATHAM, Iowa
 TOM UDALL, New Mexico              RAY LaHOOD, Illinois
 MICHAEL HONDA, California          JO BONNER, Alabama  
 BETTY McCOLLUM, Minnesota          
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
                                    
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

                       Tom Forhan, Staff Assistant

                                ________

                                 PART 3

                   FISCAL YEAR 2009 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS

                                   S

                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 42-315                     WASHINGTON : 2008

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    RALPH REGULA, Ohio
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JAMES T. WALSH, New York
 JOSE E. SERRANO, New York          DAVID L. HOBSON, Ohio
 ROSA L. DeLAURO, Connecticut       JOE KNOLLENBERG, Michigan
 JAMES P. MORAN, Virginia           JACK KINGSTON, Georgia
 JOHN W. OLVER, Massachusetts       RODNEY P. FRELINGHUYSEN, New Jersey
 ED PASTOR, Arizona                 TODD TIAHRT, Kansas
 DAVID E. PRICE, North Carolina     ZACH WAMP, Tennessee
 CHET EDWARDS, Texas                TOM LATHAM, Iowa
 ROBERT E. ``BUD'' CRAMER, Jr.,     ROBERT B. ADERHOLT, Alabama
Alabama                             JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       JOHN E. PETERSON, Pennsylvania
 LUCILLE ROYBAL-ALLARD, California  VIRGIL H. GOODE, Jr., Virginia
 SAM FARR, California               RAY LaHOOD, Illinois
 JESSE L. JACKSON, Jr., Illinois    DAVE WELDON, Florida
 CAROLYN C. KILPATRICK, Michigan    MICHAEL K. SIMPSON, Idaho
 ALLEN BOYD, Florida                JOHN ABNEY CULBERSON, Texas
 CHAKA FATTAH, Pennsylvania         MARK STEVEN KIRK, Illinois
 STEVEN R. ROTHMAN, New Jersey      ANDER CRENSHAW, Florida
 SANFORD D. BISHOP, Jr., Georgia    DENNIS R. REHBERG, Montana
 MARION BERRY, Arkansas             JOHN R. CARTER, Texas
 BARBARA LEE, California            RODNEY ALEXANDER, Louisiana
 TOM UDALL, New Mexico              KEN CALVERT, California
 ADAM SCHIFF, California            JO BONNER, Alabama                 
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
                                    

                  Rob Nabors, Clerk and Staff Director

                                  (ii)


               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2009

                                           Tuesday, April 15, 2008.

                         CAPITOL VISITOR CENTER

                               WITNESSES

STEPHEN T. AYERS, AIA, ACTING ARCHITECT OF THE CAPITOL
BERNARD UNGAR, CAPITOL VISITOR CENTER PROJECT EXECUTIVE
TERRIE S. ROUSE, CHIEF EXECUTIVE OFFICER FOR VISITOR SERVICES
PHILLIP D. MORSE, SR., CHIEF, UNITED STATES CAPITOL POLICE
TERRELL G. DORN, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, GAO

                        Chair's Opening Remarks

    Ms. Wasserman Schultz. Good afternoon. Or in Mr. Ayers' 
case, good morning. It is good to be with everybody. I would 
like to convene the Subcommittee on the Legislative Branch of 
the House Committee on Appropriations. This is our tenth 
oversight hearing on the Capitol Visitor Center.
    This afternoon we are going to hear from a number of our 
regulars, who are going to give us a progress report on the 
efforts to open the CVC and the progress that is being made on 
the plans for operating it, as well as welcoming Chief Morse, 
who is here to give us an update on the security and logistical 
plans for a variety of the issues that have come up.
    We will hear from Stephen Ayers, the Acting Architect of 
the Capitol; Bernie Ungar, the CVC Project Executive; Terry 
Dorn, the GAO Director of Physical Infrastructure Issues; 
Terrie Rouse, the CEO for Visitor Services of the CVC; and 
Phillip Morse, the Chief of the U.S. Capitol Police.
    I am really proud of the work that this committee has done 
over a little bit more than a year. We have consistently been 
able to keep the focus on the goal, which is to open the CVC 
and not have slippage in either the target date for opening, 
which is November, or the estimated cost, which has continued 
to be for about the last year $621 million. We are certainly 
more comfortable with the place that we are at in terms of the 
progress that has been made, and I commend the project team 
that has worked very hard to make sure that we have not had 
slippage. But obviously we have to remain vigilant and mindful 
of the fact that we could face slippage if we are not careful.
    So we are here to get our regular update. I look forward to 
hearing about the progress and the plans. And, Mr. Latham, if 
you have any comments.

                  Opening Remarks--Congressman Latham

    Mr. Latham. Yes. Thank you.
    I want to welcome the entire panel here and let you know 
that we continue to appreciate your efforts on the Visitors 
Center. We know that the logistics and activities associated 
with getting it ready for the opening are very complicated and 
time consuming, and your efforts are not going unnoticed. I 
look forward to your testimony and your suggestions on how we 
can best work together to move the CVC forward.
    And, Madam Chairman, I also want to note that the Office of 
the Architect's CVC project was recognized by the Washington 
Building Congress with various Craftsmanship Awards for 
outstanding work. So I think we should be very proud of that.
    And thank you.
    Ms. Wasserman Schultz. Excellent. Thank you very much.
    And congratulations, Mr. Ayers. As usual, your prepared 
statements will be entered into the record. Mr. Ayers, you can 
proceed with a 5-minute summary of your statement.

                    Opening Statement--Stephen Ayers

    Mr. Ayers. Good afternoon, Madam Chair, Congressman Latham, 
and members of the subcommittee. I am pleased to be here today 
to report on the progress made to complete the CVC and prepare 
it for its opening and operation later this year.
    The comprehensive fire and Life-Safety testing is 
proceeding on schedule. The required fire alarm wiring 
enhancements we discussed at last month's hearing are ongoing 
now, and we have determined that this change and the associated 
testing will not adversely affect the project's schedule.


                        CVC CONSTRUCTION UPDATE


    We recently submitted our third-quarter spending plan, in 
which we evaluated the project's cost to complete. I am pleased 
to report that, upon review, the Government Accountability 
Office agrees with our project team that the estimated $621 
million cost to complete remains unchanged.
    Along with the ongoing Fire Alarm Testing, we are 
completing minor construction in the Library of Congress 
tunnel, the House Hearing Room, the East Front, exterior 
grounds, and on the House and Senate atria stairs. In addition, 
we have been addressing the height variables associated with 
the electrical vaults and correcting the smoke control system 
issues associated with the atria stairs.
    We have received a preliminary report on the plaza pavers, 
and we are evaluating the information to determine a course of 
action to address those repairs.
    With regard to the remaining construction work, workers 
have completed all major floor and wall stone in the crypt, 
Rotunda, and gallery levels inside the East Front. Metal 
workers completed work on the bronze handrails in the House and 
Senate stairwell atria, and are preparing for the terrazzo work 
on the stairway landings.
    In the Library of Congress pedestrian tunnel, ceiling panel 
installation is approximately 97 percent complete, and the 
terrazzo floor work is progressing smoothly. The 11-foot model 
of the Capitol dome was installed on March 21st as scheduled, 
and it is an impressive sight to see at the center the 
Exhibition Hall. Historic drawings and sophisticated technology 
were used to create this unique 3-D model, and the AOC staff 
ensured that every detail was accurate. It is an important part 
of the CVC because it will allow children to have a very hands-
on experience.
    Video screens in the House and Senate virtual theaters have 
been installed and are being tested. Workers are now installing 
the 10-foot wooden doors on the east side of the Rotunda. Our 
Capitol Superintendent's Office has also initiated relocation 
coordination meetings with all occupants of the CVC and has 
begun to identify the equipment and inventory needs to fully 
support their maintenance operation.


                            PUNCH LIST ITEMS


    Crews continue to work to complete punch-list items such as 
millwork, wall stone, floor stone, ceiling panels, plaster 
work, carpeting, doors and other finishes. As of April 9th, 
there were approximately 8,800 open items on the main punch-
list. Given the pace of work, we remain on schedule to receive 
the temporary certificate of occupancy on July 31st, as 
scheduled.
    In March, 41 change orders were settled. The magnitude of 
change order proposals being received continues to diminish, 
with most new proposals coming in below $10,000. The team 
continues to focus their efforts on settling the largest 
outstanding change orders first and as quickly as possible.


                       CVC GOVERNANCE AND AWARDS


    In anticipation of the CVC opening, Ms. Rouse and her team 
continue to work with oversight committees and congressional 
leadership on plans for the CVC Visitor Services operations. I 
know she has several updates to share with the subcommittee 
today.
    Madam Chair, as you know, the CVC has been designed to 
greatly enhance the visitor experience by providing greater 
educational opportunities and much-needed amenities to the 
millions of people who visit their Capitol Building each year. 
It is designed to match the Capitol in quality and endurance, 
and generations of Americans will continue to benefit from all 
it has to offer.
    In that regard, I am pleased to note that the CVC was 
recently recognized by the Washington Building Congress. 
Specifically, the project was singled out for 11 Craftsmanship 
Awards for high-quality, professional workmanship demonstrated 
throughout the facility.
    In addition to the Craftsmanship Awards, several of those 
winners were extended additional honors with the receipt of two 
of three Star Awards, presented to projects demonstrating the 
highest level of quality in visual and technical excellence. 
The project also received the Hall of Fame award for the 
masonry work done throughout the facility.
    For the Washington Building Congress to recognize the CVC 
for its superb craftsmanship and quality is truly an honor. The 
fine team that has worked on this project can take great pride 
in their role in helping to complete this largest single 
expansion to the Capitol Building in its history.
    That concludes my statement. I would be happy to answer any 
questions you may have.
    Ms. Wasserman Schultz. Thank you very much.
    [Mr. Ayers' prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315A.001
    
    [GRAPHIC] [TIFF OMITTED] T2315A.002
    
    [GRAPHIC] [TIFF OMITTED] T2315A.003
    
    [GRAPHIC] [TIFF OMITTED] T2315A.004
    
    Ms. Wasserman Schultz. Ms. Rouse.

                    Opening Statement--Terrie Rouse

    Ms. Rouse. Good afternoon, Madam Chair, Congressman Latham, 
and members of the subcommittee. I am pleased to be here today 
to update you--it would help if I turn the microphone on. My 
apologies.
    Madam Chair, Congressman Latham, members of the 
subcommittee, I am pleased to be here today to update you on 
the progress we have made since last month in readying the 
Capitol Visitor Center from an operational perspective.
    In the personnel field, we have put veteran managers in 
place to run our gift shops, our exhibition space, and our 
restaurant. Last month, I introduced to you my deputy, who is 
an accomplished administrator. He will oversee the operations 
aspect of the Visitor Center.


                          CVC STAFFING UPDATE


    As I discussed at last month's hearing, I am hiring a 
diverse and professional staff. Our job fair last week was 
extremely successful. We received over 600 applications for the 
60 Visitor Assistant positions that are available. With help 
from our colleagues all over the Capitol complex, we 
interviewed approximately 200 people. We culled that number and 
are planning to complete the selection within the next 2 weeks.
    I think the overwhelming response was due in large part to 
outreach through the different congressional caucuses, our 
advertisements in smaller, nontraditional outlets, and our 
contacts with schools and universities across the country.
    The Visitor Assistant position is a crucial component of 
our setup. With so much that is new about the Capitol to 
outsiders and even to people who work here, we need to make 
sure that the Visitor Assistants, our front line ambassadors, 
can respond quickly and completely to any situation or 
questions that arise.
    We continue to be mindful of the fact that, despite the 
progress we have made in hiring key personnel, we have a huge 
task ahead in hiring up to the designated staff level for the 
Capitol Visitor Center. We have only a fraction of the time 
that is considered average for a 200,000-square-foot facility. 
Our dedicated team will continue to work on hiring all 
necessary staff, and training will be vitally important for all 
employees.


                             CVC OPERATIONS


    In the context of operational planning, we are also aware 
of our identity as a component of the Office of the Architect 
of the U.S. Capitol as an extension of the Capitol Building 
itself. Even now, we are serving as an arm of the Capitol 
operation by meeting on a regular basis not only with our 
subcommittee, but with the Capitol Preservation Committee, our 
Oversight Committees, House and Senate leadership, and senior 
leadership team of the Architect of the Capitol Architect's 
Office.
    From a programming perspective, one of the more unusual 
exhibits in the Capitol Visitors Center was installed since our 
last meeting, the 11-foot-high touchable model of the Capitol 
dome. Produced by Midwest Model Makers of Indianapolis and made 
of polyurethane, the dome will provide visitors with an 
intimate look at the iconic symbol of representative democracy. 
Our young visitors will love this model of the Capitol dome, 
and for that reason, we made sure that it is durable and easily 
cleaned. It will never need painting, since color is 
impregnated in the mold.


                       ADVANCE RESERVATION SYSTEM


    Madam Chair, as you know from our weekly updates, we have 
made steady progress in the development of the Advanced 
Reservation System. For the past month, we have been working 
closely with the current visitor services staff on how to 
administer the Advanced Reservation System during the busiest 
Capitol tourist seasons.
    We continue to work on developing the CVC Web site. We want 
to prepare people for the much improved U.S. Capitol experience 
that awaits them with the logistical information that they 
need, and we want to make the Web site as easy to navigate as 
possible. More importantly, we want to whet the appetites of 
our visitors as to what the Capitol has to offer that will 
inform, involve, and inspire them in a very personable way.
    We are also continuing to facilitate communications with 
the U.S. Capitol Police, the D.C. Department of Transportation 
and others on visitor approaches to and from the Visitors 
Center. There are a variety of approaches to the Capitol, from 
walking to biking to taking public and private transportation.
    The Nation's Capital is a friendly walking town, a walking 
city. Residents and visitors alike enjoy our sidewalks, our 
generous green spaces that make walking along the magnificent 
monuments and memorials a true delight. In fact, DDOT and the 
Capitol Police are preparing a pedestrian access study of First 
Street, where traffic will be heavier once the Visitor Center 
opens.


                         CHARTER BUS OPERATIONS


    Currently, large charter buses drop off passengers near the 
West Front of the Capitol; they will still be able to do so 
when the Visitor Center opens. Some of the companies, however, 
may choose to park and drop off passengers at Union Station, 
where approximately there are 75 available parking spaces are. 
From Union Station, there are a variety of options for tourists 
who wish to visit the Capitol Building, including picking up a 
city tour bus, riding a local Metrobus, or walking four blocks 
to the Visitor Center, about as far as it is from the White 
House to the Washington Monument. From the Capitol South Metro 
stop, where many tours will exit the subway, the walk to the 
Visitor Center is only two blocks.
    Thank you again for this opportunity to update the 
subcommittee on our activities, and thank you for your 
continued support and interest. I would be pleased to answer 
any questions you may have.
    Ms. Wasserman Schultz. Thank you, Ms. Rouse.
    [Ms. Rouse's prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315A.005
    
    [GRAPHIC] [TIFF OMITTED] T2315A.006
    
    [GRAPHIC] [TIFF OMITTED] T2315A.007
    
    [GRAPHIC] [TIFF OMITTED] T2315A.008
    
    Ms. Wasserman Schultz. Chief Morse.

                     Opening Statement--Chief Morse

    Chief Morse. Madam Chair and Congressman Latham, members of 
the committee, I would like to thank you for inviting me here 
today to testify.
    Today, I would like to focus my comments on the 
Department's plans for addressing potential volumes of visitors 
to the CVC. With regard to anticipated volume, we have systems 
in place to allow for the reassignments of resources and 
personnel to meet critical needs throughout the Capitol 
complex. We believe that we have the capability to move 
personnel in a timely manner to address surges in pedestrian 
flow, as well as other events, while maintaining the security 
of the Capitol complex.
    We have also completed our operational and emergency 
special operating procedures that are commensurate with this 
high-level volume of visitors, and are prepared to initiate 
training with our officers and employees when the occupancy 
permit is issued.

                           PEDESTRIAN TRAFFIC

    Based on the historical data, tourists to the Nation's 
Capitol do not typically drive to their destinations. 
Therefore, we would anticipate the same flow of vehicular 
traffic that is currently present, with a higher level of 
pedestrian traffic. The Department currently supports the large 
charter buses dropping off visitors to the Capitol on First 
Street Northwest and Southwest along the West Front.
    The Department continues to work cooperatively with the AOC 
and the District's Department of Transportation to look at 
movement of visitors to the Capitol complex within the current 
security restrictions for large vehicles. It is important to 
note that there will be many means of arrival at the entrance 
of the CVC, many noted by Ms. Rouse, that include public 
transit buses, commercial sightseeing vehicles, taxicabs, 
personal passenger vehicles, as well as walking from the 
numerous Metro and subways near the Capitol.

                          CVC TOURIST ENTRANCE

    With regard to the tours, the Department believes the main 
entrance of the Capitol Visitor Center remains the optimum 
entry point for visitors to the CVC and the Capitol. Our 
planning assumptions have consistently relied upon the state-
of-the-art CVC entrance configuration to process large numbers 
of visitors in a more efficient manner so that we can sustain 
the high level of security standards currently maintained 
throughout the Capitol complex. We also understand the concerns 
raised regarding the ability of Members to maintain staff-led 
tours for their constituencies. The Department is continuing to 
work with Congress on this matter.
    In closing, I would just like to thank you again for the 
opportunity to appear before you today, and I will be glad to 
answer any questions that you may have.
    Ms. Wasserman Schultz. Thank you, Chief.
    [Chief Morse's prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315A.009
    
    [GRAPHIC] [TIFF OMITTED] T2315A.010
    
    [GRAPHIC] [TIFF OMITTED] T2315A.011
    
    [GRAPHIC] [TIFF OMITTED] T2315A.012
    
    [GRAPHIC] [TIFF OMITTED] T2315A.013
    
    Ms. Wasserman Schultz. Mr. Dorn.

                    Opening Statement--Terrell Dorn

    Mr. Dorn. Thank you, Madam Chair, Mr. Latham, members of 
the subcommittee.
    Since the last hearing, AOC has continued to move the 
construction forward and also the fire alarm acceptance 
testing. The number of open PCOs, or change orders, while still 
large, continues its downward trend. The number of punch-list 
items, or deficiencies, is down by about 10 percent since the 
last hearing. Two of the deficiencies that we discussed last 
month are continuing towards resolution.
    Most of the atria smoke exhaust equipment is on hand. There 
is some remaining equipment that Mr. Ungar has plans to 
expedite delivery of, if necessary.

                     FIRE ALARM LIFE-SAFETY TESTING

    The additional wiring to address the fire alarm situation 
is proceeding. In working cooperatively, the AOC and the fire 
marshal have been able to reduce some of the second and third 
shifts they had planned for testing.
    Risks, while gradually diminishing, still remain. While the 
punch-list is trending down, there are future final inspections 
to take place which could reverse that trend again temporarily.
    Work on near-critical paths continues to slip; however, a 
schedule was not received during the past month, so we do not 
know the full extent. But we do know that we do not expect it 
to affect the schedule at this point.
    We have raised the issue of the East Front pavers on 
several occasions. AOC's investigation of that issue continues. 
However, it appears the problem is widespread and could affect 
the majority of the plaza at some point during repairs. 
Responsibility is still uncertain.

                           CVC COST ESTIMATES

    At the subcommittee's request, since the last hearing, AOC 
reviewed and revised portions of its cost estimate. A number of 
line items changed either up or down, but the bottom line 
remains the same at $621 million. Our review of the revised 
estimate indicates the estimate is realistic. And given the 4 
to 5 months of remaining construction time, the contingency 
appears adequate, provided there are no unusual delays.
    In summary, Madam Chair, the schedule remains the same with 
November for a potential opening date--at Congress' discretion, 
of course. And the budget remains the $621 million.
    Thank you.
    [Mr. Dorn's prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315A.014
    
    [GRAPHIC] [TIFF OMITTED] T2315A.015
    
    [GRAPHIC] [TIFF OMITTED] T2315A.016
    
    [GRAPHIC] [TIFF OMITTED] T2315A.017
    
    [GRAPHIC] [TIFF OMITTED] T2315A.018
    
    [GRAPHIC] [TIFF OMITTED] T2315A.019
    
    Ms. Wasserman Schultz. Thank you very much to all of you.
    And, Mr. Ungar, I assume you do not have anything in terms 
of a statement.
    Mr. Ungar. No.

                          CVC COMPLETION COSTS

    Ms. Wasserman Schultz. Okay. I know you both said it, but I 
want to just underscore and make it clear, since that is one of 
the main reasons we do these oversight hearings:
    Mr. Ayers and Mr. Dorn, you both agree and are on the same 
page that we are still at $621 million estimated cost to 
complete, an opening of November, and that we are on track for 
both of those?
    Mr. Ayers. Yes.
    Mr. Dorn. That is correct.
    Ms. Wasserman Schultz. Okay. That is good to know. 
Comforting.

                          BUSING PLAN CONCERNS

    I want to touch base with both the Chief and you, Ms. 
Rouse, about the busing plan, because I have to tell you that 
since our last hearing I have had--and I do not know if you 
have, Mr. Latham, although I have to imagine you have--I have 
had a lot of members come up to me on the floor expressing 
concern about the busing plan, that they are concerned about 
their constituents.
    I represent a district with a very high proportion of 
senior citizens, and I have about-to-be fourth graders, twins, 
who are approaching the school year in which they make that 
trip to Washington, DC, in many cases, across the country. 
Although I know you minimized in your opening statement the 
distance that would be required for people to walk from where 
the bus drops them off, I have to tell you my 8-year-olds have 
little legs and they complain after a couple blocks. And I have 
a 4-year-old also.
    So I am concerned that the distance that you are asking 
people to walk is too great, particularly for the frail elderly 
and for young children.
    I am also concerned about the dollar per person that we 
would be charging people to get on the Circulator bus.
    And I am lastly concerned, if you could address, are we 
going to, with some of these large tours, be able to use just 
one bus per group? Do you anticipate the buses accommodating an 
entire group? And what do you do with the leftovers if they do 
not?

                         CHARTER BUS OPERATIONS

    Ms. Rouse. I will try to take them in components.
    For many buses, 60 percent of the buses, during a typical 
busy time, the charter buses, will continue to drop off at the 
West Front. People will be dropped off there, and they will 
walk around the building. This is the way most people 
historically have come to the Hill, and I would imagine that is 
going to continue to be the scenario. If buses for some reason 
opt to drop off at Union Station, tourists can come to the 
Capitol a number of ways. They could, if they wanted to, get on 
the Circulator bus and pay a dollar.
    Ms. Wasserman Schultz. But if they could drop off at the 
West Front, why would they drop off at Union Station?
    Ms. Rouse. It depends on the bus company. It depends on 
what arrangements they have made. The Capitol Police have said 
that they can still continue to drop off at the West Front of 
the Capitol, but they may choose to drop off at Union Station.

                           EDUCATIONAL TOURS

    What we have tried to do--for which we have begun to talk 
with programming about--is figure out a way to make this a 
learning experience for younger audiences because of the 
walking distance. As you walk the grounds, the groundspeople 
have the trees labeled, in addition to having other ways to 
make that part of the learning experience.
    The public programming staff will be preparing a pre-visit 
package for teachers to help them make every part of their 
moment to the U.S. Capitol an experience. This is part of what 
we are trying to do.
    The bus companies may have the option, since they are 
packaging educational tours, to offer tourist the opportunity 
for a card that will give them access to use the Circulator 
bus. There would be a fee that they would probably pass on in 
their packaging. That is one possible solution.
    Another solution is that we would encourage people to do is 
take--go to Capitol South Metro Station. It is only two blocks 
up; Union Station is four blocks. So there are other 
opportunities.
    Many people, because of the new tourist attractions that 
will go on in this end of Washington, DC, will be coming up 
from the American History Museum which is right down the street 
from the Newseum. There is now a new triangle of excitement, if 
you will, between the three museums.

                            CIRCULATOR BUSES

    Ms. Wasserman Schultz. How about whether they will fit on a 
single Circulator bus?
    Ms. Rouse. On a Circulator bus, which is about 30 people, 
they will not. On an N-22 regular bus, that is about 40 people. 
So that would be an option they would have to make.
    Ms. Wasserman Schultz. What do you do? Most of my school 
groups are--and I am sure the other Members' school groups are 
the same--150. How are we going to keep these groups together 
and make sure that their teachers can keep track of them? And 
how long will the kids who got dropped off at the Capitol have 
to wait for the other buses to bring the other kids? I mean, 
the logistics do not sound like they are going to work.
    Ms. Rouse. If they are opting for the Circulator bus, those 
buses run every 10 minutes. That is my understanding. If we are 
preparing groups, if they opt to use the Circulator bus, we 
would remind them how big the group is and have that be part of 
their pre-experience. Remember, you need to have X number of 
supervisors with groups of 30, if they decide to do that and if 
they are not being dropped off on the West Front.
    Ms. Wasserman Schultz. My time has expired, and I wanted 
the Chief to answer as well. But I mean, a 150-kid-size group, 
the Circulator buses are going every 10 minutes, that means 
that they are going to have to wait 50 minutes before their 
entire group gets to the Capitol to begin their tour? That is 
not going to work.
    Ms. Rouse. If they are going to take the Circulator and not 
walk the four blocks or if they are at Union Station.
    Ms. Wasserman Schultz. With all due respect, little kids--I 
do not even like to walk from Union Station to here--little 
kids are not going to walk--we are not going to be able to walk 
school groups of young children from Union Station to the 
Capitol and expect that to be a realistic everyday thing.
    Ms. Rouse. I understand, I had a small child at one point; 
I know what that is like getting small children together, it is 
like herding cats. But most groups of them are typically 
dropped off at the West Front, and then they are just walking 
around the building.
    So it is an issue.
    Ms. Wasserman Schultz. Mr. Latham, do you mind if I let the 
Chief answer?
    Mr. Latham. No.
    Ms. Wasserman Schultz. Thank you.
    Chief, part of the reason that we are moving the buses off-
site is because of security. So if you could address those 
concerns as well.
    Chief Morse. Right.

                  LARGE VEHICLES AND SECURITY CONCERNS

    Obviously, large vehicles are an issue for us for security 
reasons. But many people have asked, can you screen buses 
before they come up. And--those issues were talked about years 
ago when we started these discussions, and it takes more 
officers, more assets and resources, and it also takes a 
location. It takes space because of, you know, traffic 
congestion and such. So those were all the considerations made.
    With regard to Union Station, I believe one of the primary 
reasons Union Station was selected was because it provided 
parking to commercial buses, which has not been something that 
they have been afforded in the past. They have only been 
allowed to drive around the city or sit and stand in 
neighborhoods, et cetera. And that has always been an issue.
    And it was also very difficult to reconnect groups of 
people with their bus companies. They ended up walking a 
considerable distance at the end to get those buses.
    So sort of the solution was to find a place that was a hub, 
if you will, that provided shelter and amenities, bathrooms, 
and stores, et cetera, and then the solution would come from, 
you know, the people involved in moving people of how to get 
them up to the CVC, should they use that hub as a central 
location to park buses and off-load people.
    And I believe one of the solutions was the Circulator bus 
system. But also it was incorporated into a much larger plan 
where the CVC would not just be the focal point of the city 
attractions, that they would interconnect with other 
attractions along the Mall. So the Circulator bus system that 
runs along the Mall would also run up on Capitol Hill, as well 
as the Circulator system that is primarily used for Union 
Station to the CVC, to the eastern corridor, to the stadium.
    So that was some of the background of why they chose that 
location as a central drop-off point.
    Ms. Wasserman Schultz. Thank you for your indulgence.
    Mr. Latham.
    Mr. Latham. Thank you, Madam Chairman. I share your 
concerns.
    I have the honor every year of getting up and having a 6:30 
breakfast with about 120 people from the Ogden, Iowa, high 
school, which was this morning. So if I am a little sleepy 
today that may be why.

                     MANAGING LARGE TOURIST GROUPS

    I just could not help, sitting there with this large group 
of people with three buses outside; if they go to Union 
Station, the group will be broken up.
    Chief, maybe you know the answer--is there any study, or 
any way to know for sure whether it is actually more secure to 
have people get off one bus, out of their group, commingle with 
a lot of other people, then get on another bus to come up to 
the Capitol? It seems that you would almost have a better 
security setting with a group that is kept together. Is there 
any way of screening down at Union Station? How can you say it 
is more secure to do it this way versus having them kept 
together?
    Chief Morse. Yeah, just with respect to the vehicle itself, 
not the people. The vehicle can obviously--a vehicle that size 
can be very dangerous in the wrong hands.
    With that being said, we go back to assets and resources of 
the police department in order to do that screening in a 
location that affords us the opportunity to park that many 
buses and screen them prior to entering the grounds. So it 
comes to, an assets-resources situation.
    And so the answer is ``no,'' there is no study or anything. 
But I would agree with you that the separation of groups and 
such would be very unorganized and that type of thing with 
school children; and we have to find a way to fix that.
    With regard to the buses, buses can be screened and buses 
can then be rendered safe. But it takes people, it would take 
other assets and resources in order to do that, as well as 
space.
    Mr. Latham. Ms. Rouse.

                      LARGE GROUPS--BEST PRACTICES

    Ms. Rouse. Yes, I just wanted to add and reinforce the 
notion that many large groups still would be dropped off on the 
West Front. We will have Visitor Assistants on the ground there 
who are trained and accustomed to knowing that you have groups 
of 150 getting off three buses, and they are going to come into 
the Capitol Visitor Center at a certain time if they are taking 
an historic tour.
    Also I was reminded by staff that if they are coming down 
from Union Station and if their bus company opted to park there 
and have tourists unload and then come on over, those buses 
from the Circulator are 60-passenger buses. So that would be an 
option for many more people if they want to get on the bus for 
a short, four-block ride.
    A lot of this will come down to us using the best practices 
of many large institutions who corral staff and kids all the 
time. You greet them, you orient them, you make sure they are 
prepared, and then you make sure after they get within your 
building they are also escorted appropriately.
    There is a lot that we are going to implement that we know 
works successfully. And, of course, there are things that we 
will have to learn.
    Mr. Latham. You said, Chief, there are 75 bus parking 
places at Union Station. Do you know how many of those are 
contracted out already?
    Chief Morse. I do not.

                     BUS VOLUME--ENHANCED SECURITY

    Mr. Latham. There are about a thousand buses that come into 
town during the spring and fall, every day--I mean, various 
kinds. I just would be very concerned about capacity down 
there, and also--I do not see how you have enhanced security by 
breaking groups to where you don't know who they are. And you 
say you are screening the Circulator buses and passengers at 
Union Station? And you are going to be there as far as 
screening the buses and the passengers at Union Station?
    Chief Morse. The Circulator buses and Metro buses do not 
have compartments that are hidden, compartments that can carry 
those loads. So we do the screening of those buses prior to 
entering the Hill at the truck interdiction, large vehicle 
interdiction points around the Capitol complex with officers 
who are outside.

                           PROPOSED BUS PLAN

    Mr. Latham. Do you know if that is going to take more of 
your efforts? Do you know the amount of overtime in your budget 
request for this operation as far as the additional efforts you 
are going to have to cover the Circulator bus plan?
    Chief Morse. With respect to the Circulator bus plan that 
is being proposed, existing assets and resources would cover 
that.
    If I could, the truck interdiction program was a program 
that was initiated without FTE, so that is all backfilled with 
overtime. When the additional Circulator bus system from Union 
Station is incorporated, it would be no different than the 
current buses and Metrobuses that we screen very quickly and 
allow to access the Hill. However, if any streets that are 
currently closed were to be opened for that transit, then it 
would in fact drive more or additional overtime.
    So it is from existing overtime that we currently operate 
the truck interdiction program. So it would be at no additional 
cost, based on this proposal by DC-DDOT.
    Mr. Latham. Okay. Thank you.
    Ms. Wasserman Schultz. Ms. McCollum.
    Ms. McCollum. Thank you.

                  DROP OFF CONCERNS--INCLEMENT WEATHER

    I think it is good to raise concerns about the drop-offs, 
but I think that this is something that should be under a close 
scrutiny and a lot of monitoring the first couple times, with 
feedback from individuals.
    And different groups are going to be set up different ways. 
I did not make much money, but I spent summers running day 
camps for YMCA. And so I did big-group things. And the 
difference is going to mean what your ratio is to students, the 
age of the students. There are going to be a whole lot of 
factors involved.
    But the one thing that happens here quite often is 
inclement weather and rain. And so if someone is planning on 
walking those four blocks getting off of a bus, folks knowing 
that the Circulator is an option, or do the Circulators at some 
point become overwhelmed because they are not dedicated to the 
CVC.
    I think there are some questions, but I think you can come 
up with some best practices. But there really needs to be 
really good information going out to the groups--how far they 
are going to be expected to walk what they could do with bad 
weather.
    And, you know, every State has different regulations on 
field trips, every school district has different regulations on 
field trips. So there are best practices as to breaking up your 
groups ahead of time. That is what we used to do, so people 
knew what group they were in. And we did things with color 
coding.
    I mean, you see that, and you have done enough field trips 
with your kids. But I really do think thinking ahead is 
probably a good idea, because one lost kid on the Capitol 
complex is not going to be great.

                            PAVER ASSESSMENT

    I would like to learn more about the pavers, because I 
would like to be able to tell my constituents that are going 
over to the Senate that they can walk through outside and not 
take the extra walk. Tell me what is going on with the pavers 
and when we can get this fixed.
    Mr. Ungar. Yes, ma'am. As you probably know, if you look 
out on the plaza now, you will see many of the pavers are 
chipped. Some of them are moving and--expanding as well as 
contracting.
    We have retained an outside consultant, an expert 
engineering firm, to come look at the situation and assess it. 
They finished their study. They gave us a preliminary report 
about a week ago for us to fact-check. They asked us to do a 
little more survey work on the plaza, which we have done.
    We are expecting a draft report from them this week. We 
have set up an AOC panel to assess that report. Then we are 
going to go ahead and give it to the contractors involved and 
give them a chance to look at it. At the time that that is 
happening, we are going to be looking at the options.
    We know we have a problem. We know we have to fix a good 
portion of the plaza. And we are going to look at each option, 
cost, time frame associated with it, durability, quality, and 
so forth.
    Ms. McCollum. Mr. Ungar, if I can ask a question, I am 
assuming that when you put the contract out for the pavers 
there were specifications what the weather is like, you know, 
what the weight is. Why are we doing all of this and not the 
person who has the contract?
    Mr. Ungar. Well, there are actually two major contractors 
involved, ma'am. One was the architect who designed the plaza. 
The second was the contractor that installed the pavers in the 
system. What we had to find out was, what is the cause or what 
were the causes of the problems that we are having? Are they 
design related? Are they installation related? Or is it a 
combination thereof? That is what we have asked our engineering 
consultant to determine.
    That is what we need, to first get a definitive assessment 
of the cause and then determine what we need to do to fix it 
and how to fix it. So we have to involve both the designer and 
the contractor that installed it in this process that we are 
going to get through.

                       PAVER CONTRACT RESOLUTION

    Ms. McCollum. If someone did not live up to what was 
specified in the contract, I am assuming that they would be 
responsible for making it right and absorbing those costs.
    Mr. Ungar. That is correct. Our difficulty will be a 
practical one. It will probably take some time to sort that all 
out from a contractual and a legal standpoint.
    What we are going to do, so that we do not have to wait for 
that process to unfold, is once we get our assessment complete, 
reviewed and get the comments back from the contractors. Our 
plan is to proceed, then we will work out the responsibility 
part of that as we proceed. But we do not want to hold up work 
waiting for that to be completed.
    Ms. McCollum. Have you held up payment or portions of 
payment?
    Mr. Ungar. Not specifically for pavers at this point, we 
have not. Most of the plaza was installed some time--ago. So 
the payments have been made. There is some retainage that has 
been held back but its applicability to this situation is 
uncertain. What we would do now is go back to the appropriate 
parties and then seek payment, reimbursement for whatever 
portion it is deemed that they would be responsible for.
    Ms. Wasserman Schultz. The gentlelady's time has expired.
    Ms. McCollum. I asked for the time frame. The time frame?
    Mr. Ungar. Well, in terms of getting all the issues sorted 
out, we hope to have all those sorted out by June or early 
July. Then we need to solidify what we are going to do and get 
congressional stakeholder input on the fix and the timing.
    Our assumption is we may have to stage this, because we do 
not want to have the plaza torn up 100 percent all at once. We 
may be able to start sometime in the summer. It is not quite 
clear yet how long it is going to take us. We do not know which 
fix we are going to go with, how much of the plaza we have to 
work on, and exactly how much time that is going to take.
    Ms. Wasserman Schultz. Thank you, Mr. Ungar.
    Mr. Bonner.

                      TOUR DROP OFF RE-EVALUATION

    Mr. Bonner. Thank you, Madam Chair. And I associate my 
concerns with you, as others have already. Just a couple 
observations, and then to try to get a couple questions in.
    Ms. Rouse, just for the record, people have been dropping 
buses and tour groups have been dropping people off down at the 
foot of the Capitol on the West Front because that is the only 
choice they had. The East Front was closed. So to say that was 
an act of choice as opposed to an act of necessity or 
convenience, I think--and we have got the Acting Architect here 
who can correct me if I am wrong. But I think the original 
Capitol cost $1.4 million in the 1790s. We are talking about a 
$621-million new Visitor Center that we are all excited about, 
and we are still going to tell people they have to get off four 
blocks away or go to Union Station and get on a Circulator bus 
and potentially pay a dollar.
    It is appropriate we are having this discussion on April 
15th, tax day, when millions of Americans are writing their 
checks to fund the Federal Government. But I think the record 
should note that they are letting the groups off there because 
that is really the only choice they have at the present time.
    Ms. Rouse. For the last 7 years it has been the practice. 
The West Front allows the buses to be able to turn around. 
Coming down First Street, there is not that opportunity to drop 
people off and head the other direction.
    There is a lot of traffic along First Street. One of the 
studies that we are going to do and we will have for you next 
month is a pedestrian study of what traffic will be on First 
Street with the Library of Congress and the CVC both having 
people crossing the street. It is something we definitely have 
to look at.

                            CIRCULATOR BUSES

    Mr. Bonner. Are the Circulator buses currently purchased 
and in service or available, or are we going to have to 
purchase those as well?
    Ms. Rouse. The Circulator buses are DDOT's buses. They are 
in use. You see them often, the red buses going down various 
routes. I believe that DDOT is purchasing additional buses, the 
slightly larger ones that they would intersperse on the route 
for the uses of the CVC. It also goes on to the stadium. So it 
is servicing this side of town.
    Mr. Bonner. Do you know how much those buses cost?
    Ms. Rouse. I do not know. I can get that for you.
    [The information follows:]

    Question. Do you know how much those buses cost?
    Response. The Washington Metropolitan Area Transit Authority 
(WMATA) owns and operates the Circulator buses. Their rough estimate 
regarding the cost to purchase five buses is an initial $2.3 million, 
with annual operating costs (including labor, fuel, and maintenance) of 
$1.6 million.
    The CVC is working diligently to comply with security standards for 
the U.S. Capitol while ensuring that all visitors are able to 
comfortably and easily reach the Capitol. Currently, charter buses drop 
visitors near the West Front of the Capitol. Other visitors use the 
Metrorail system or metrobuses, drive and park, or walk. In addition to 
these currently available transportation options, in spring 2009, WMATA 
may change a current Metro bus line to a Circulator route operating 
between Union Station and the Washington Navy Yard. The WMATA has 
informed the CVC that it will add a bus stop at First Street, NE., to 
this route to allow visitors to disembark in close proximity to the 
U.S. Capitol.

    Mr. Bonner. It would be useful to know because--Chief, I am 
not trying to compare apples and oranges, but some of us have 
been to the border, on border trips, and we have seen the 
technology where 18-wheelers can pull through and like a body 
scan at a hospital, they can determine whether someone is 
illegally coming into the country or they are bringing drugs or 
weapons or something else.
    It seems to me the technology is there. I know it requires 
additional resources. But it also seems that you would be able 
to say in a balance, well, this option is going to cost us X 
and this option is going to cost Y. And it--I think it would be 
useful for the committee to know what are all the options you 
have.
    Maintaining security, obviously, is a primary concern, but 
also convenience to the American taxpayers.

                    TRANSPORTATION PLAN COORDINATION

    What groups have--and, Chief, I guess this question goes to 
you or to the head of the CVC--what groups have you met with 
regarding the transportation plan for the CVC? Specifically, 
have you met with some of the bus companies that bring these 
tens of thousands of visitors to their Nation's Capital?
    Ms. Rouse. We have been meeting, since we were discussing 
transportation, with DDOT. We have met extensively with DDOT. I 
have not personally met with the bus tour operators; however, 
our consultants have been involved with discussions with them, 
as we have had discussions with Union Station. So that is the 
level of conversation that we have had.
    We do know that the bus operator groups are very interested 
in the renewed entrance to getting to the CVC.
    Mr. Bonner. Okay. If I can get two more quick questions.

                   CVC MAIN ENTRANCE--CAPITOL ACCESS

    Ms. Wasserman Schultz. Sure. Go right ahead.
    Mr. Bonner. All right.
    First, there was an article in Roll Call, I think yesterday 
or maybe today, that talked about the possibility that visitors 
meeting in the congressional office buildings would also have 
to use the CVC main entrance to come over to the Capitol. Is 
that currently the plan?
    Chief Morse. That has always been the assumption, yes.
    Mr. Bonner. So we have constituents that are waiting in our 
office to meet with us, they need to come over to the Rayburn 
room to meet with the chairwoman, and they will have to go up 
to the CVC to enter the building?
    Chief Morse. That has been the assumption, yes.
    Mr. Bonner. Well, that will be very convenient, I am sure.

                               GIFT SHOPS

    And I guess one other question that was raised in the last 
briefing was the comment or the conversation about the gift 
shops. Currently, as I understand it, the gift shop in the 
Capitol is run by the Capitol Historical Society; is that 
correct?
    Ms. Rouse. Yes, in the crypt.
    Mr. Bonner. And yet the new gift shops will be run by the 
House and profits will go into a revolving fund back into the 
CVC?
    Ms. Rouse. No. Let me correct that for you.
    Mr. Bonner. Thank you.
    Ms. Rouse. The CVC's gift shops will be run by the CVC, by 
the staff, and we will have about 19 people to run those. We 
will buy products, some products from the House and the Senate 
gift shops. We will also be developing our own product lines 
and looking at various things.
    The profit or excess cash over the cost of product will go 
into a revolving account. Once a year that excess, if there is 
any at all, will be reviewed by the oversight committees to 
determine if we continue to invest it back into product or how 
would we use it.

             CVC AND CAPITOL HISTORICAL SOCIETY DISCUSSIONS

    Mr. Bonner. My concern is, what happens to the Capitol 
Historical Society? I assume that some of their operating money 
comes from the operation of the gift shop.
    Ms. Rouse. Yes, it does. I talk to the Capitol Historical 
Society quite a bit, sir. We have been negotiating with them 
over the last several months. As we speak, we are waiting to 
get a document from them.
    We are hopeful that the CVC will be entering into a 
merchandising agreement with them; that we will be buying their 
products. They have some wonderful things. Their mission and 
vision really ties a lot to what we are about; and as an 
educator, I appreciate what they have done. Hopefully, we can 
continue to partner with them on a variety of things.
    Hopefully, by this time next month, we will be able to say 
that we have worked something out.
    Mr. Bonner. Thank you.
    Ms. Wasserman Schultz. Thank you so much, Mr. Bonner.
    Ms. Lee.
    Ms. Lee. Thank you very much, and good morning. And let me 
welcome all of you and thank you very much for your hard work 
and your service and for getting us to where we have come, so 
far.

                                BUS FARE

    And I want to thank our Chair, because I have not been that 
excited about this project, as you know, like many of us. But 
under your leadership I am becoming a little bit more excited 
about the opening, and especially with this team--until I heard 
about this dollar bus charge, bus fee.
    So every time I get really excited, there are some little 
glitches that cause me a little bit of heartburn.
    So I have to associate myself with your comments and see if 
we can figure out a way to not do this. Because I can see very 
quickly how this could exclude many, many people who would want 
to come.
    A dollar, to some, may not be a lot of money; to others, it 
is a lot of money--you know, especially families with a lot of 
kids; especially with low-income individuals; especially with--
again, with African Americans and Latinos and people who have 
not really benefited totally from the American dream. And so I 
just hope we can figure this one out.

                          ISSUES OF DIVERSITY

    Let me thank you, Mr. Ayers, for all of your hard work with 
regard to the issues of diversity. The Black History Month 
celebration was wonderful; and I hope you have other events 
planned, celebrating the diversity of the AOC staff, because it 
is a wonderful staff, and we have many cultures represented, 
and many backgrounds represented. I think that is an excellent 
way to make sure that we celebrate everybody who works there.
    On your small business, small disadvantaged business, 
women-owned business, diversity, inclusion, equal opportunity 
piece, I want to ask you a couple of questions. I have a copy 
of your testimony, and I was pleased to see that--that you 
presented, I guess, before was it the Transportation 
Subcommittee; yeah, Transportation--and also a copy of the 
small business program.

                      SMALL BUSINESS CLARIFICATION

    Just clarify for me when you say small business, I mean, 
that includes small disadvantaged businesses, right, which 
means minority-owned businesses? That means women-owned--under 
small businesses is women-owned business?
    It is hard for me to kind of figure out how these goals are 
being set. I mean, I see 8 percent small disadvantaged 
concerns, but yet everything is under the small business 
program. So can you kind of break out how you are going to do 
the small disadvantaged piece and the women-owned business 
piece?

                            OUTREACH EFFORTS

    And then for Ms. Rouse, let me first thank you so much for 
all the outreach that you are doing. I understand you had a job 
fair; 600 people showed up. I think your work in reaching out 
to the congressional caucuses that represent women, people of 
color, people with disabilities--socially, economically 
disadvantaged individuals--I think that has really taken hold. 
And I would just like to ask you how it is working. If you can, 
give us just a brief update of the outcomes of some of your 
efforts.
    But first to Mr. Ayers and then to Ms. Rouse. Thank you 
very much.
    Mr. Ayers. Thank you, Ms. Lee.

                        SMALL BUSINESS PROGRAMS

    Regarding the small businesses, I think--we have two 
programs. First is for construction contracts above one million 
dollars. We will include this clause that requires contractors 
to recruit small businesses; and ``small businesses'' under 
that definition include small disadvantaged businesses, women-
owned businesses, HUBZone businesses. All of those are included 
under this umbrella heading of ``small businesses.''
    The second program we have is, we have decided to set aside 
all of our work from $5,000 to $100,000 for small businesses. 
Under that umbrella of ``small businesses'' we have internally 
set aside two goals, the first is 8 percent for small 
disadvantaged businesses under that umbrella. The second is 5 
percent for women-owned businesses, again under that ``small 
business'' umbrella. Of course, under that are also HUBZone 
small businesses, veteran-owned small businesses, service-
disabled small businesses; there are a variety of definitions 
from the Small Business Administration. All of those are under 
this global umbrella of ``small business.''
    Ms. Lee. Okay. Thank you very much. And I will talk to you 
further about that, because I want to see how it is working, 
how it is breaking out.
    Ms. Rouse.

                          APPLICANT DIVERSITY

    Ms. Rouse. Thank you. We are making some progress on the 
hiring front. We still have 168 positions to fill.
    The number of activities, the diversity of our applicants 
is amazing. Six hundred fifty people responding to a series of 
ads was outstanding; almost 200 people showing up for 
interviews is just a testament to all the hard work that has 
been done.
    We do have much more work that we have to do in order to 
fill these positions. Key to all of this for me--is the 
training of everyone. The ability to have welcoming, 
professional trained, staff is key.
    In the museum world, in the visitor world, the most 
important thing that can happen to a young person when they 
enter a building like the Capitol is, someone smiles at them 
and greets them, because that will be the memory that they take 
home with them.
    So the ability for us to train and re-train our staff, on 
our ability to service, will make a tremendous difference on 
what people think about their experience. So we are dovetailing 
that activity with the same energy that we are working with our 
hiring.
    Ms. Lee. Great.

                     VARIOUS LANGUAGE AVAILABILITY

    And also the languages that are going to be provided for in 
the interactive features of the CVC film, do you have that laid 
out yet?
    Ms. Rouse. There were five languages. And the minute you--I 
said that--one is Spanish, and one is Korean, and I will get 
back to you with the other two for the record. In the years 
going forward, I do want to be able to have multi languages 
available among our Visitor Assistants, as well as our tour 
guides, because that is going to be key to our ability to 
seeing ourselves as a global center.
    Our Web site will be live to the world, so our ability to 
communicate across that will be key.
    [The information follows:]

    Question. What languages will be provided for the interactive 
features of the CVC film?
    Response. There will be five languages available in addition to 
English: Spanish, French, Italian, German, and Mandarin Chinese. The 
CVC Web site will be in English with an option to download a printable 
mini-guidebook in the above-mentioned languages. Audio information on 
the Exhibition Hall tour headsets will also available in English, 
Spanish, French, Italian, German, and Mandarin Chinese.

    Ms. Lee. Thank you very much.
    Thank you, Madam Chair.
    Ms. Wasserman Schultz. You are welcome. Thank you, Ms. Lee.

                    CVC WEBSITE NAVIGATION CONCERNS

    Ms. Rouse, I want to focus on the CVC Web site and the 
process that visitors would go through to book a tour. At the 
last hearing I had asked you to go back and take a look at the 
Web site itself, and particularly the home page, where it did 
not appear that finding where you could click to book a tour 
was very prominent on the home page.
    And for the Members, you have the mockup of the reservation 
system and the home page in your packet.
    What progress have you made in making the tour information 
more prominent on the home page, as well as my very strong 
suggestion that you change the wording of the buttons for 
contacting your Senator and contacting your Representative to 
be ``contact your Senator for a tour'' and ``contact your 
Representative for a tour,'' which I note you have done under 
group reservations; but it still says, ``contact your Senator'' 
or ``contact your representative'', without tour information 
for individual and families. Is that just an oversight?
    Ms. Rouse. We have on our template, the tour information 
flush right, and we are going to make it as prominent as 
possible. It will also appear in other, different places.
    We are continuing to link into the House of 
Representatives, and the U.S. Senate web sites. We use those 
existing sites because they have the best information. That is 
our goal.
    Of course, the rest of it is just placement language. Under 
the tour page, the group reservations, we did change the 
buttons there to help people to be able to navigate into the 
system. We are still looking at the notion of having the same 
buttons under ``contact your Senator'' for the smaller groups, 
for the individuals that might be coming.
    That is where we are at the moment. Working through with 
our team.

                   LACK OF WEB SITE ICON SIMILARITIES

    Ms. Wasserman Schultz. I do not understand that answer.
    There is a difference in the wording between individual and 
family reservations and group reservations. Why wuold you not 
be including a ``contact your Senator or Representative for a 
tour'' button on the individual and family reservation section?
    Ms. Rouse. At this moment, we were focusing primarily on 
the group reservations for doing that and trying to still firm 
the logistics of how that will be done for small groups, 
individuals and the families.
    So I will get back to you to let you know how we are 
progressing on that.
    [The information follows:]

    Question. There is no indication, with individual and family 
reservations, a constituent can book a tour through their members. Why 
would you not be including a ``contact your Senator or Representative 
for a tour'' button on the individual and family reservation section?
    Response. The ``button'' indication system currently shown on the 
draft Web pages shown to the Subcommittee is a working format and does 
not best reflect the envisioned final system. The CVC Web site will 
provide information to potential visitors on how to book tours through 
Members' offices, as well as the Advance Reservation System. The final 
Web site will provide clear and easy access for constituents to book 
tours through their Members' offices.

    Ms. Wasserman Schultz. Okay.
    Is there a question mark as to whether you would use that 
wording? Because, again, it is the strong desire of the Members 
of the House and Senate not to have people default into the 
advanced reservation system which, the way these three buttons 
are laid out, is what would happen when they are interested in 
taking a tour.
    There is nothing in the individual and family reservation 
section that would indicate that you could get a tour from the 
Member that represents you, it just says, ``contact your 
Senator,'' ``contact your Representative.'' if I want a tour, I 
am not interested in contacting my Representative or Senator, I 
want a reservation for a tour, which is the third button.
    So I do not know how to make any more clear or that the 
Members can make any more clear that you need to clearly 
indicate on the button for all the reservations and all the 
options that a constituent can book a tour through their 
Member.
    I do not understand. What is the problem?
    Ms. Rouse. I do not think there is a problem. It is just a 
question of us going through the logistics of making sure that 
that is what we can do. We know we can absolutely do it with 
the groups, and that is what we are focusing on.
    Ms. Wasserman Schultz. Who is ``we,'' because it is 
actually harder for a Member's office to give a tour to a large 
group because we have to enlist more staff to handle the ratio 
of staff to constituents. It isn't difficult at all for a 
Member's office to handle a small group or individual family. 
So who is ``we''?
    Ms. Rouse. The tours you are primarily talking about are 
staff-led tours. Please let me get back to you for the record 
and correct any misperception I may have given here on how we 
are proceeding with addressing the buttons.
    [The information follows:]

    Question. So I do not know how to make it any more clear or that 
the members can make any more clear that you need to clearly indicate 
on the button for all the reservations and all the options that a 
constituent can book a tour through their member.
    Response. The ``button'' indication system currently shown on the 
draft Web pages shown to the Subcommittee is a working format and does 
not best reflect the envisioned final system. The CVC Web site will 
provide information to potential visitors on how to book tours through 
Members' offices, as well as the Advance Reservation System. The final 
Web site will provide clear and easy access for constituents to book 
tours through their Members' offices.

                  MAXIMIZING CONSTITUENT OPPORTUNITIES

    Ms. Wasserman Schultz. I am getting frustrated because this 
is the third CVC oversight meeting in which I have gone back 
and forth. It might be the fourth CVC oversight hearing in 
which we have gone back and forth with you on making sure that 
we can maximize our constituents' opportunity to take a tour of 
the Capitol led by our staff. And it is really, I feel like I 
am struggling with you in order to be able to ensure that that 
can still happen.
    I shouldn't have to go through four oversight hearings in 
order to do something as simple as ensure that our constituents 
can book a tour and know where to go and what button to click 
on to do that.
    Ms. Rouse. Madam Chair, I think it is just my inability to 
communicate this well. As you go into ``Contact your Senator,'' 
there is a button that asks if you want to take a staff-led 
tour. So my problem is I am having difficulty communicating 
what these other screens are. So I need to do a better job at 
that, and I will get back to you with that information.
    Ms. Wasserman Schultz. Okay, but before my time expires, I 
want to clearly indicate that I don't think it should be 
several screens later. I think on the tour page, right at the 
beginning, it should indicate that you can click on that button 
to book a tour through your Member that represents you; not 
contact and then click on the button that says ``Take a Tour.'' 
I don't know how much more crystal clear I can be than that. My 
time has expired.
    Mr. Latham.

                      ACHIEVEMENTS AND CHALLENGES

    Mr. Latham. Thank you, Madam Chairwoman, very good.
    Going back to what Mr. Bonner said, you know, we are 
spending $621 million. We just won awards for all kinds of 
architecture and what a great, great facility this is, and it 
appears to me we are making it difficult for anyone to get 
there. I mean, we are doing everything we can to keep people as 
far away from it, to put them at a long distance hike, doing 
everything we can to make it unaccessible. I just don't get it. 
I don't think that was ever anyone's thought to make things 
this difficult and confusing and convoluted.
    I would hope that we could find some resolution to these 
problems because it doesn't seem to me that it is going to 
work, and we are going to have a lot of people who are not 
going to enjoy the whole experience because of some of the 
things that maybe they had to go to through to get there.

                 U.S. CAPITOL POLICE OPERATIONAL PLANS

    Chief, you testified last week, on a different subject, 
that from an emergency planning and preparedness standpoint and 
special operating procedures, the Capitol Police are prepared 
for the November 2008 opening. And I commend you for those 
planning efforts. Once the permit of occupancy is issued, 
hopefully in July, what operationally will you need to do? Is 
there anything different at that point that you will need to do 
to be ready for the opening, Chief Morse?
    Chief Morse. Yes, we plan probably around 45 days to train 
our personnel: first of all acclimating them to the building; 
and then, of course, acclimating them to the technology and 
systems that are in place; and then having on-site training 
drills regarding evacuation, locking down the building, 
sheltering people, et cetera. Those are the preparations that 
we would make in line with the special operating procedures 
that were drafted.
    Mr. Latham. Which you can't do until you are allowed to be 
in the facility and have the permit, right?
    Chief Morse. That is right.

                     CR IMPACT ON OPERATIONAL PLANS

    Mr. Latham. It kind of goes back to my normal question 
again, but your budget request includes an increase of $7.9 
million for operation in the CVC and $4.9 million in overtime. 
Most of it, obviously, will be in the next fiscal year. How do 
you handle that if we are in a continuing resolution as many 
folks believe we will be?
    Chief Morse. The impact is obviously significant, because 
we have made many attempts to save over time and redeploy our 
personnel. But with 21, I believe it is 21 shy of our number to 
operate the CVC that we are asking for in, 2009; the 
possibility of staff-led tours through the tunnel is an 
additional 10; and with the opening of the new visitors 
experience as well as attrition, it would be very difficult. 
And it impacts our ability to provide a number of officers to 
do the job.
    My biggest concern is that we would have to backfill it 
with overtime, and working our officers extremely long hours 
and many days throughout the week becomes very stressful for 
them. So the impact is obviously money. The impact is obviously 
on our officers and employees.
    Mr. Latham. Okay.
    I am sure the chairman and I would want to work with you if 
we get into that situation. Backtracking to my earlier 
question, does anybody step back and say, we are just really 
trying to make it as hard as possible?
    Chief Morse. Well, I definitely don't want to make it 
difficult.
    Mr. Latham. We are doing everything we can it seems like.
    Chief Morse. I am willing to, and I have been working with 
everyone regarding the security requirements. And I think that 
Congressman Bonner asked for various solutions. I think we can 
offer various solutions and options to meet your concerns.

                      CVC--A WELCOMING EXPERIENCE

    Ms. Rouse. I think that we will provide a much greater 
experience for people. First of all, you will be able to get 
through eight different magnetometers at a rate that, right 
now, the Capitol Police is not able to do, so the speed with 
which people can get into the building will improve. They will 
be able to get into an environment that is air conditioned; you 
have benches, and you can use rest rooms. Part of the 
frustrations of visitors is often how uncomfortable they are 
for that waiting moment. Part of our whole welcoming approach 
is to make sure that we minimize that and they can get into an 
environment where they can get a break from it.
    We can't control how long it takes them to walk up from 
Smithsonian, unfortunately, but many people will be coming up 
from places like American History and Air and Space up to the 
Capitol. Once they get to us, we want to make that a welcoming 
experience. Smithsonian does a very good job of making it 
welcoming. So, I do think we need to be mindful of that.
    As part of that, we also want to make their dwell time 
within the CVC pleasant as well, so there is a restaurant 
moment. There is a restroom moment. There is an entertainment 
moment.
    Mr. Latham. Is this part of the script for the day?
    Ms. Rouse. No, unfortunately. It is what we are doing, 
taking greeting 3 million people very seriously.
    Mr. Latham. The problem here, it is 100 degrees outside 
sometimes in July and August, and you are making people walk a 
minimum of four blocks in very, very adverse conditions to get 
to the place, at a minimum. I mean, that is my concern.
    Thank you, Madam Chairwoman.
    Ms. Wasserman Schultz. You are welcome, and I share your 
frustration as well, Mr. Latham. I really do.
    I am sorry, I am going to turn it over to you in a second, 
Ms. Lee.
    But we are now moving from the point where we have had for 
the last year our almost exclusive focus on the construction of 
the facility, which is 99 percent complete, which we have 
repeatedly and consistently for the last several hearings been 
able to hear a report, at least since November when you, the 
project partners, got together and agreed on the cost to 
complete and the opening date, and that has not shifted. It is 
allowing us to focus more on the logistics of your operational 
plans.

                          CONSTITUENT CONCERNS

    And, you know, at the end of the day, you need to 
understand that we as Members are going to bear the brunt of 
the criticism and the concern and the complaints when we have 
frustrated constituents who are the parents of hot, crying 
little kids, or senior citizens who are passing out from heat, 
or people who are frustrated that they have already had to 
reach deep in their pockets to pay for the field trip to get 
their kids up here, and on top of that, now it is another 
dollar to put them on a circulator bus. And we are separating 
those kids and making them wait for I don't know how long until 
they actually get to the facility.
    And you know, I know this seems harshly critical of your 
plans, and I know you have an incredible amount of experience, 
Ms. Rouse, and I have confidence that you have the ability to 
make this process smooth.
    But, Chief, I realize that the CVC is designed so that we 
can keep the Capitol secure, but the Members have always been 
really very, very mindful of not making the Capitol into a 
fortress. And that is something that I just ask that you keep 
in mind.
    And thank you, Ms. Lee.
    Ms. Lee.
    Ms. Lee. Again, I have to associate myself with your 
remarks. I won't go through that.
    I think bottom line is people have to feel that their 
experience was worth it and that they had a pleasant experience 
to be able to benefit from all of the good stuff that they are 
going to learn and witness. Oftentimes just the experience of 
getting there, going through whatever they are going through 
overrides what they really are there to participate in. So I 
think that is going to be very important. Otherwise, it will 
all be for naught.

                    COST OVERRUNS AND CHANGE ORDERS

    Let me go to the subject of cost overruns and change 
orders. From what it looks like, and I have to ask you if this 
is the case, some change orders have been closed, yet there are 
new proposed change orders which almost means there is a wash 
in terms of actual closing of change orders. So I would like to 
find out what is going on, what the number of outstanding 
proposed change orders are, how much, and where did you think 
this will land?
    And before you respond, because I wasn't at the hearing 
last week, let me just welcome--is it Ms. Jarmon--the new Chief 
Administrative Officer of the Capitol Police. It is wonderful 
to see you. Good luck, and we are here for you. We had six 
hearings, I think, last week at the same time, so I didn't get 
a chance to say ``hi'' to you, but welcome.
    Mr. Ungar. Yes, Ms. Lee, on the change orders, both the 
number and the dollar value of those over time have come down. 
Although, if you look at it in the last several months, you are 
absolutely correct; the number that we were able to settle is 
basically about the same as the new ones coming in. The reason 
for the new ones coming in is that, even though we are 99 
percent complete, we are identifying issues and problems as we 
proceed to finish the facility. We are having inspections by 
the Office of Compliance. The Fire Marshal is conducting his 
Acceptance Testing, and there are issues that come up there 
that we have to address.
    So for the next 2 months, we will probably have additional 
changes, and proposed changes coming in. We will still be 
settling the ones that we have, but we probably aren't going to 
see an appreciable drop for probably the next 60 days. I 
suspect that, afterwards, we will see a drop because we will be 
closing out and settling more than we will be opening.

                    PROPOSED CHANGE ORDER ESTIMATES

    Ms. Lee. What do you think the dollar amounts of the new 
proposed changes are?
    Mr. Ungar. Right now the dollar value of the proposed 
changes is roughly under $30 million. However, when we look at 
that, about four of those proposed change orders account for 
over a half of that dollar amount. And secondly----
    Ms. Lee. These are for what, what are they for?
    Mr. Ungar. Well, could I provide that information?
    [The information follows:]

    Question. What four proposed change orders account for about half 
of the slightly under $30 million in proposed change orders that are 
currently open for the CVC project?
    Response. [Clerk's Note: This information is procurement sensitive 
and will be kept in committee files for a limited period of time.]
    Ms. Lee. Sure.
    Mr. Ungar. These are procurement-related issues. I would 
rather not say publicly, but we can get you that information.
    The other point I would like to make is that most of those, 
however, of the new ones or the ones we haven't settled are 
under $20,000. Historically, about 30 percent of those that we 
have got don't go through; they are rejected or voided. So we 
probably won't be seeing all of that $30 million come to 
fruition in contrast modification.
    Ms. Lee. Just for the record, the Chair has informed me 
that the change orders are within the $621 million.
    Mr. Ungar. Correct, yes.
    Ms. Lee. So we are not talking about anything above that?
    Mr. Ungar. Right.
    Ms. Wasserman Schultz. I just wanted to make sure we have 
that clear.

                   CANNON TUNNEL AND STAFF-LED TOURS

    The only other question I have relates to the Cannon 
tunnel, the issue of staff-led tours, and I know you have 
included in your budget request, Chief, an additional 10 
officers in the event that Congress does decide to continue to 
use the tunnels, which would be much to your dismay, I 
recognize, for staff-led tours. Is your plan designed, in the 
event that Congress does decide to do that with those 10 
officers, that pretty much we would utilize the tunnels in the 
event of inclement weather, whether it is too hot or raining or 
something like that? Or is that plan just in general that we 
would switch to a main CVC entrance as well as a utilization of 
both tunnels?
    Chief Morse. I think that the plan would be to utilize both 
and certainly the tunnels for inclement weather and situations 
not conducive to people standing outside or whatever.

                     TUNNEL CHALLENGES AND CONCERNS

    The only concern I have with the tunnels, and I have 
expressed this before, is that they are very tight. The air 
flow is poor. The lighting conditions are poor. And it is very 
difficult to evacuate or help people in that type of 
environment. It is not very welcoming. It is not a situation 
that many like to be in.
    So, with the front entrance of the CVC being so grand and 
open, and obviously the technology there to screen a very high 
volume of people, it is optimum. But we realize that there are 
concerns and assumptions may change. And I think, from the 
beginning, we have planned out various assumptions that could 
change and if we needed people or resources to get that done, 
so we put the 10 in the 2009 budget in the event that that were 
to occur.
    The only other challenge we have, and this is regarding the 
CR, was not being able to hire those folks and have them 
trained in time to do that service. So that was why it would 
require CVC entrance and the overtime.

                 OPERATIONS PLANS FOR INCLEMENT WEATHER

    Ms. Wasserman Schultz. I understand. Just to make a note, 
that decision has not been made by our leadership yet. As far 
as whether or not the main CVC entrance would be used 
exclusively or if we would use, all of the time or part-time 
for inclement weather, the Russell and Cannon tunnels. Correct?
    Chief Morse. That is correct.
    Ms. Wasserman Schultz. Mr. Latham.
    Mr. Latham. Nothing further.

                        Chair's Closing Remarks

    Ms. Wasserman Schultz. Well, this has been an informative 
hearing. I am glad we were able to air a lot of the concerns, 
because that is the only way we will be able to make sure that 
the CVC, when it does open, that we have this most smooth and 
efficient and exciting opening and then beginning phase of the 
CVC as possible, because as beautiful as it is and as much time 
and effort and money that have gone into building it, we don't 
want to have reports from constituents who walk away frustrated 
and/or who arrive in the CVC grouchy and in a bad mood to start 
with and less open to the experience. We have all been through 
that when we have been in various vacation situations; no 
vacation is perfect. We would like to have the CVC be part of 
the perfection of someone's vacation.
    Mr. Latham. Never in Florida, though.
    Ms. Wasserman Schultz. Of course, never in Florida. That is 
right.

                         HOMEWORK--PAVER DAMAGE

    I do want to focus in terms of the homework, Mr. Ayers, on 
pavers, because we talked about the damage to the pavers on the 
East Front Plaza at a number of our hearings so far, and today 
GAO noted in its statement that substantial rework may be 
required to prevent further damage. There are a few features of 
the Capitol Visitor Center Project that are going to be more 
visible than the new plaza, so I want to make sure you have a 
well-thought-out plan to address the damage to the pavers.
    With that in mind, by May 30th, I would like the Architect 
of the Capitol to submit its plan for repairing the plaza 
pavers moving forward. This plan should include a general 
schedule for these repairs; an explanation of how you will 
ensure the repairs don't impact the Presidential inauguration; 
and a general outline--we are not looking for chapter and verse 
here--but a general outline of what will need to be done to 
address the situation. So if you could provide that to us by 
May 30th.
    And with that, the subcommittee stands in recess subject to 
the call of the Chair.

[GRAPHIC] [TIFF OMITTED] T2315A.020

[GRAPHIC] [TIFF OMITTED] T2315A.021

[GRAPHIC] [TIFF OMITTED] T2315A.022

[GRAPHIC] [TIFF OMITTED] T2315A.023

                                          Wednesday, May 7, 2008.  

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


                    NATIONAL FEDERATION OF THE BLIND

                                WITNESS

JOHN G. PARE, JR., EXECUTIVE DIRECTOR FOR STRATEGIC INITIATIVES, 
    NATIONAL FEDERATION OF THE BLIND

                         Opening Remarks--Chair

    Ms. Wasserman Schultz. Good morning. I would like to call 
the meeting to order of the Legislative Branch Subcommittee on 
the House Committee on Appropriations. This morning we are here 
for our annual public witness hearing. It is an opportunity for 
the staff or employees of our legislative branch agencies and 
organizations that are served by them to provide us with input 
on a variety of issues, some related to the appropriations 
process and others clearly related to the internal workings of 
the agency. But we provide this opportunity so that we don't 
only hear exclusively from the leadership of the agencies.
    I look forward to hearing the testimony of each of the 
people coming forward. And Mr. Latham, if you have anything.

                      Opening Remarks--Mr. Latham

    Mr. Latham. Yes. I just wanted to thank the chairman for 
accommodating my schedule this morning. I appreciate that very 
much and I look forward to hearing the testimony. Thank you.
    Ms. Wasserman Schultz. No problem. You are welcome. You 
have accommodated mine.
    Okay. So with that I would like to welcome our first 
witness, who is already at the table, Mr. John Pare, who is the 
Executive Director of Strategic Initiatives at the National 
Federation of the Blind.
    Mr. Pare, your full statement will be in the record. Please 
proceed with your 5-minute summary. And I will ask each person 
who testifies to strictly limit yourself to 5 minutes because 
we have many people who wish to testify today.
    Mr. Pare.

                      Opening Statement--John Pare

    Mr. Pare. Absolutely. Thank you, Madam Chair. My name is 
John Pare, and I am the Executive Director of Strategic 
Initiatives at the National Federation of the Blind.

                    TALKING BOOKS DIGITAL CONVERSION

    On behalf of blind Americans, the National Federation of 
the Blind urges you to fully fund the transition from obsolete 
cassette technology to digital talking books over a 4-year 
period. If the conversion to digital books is extended from 4 
years to 6 years, the Library of Congress has said that 
hundreds of thousands of Americans will not have access to new 
books for up to 3 years. Twenty-seven percent fewer books will 
be available during the transition period and 1.7 million books 
will be permanently lost.
    Imagine blind high school students not having access to new 
books for the entire time they are in high school. Imagine 
blind parents not having access to new books about infants 
until their child is no longer an infant. Imagine older 
Americans not having access to new medical information until it 
is too late to use the information. This is what the current 6-
year transition will do to the blind of our Nation.
    This is no small matter. It affects the lives, the futures 
and the destinies of an entire class of human beings. One of 
the most common experiences encountered by any blind person is 
being told to wait. The lives of blind people are important, 
yes, but not as important as something else. Wait, we will get 
to you. We will get to you as soon as the current emergency has 
come to an end. We will get to you as soon as the other 
priorities have been met. We will get to you as soon as the 
other important things have been managed. Wait.
    Is it any wonder that sometimes blind people feel as if 
something needs to be done now? Is it any wonder that blind 
people have trouble understanding why everything else seems to 
be so important but our lives can be conveniently moved to the 
back burner? Is it any wonder that when the National Library 
Service determines that a modest sum is needed to give us 
literacy, that we feel betrayed by public officials who tell us 
that one more time we must wait.
    Literacy has meant that blind people have capacity, but it 
has an even greater significance. The literacy of blind people 
is a mechanism for the blind to gain inspiration and hope. We 
read about what others have done and we imagine that we could 
do likewise. A book in the hand today frequently means an act 
of courage in the future.
    This is what literacy has meant to us. More reading, more 
recreation, more participation in community activities, more 
education, more employment, more contemplation of a brighter 
tomorrow, more building, and more joy.
    On March 19, 2008, 87 of your colleagues wrote to urge you 
to fund the transition over a 4-year period. Madam Chair, time 
is running out. The Library has already distributed the last 
new cassette player needed to play the special four-track 
cassettes. Equality is not something that can be dispensed with 
in times of fiscal austerity. Equal opportunity and equal 
access to information is fundamental to our democracy and our 
American way of life.
    Madam Chair, the blind of this Nation urge you to fund the 
transition from obsolete cassette technology to digital talking 
books over a 4-year period. Thank you.
    [The prepared statement, disclosure form, and resume of Mr. 
Pare follow:]

[GRAPHIC] [TIFF OMITTED] T2315B.001

[GRAPHIC] [TIFF OMITTED] T2315B.002

[GRAPHIC] [TIFF OMITTED] T2315B.003

[GRAPHIC] [TIFF OMITTED] T2315B.004

[GRAPHIC] [TIFF OMITTED] T2315B.005

[GRAPHIC] [TIFF OMITTED] T2315B.006

[GRAPHIC] [TIFF OMITTED] T2315B.007

[GRAPHIC] [TIFF OMITTED] T2315B.008

[GRAPHIC] [TIFF OMITTED] T2315B.009

[GRAPHIC] [TIFF OMITTED] T2315B.010

[GRAPHIC] [TIFF OMITTED] T2315B.011

                      BOOKS FOR THE BLIND FUNDING

    Ms. Wasserman Schultz. Thank you very much, Mr. Pare. I do 
think it is important to note that the blind community is 
certainly not left out in the cold by any stretch of the 
imagination in our bill. There was $67 million in blind 
services funding in the FY 2008 Legislative Branch 
Appropriations bill.
    In addition to that, the Library itself has only requested 
$12.5 million, keeping with their feeling that the 
implementation of this program over 6 years would not cause the 
blind community to suffer a significant reduction in services. 
And I have a tremendous amount of respect for your leadership 
and for your leadership of your organization. But this 
organization and every agency and every organization that is 
served by this legislative branch bill needs to recognize that 
we are in the tightest of budget circumstances. We are very 
likely going to have to carry $126 million appropriation for 
the tunnels that we have to abate asbestos. This is not a 
matter of telling you to wait. You are not going to be required 
to wait. You will continue to receive those services and get 
expanded services. We may just have to implement them over a 
longer period of time.
    So I appreciate your comments, and I am certainly 
supportive. We are going to do everything we can to implement 
this program over the shortest period of time. Mr. Latham.

                            ALTERNATE ACCESS

    Mr. Latham. Thank you, and thank you for your testimony. 
If, in fact, this happens and the Library winds down its 
production of cassette copies, which I think, in your testimony 
you talked about the effect that that would have. Is there any 
other place where you can have access to books on cassettes? I 
understand that, according to your testimony, that you are 
going to lose probably several years' worth of new books. Is 
there anyplace else that has those available or----
    Mr. Pare. No. There is a fraction of books available for 
purchase from bookstores. If you go into a Barnes & Noble, 
there will be a few bookshelves with books on cassette and 
maybe thousands of print bookshelves. But one of the biggest 
things is, there are 17,000 public libraries in the United 
States. I believe it is fundamental that every American has the 
right and the ability to go get print books at one of these 
17,000 libraries.
    The blind of this Nation only have one library provided by 
the Library of Congress. For us to get the equivalent--now the 
Library of Congress only makes 1 percent of all print books 
available to begin with. And we have a chart that has been made 
public, and it indicates that there are going to be years where 
blind people, if we extend the 6 years, blind people won't have 
access to new books for a matter of years. And I urge the 
committee to consider what an impact that would be if you had 
no access to books for years. That is something that is not 
right for blind Americans.
    Mr. Latham. How many people would this affect?
    Mr. Pare. There are 800,000 patrons in the United States, 
and approximately half will be affected by the delay in not 
having access to new books.
    Mr. Latham. About 400,000. Okay. Thank you.

                           BILLINGTON LETTER

    Ms. Wasserman Schultz. You are welcome. At this time I 
would ask unanimous consent to enter into the record a letter 
that I received last June 21, 2007 from Dr. Billington, the 
Librarian of Congress.

    So I will reiterate that we are going to work diligently 
towards implementing this program as quickly as possible but 
the Librarian himself has put forward a reasonable proposal 
that will allow us to implement this and not do it to the 
exclusion of everything else that we have to do in this bill. 
And I can assure you that I and the rest of the Members of the 
committee are committed to trying to make sure that we can 
implement this program in the shortest possible time frame.
    Mr. LaHood.
    [Dr. Billington's letter follows:]
    [GRAPHIC] [TIFF OMITTED] T2315B.012
    
               FUNDING FOR BOOKS FOR THE BLIND--CONTINUED

    Mr. LaHood. I apologize for being late. Madam Chair, we 
spoke about this in another hearing. And so what I am going to 
do is take you at your word on this. And I know that during the 
markup that we had last year this became a disputed item. And I 
believe that you are committed to this. And I think that the 
people that are gathered in this room today who feel very 
passionate about this issue should know that I think the 
chairperson of this committee is committed. She has told me 
that on a number of occasions, both publicly and privately, and 
I believe that is the case. And I am not going to say any more 
about it because I am trusting that you will follow through.
    Thank you.
    Ms. Wasserman Schultz. Thank you very much, Mr. LaHood. 
Thank you, Mr. Pare.
    Mr. Pare. Thank you.

              CONGRESSIONAL RESEARCH EMPLOYEES ASSOCIATION


                                WITNESS

DENNIS M. ROTH, PRESIDENT, CONGRESSIONAL RESEARCH EMPLOYEES ASSOCIATION
    Ms. Wasserman Schultz. Next we will hear from Mr. Dennis 
Roth, the President of the Congressional Research Employees 
Association. Mr. Roth, your full statement will be in the 
record, and you can proceed with your 5-minute statement.

                      Opening Statement--Mr. Roth

    Mr. Roth. Good morning. Madam Chair, Representative Latham 
and members of the subcommittee, my name is Dennis Roth, 
President of the Congressional Research Employees Association, 
the union representing over 500 employees of the Congressional 
Research Service. Let me begin by stating that progress has 
been made between CREA and library management, including that 
of CRS, to develop a more cooperative relationship. As a 
result, we have resolved more of our problems internally and 
have not had to result to litigation. We thank you for your 
efforts to improve labor management relations at the Library. 
However, issues do remain.

                       FLEXIBLE WORK ARRANGEMENTS

    In his written testimony the CRS Director stated that he 
was committed to doing his best to attract and retain expert 
staff, including those hired as part of the CRS succession 
initiative. We find this retention commitment lacking. CRS must 
provide more flexible work arrangements. It is becoming more 
difficult for staff who want to start a family or care for 
elderly parents to be granted part-time status. An effort a 
couple months ago to job share an analyst position to 
accommodate a mother-to-be was canceled by the Director because 
CRS did not have a job share policy. We are still waiting for a 
decision.
    Even though we negotiated a policy and procedures for 
working offsite episodically, the Director later added 
conditions that made it virtually impossible for staff to take 
advantage of it. This even includes staff suffering from 
permanent or temporary medical conditions. Many staff work 
outside their normal working hours without any opportunity to 
receive comp time or comparable time off with credit hours. The 
CRS bargaining unit staff are the only staff in the entire 
Library of Congress denied the opportunity to earn credit 
hours.

                        SUPERVISOR RESTRUCTURING

    The Director also stated that CRS analytical divisions are 
going through a major restructuring of their first-line 
supervisors. Under the current arrangement, these supervisors 
still respond directly to congressional requests and maintain 
their position as subject matter experts, albeit at a reduced 
level. The new senior research managers will not have any 
direct research or analysis responsibilities. We believe that 
this will result in a loss of service to Congress.
    Also, the Director knows that his new group of managers 
will serve as a pool of potential candidates to fill vacancies 
in his senior leadership team. CREA hopes that the selection of 
this group is adequately diverse. The Library's new strategic 
plan has workforce as one of its five strategic goals and one 
that will, I quote, receive focused attention and a commitment 
to action, unquote. In its fiscal year 2009 budget 
justification, however, there is hardly a mention of a 
workforce strategic goal, let alone workforce development. The 
only training identified is for a supervisory development 
program to train 287 supervisors.

                           STAFF DEVELOPMENT

    With CRS now committed to having staff engaged in 
individual development plans, it is necessary to identify the 
specific amount of funds that will be devoted to supporting 
these plans. I request that you ask CRS to report what 
activities are planned and to support workforce development and 
the funding for it. Included should be funds for the jointly 
negotiated career opportunity plan that includes career 
counseling, tuition support, job details and opportunities for 
upward mobility. This program has been quite successful, but 
has received very inconsistent funding. The program could pay 
for itself by taking proven, good CRS employees and developing 
them. Recruitment costs are minimal and the staff already are 
familiar with the CRS mission.

                     OFFICE OF WORKFORCE DIVERSITY

    There are two other issues. The first is the restructuring 
of the Library's Office of Workforce Diversity, or OWD. The 
subcommittee is aware that OWD's staff were informed in early 
March that they would receive reduction in force notices, that 
the Library would seek early out and buyout authority and that 
only one to three of the incumbents were sure to be retained. 
All of their staff will be terminated no later than the 
beginning of July. Any denial of this by the Library is 
dishonest. Fortunately, your intervention has affected the 
process, but there has been no further communication since then 
to staff or to the union. The Office of Workforce Diversity 
needs to perform more effectively and efficiently, but poor 
management is the issue and not poor staff performance.
    Furthermore, the Inspector General's report upon which the 
decision to restructure is based has too many weaknesses to 
have any standing as a restructuring document. Last week the 
Office of Workforce Diversity announced they would no longer 
retain its full-time staff interpreter. Immediately two deaf 
staff CREA members met with me to express a deep concern of 
this loss and its effect on them as well as the other 16 deaf 
or hard of hearing staff at the Library.
    We ask that the subcommittee request any study or analysis 
done by the Library as the basis for its decision to give these 
duties to the current access program manager and any overflow 
to contractors, which is more cost effective. We are confident 
that any such study would demonstrate the benefits of a 
dedicated staff interpreter outweigh the costs of the Library's 
alternative. If they do not have such a study, we request that 
you have them do one.
    Ms. Wasserman Schultz. Mr. Roth, your 5 minutes has 
expired.
    Mr. Roth. Can I have 30 seconds?
    Ms. Wasserman Schultz. 30 seconds.

                       FOOD SERVICE NEGOTIATIONS

    Mr. Roth. Finally, I would like to update the subcommittee 
on the negotiations between the Library's new food service 
provider, IL Creations, and the food service staff. The 
Library's unwillingness to recognize there was a collective 
bargaining agreement at the time the IL Creations took over the 
food service contract has led to a significant diminishment of 
the benefits previously held to the staff. The last time the 
staff met with management was April 1. Madam Chair, you raised 
concerns over this issue in the March hearings and the Library 
still needs your attention to this matter.
    Thank you.
    [Mr. Roth's prepared statement, disclosure form, and bio 
follow:]

[GRAPHIC] [TIFF OMITTED] T2315B.013

[GRAPHIC] [TIFF OMITTED] T2315B.014

[GRAPHIC] [TIFF OMITTED] T2315B.015

[GRAPHIC] [TIFF OMITTED] T2315B.016

[GRAPHIC] [TIFF OMITTED] T2315B.017

[GRAPHIC] [TIFF OMITTED] T2315B.018

                  PROBLEMS WITH FLEXIBLE ARRANGEMENTS

    Ms. Wasserman Schultz. Thank you very much, Mr. Roth. I 
want to ask you about the part-time and telework arrangements 
that your members are having difficulty with. How long has that 
been going on for? And you alluded to a cumbersome approval 
process that takes too long. As someone who prides myself on 
providing my office with, generous terms as far as balancing 
work and family, especially given my own personal struggle to 
balance work and family every day, I think it is imperative 
that we set an example in government for encouraging families, 
and encouraging employees to be able to do an excellent job of 
their work and an excellent job at parenting.
    So what seems to be the most significant problem with that 
process that employees have to go through?
    Mr. Roth. Particularly with the part-time request is that 
if an employee goes on part time it is subject to management's 
approval. They are also telling them at the end of this part-
time period there is no guarantee that they will be able to 
come back full time. So there is a fear that if I take part 
time, I may end up being part time for the rest of my life.
    And so there is this juggling with life things, how you are 
going to handle these types of issues. And part of this is 
because there has been a lack of monitoring part time in the 
past. Sometimes people years ago went on part time because of 
family needs. But the Library didn't say, okay, your kid is in 
high school now. It is time to come back. They let them go 
through almost a whole career part time. So there is a fear----
    Ms. Wasserman Schultz. What about telework?
    Mr. Roth. We actually have an article in our contract. We 
had good provisions and then 2 months after the contract got 
implemented the Director added two conditions saying that the 
only way you could be on telework would be if you have to be 
home and you are doing a rush request for Congress and you were 
in a dire situation at home. Your basement would be flooding, 
and you have to be there.
    Ms. Wasserman Schultz. I don't understand that. It would 
seem to me if there is any type of job that would really be 
perfect for telework--I mean, why does it matter if you are 
doing research in your office or research at home? The Internet 
gives you the same ability. You can bring materials home. If 
there is any work that is perfectly suited, it is being a CRS 
employee, especially an analyst.
    Mr. Roth. The Director believes that Congress wants us at 
your beck and call and we have to be here to meet with you. We 
have done analysis on a number of the requests at CRS. They do 
an annual count.
    Ms. Wasserman Schultz. Guess what, I bet you could probably 
come in for an appointment.
    Mr. Roth. We could put stipulations that you have to be 
here within an hour, 2 hours.
    Ms. Wasserman Schultz. Telework doesn't mean you are asking 
to anchor yourself to your house. It just means that you are 
just asking to primarily work from home.
    Mr. Roth. Will you ask the same questions to the Director?
    Ms. Wasserman Schultz. I am going on too much. I will get 
off my soap box.
    Mr. Latham. Mr. LaHood.
    Mr. Latham. Thank you for your great service.


       LIBRARY OF CONGRESS PROFESSIONAL GUILD, AFSCME LOCAL 2910


                                WITNESS

J. KENT DUNLAP, CHIEF NEGOTIATOR, LIBRARY OF CONGRESS PROFESSIONAL 
    GUILD, AFSCME LOCAL 2910

                            Opening Remarks

    Ms. Wasserman Schultz. Excuse me one moment.
    We are going to go--they just called three votes. We are 
scheduled here until 1:00. And we would like to make sure that 
we get through everybody as quickly as possible and give you 
the maximum opportunity.
    So if the next person, which is Mr. Kent Dunlap, the Chief 
Negotiator of the Library of Congress Professional Guild, would 
come to the table. Your full statement will be in the record 
and you can proceed with your 5-minute summary. Okay.

                     Opening Statement--Mr. Dunlap

    Mr. Dunlap. Thank you. Thank you for providing the Guild 
with this opportunity to testify. Due to the limited time, this 
oral statement will only address problems implementing the new 
electronic system of processing copyright registrations in the 
Copyright Office.

                            COPYRIGHT OFFICE

    Several years ago the Copyright Office decided to modernize 
its paper processing system of copyright registration to a 
system receiving electronic submissions over the Internet. This 
vision is consistent with changes being introduced throughout 
the world.
    In July 2007, the Copyright Office began beta testing of 
applications for copyright registration received over the 
Internet. On August 5, 2007, the Copyright Office began 
converting paper applications into electronic records in a 
process referred to as ingestion. The Guild regrets to report 
that this implementation is not going well. Since the beginning 
of the current fiscal year, a backlog in impending claims 
converted into electronic records has grown to over 300,000 
copyright claims, while the staff was only able to register 
during this period slightly over 60,000 copyright claims.
    In essence, the Copyright Office is placing 75 percent of 
receipts into an ever-growing backlog. These stats compare 
unfavorably with the office's accomplishment in the last fiscal 
year when the office registered over 526,000 copyright claims 
under the old system.
    While claims received online are easier to process than 
ingested claims, they appear more labor intensive than 
processing in paper. The relative costs appear to be about $70 
for processing paper, about $140 for claims submitted online 
and about $300 for ingested claims. It is unfortunately clear 
that the current electronic system cannot be fixed quickly in 
order to process all 11,000 copyright claims received weekly on 
a timely basis.
    The Guild supports returning to the processing system which 
has worked in the past until unknown problems in the electronic 
system are resolved. The Copyright Office has responsibility of 
registering copyright claims----
    Ms. Wasserman Schultz. You have about 30 seconds, Mr. 
Dunlap.
    Mr. Dunlap. Okay. Eighty percent of paper applications 
cover copyright claims which can be registered without 
correspondence. Instead of languishing waiting for ingestion, 
these claims should be called and registered. It would only 
take a few minutes of time.
    [Mr. Dunlap's prepared statement, disclosure form, and CV 
follow:]

[GRAPHIC] [TIFF OMITTED] T2315B.019

[GRAPHIC] [TIFF OMITTED] T2315B.020

[GRAPHIC] [TIFF OMITTED] T2315B.021

[GRAPHIC] [TIFF OMITTED] T2315B.022

[GRAPHIC] [TIFF OMITTED] T2315B.023

[GRAPHIC] [TIFF OMITTED] T2315B.024

[GRAPHIC] [TIFF OMITTED] T2315B.025

[GRAPHIC] [TIFF OMITTED] T2315B.026

[GRAPHIC] [TIFF OMITTED] T2315B.027

[GRAPHIC] [TIFF OMITTED] T2315B.028

[GRAPHIC] [TIFF OMITTED] T2315B.029

[GRAPHIC] [TIFF OMITTED] T2315B.030

[GRAPHIC] [TIFF OMITTED] T2315B.031

[GRAPHIC] [TIFF OMITTED] T2315B.032

[GRAPHIC] [TIFF OMITTED] T2315B.033

[GRAPHIC] [TIFF OMITTED] T2315B.034

[GRAPHIC] [TIFF OMITTED] T2315B.035

[GRAPHIC] [TIFF OMITTED] T2315B.036

[GRAPHIC] [TIFF OMITTED] T2315B.037

[GRAPHIC] [TIFF OMITTED] T2315B.038

[GRAPHIC] [TIFF OMITTED] T2315B.039

                            CLOSING REMARKS

    Ms. Wasserman Schultz. Thank you very much. We appreciate 
your input. Mr. Latham?
    Mr. Latham. No questions.
    Ms. Wasserman Schultz. No, I don't have any questions 
either. Thank you very much. We appreciate the opportunity to 
talk with you. We have at least three votes on the floor now. 
So the committee will stand in recess until immediately 
following the last vote.
    [Recess.]


                        AMERICAN BAR ASSOCIATION


                                WITNESS

HON. WILLIAM ORTON, AMERICAN BAR ASSOCIATION

                       COMMITTEE MEETING RESUMES

    Ms. Wasserman Schultz. Let me call the meeting to order 
once again. Next we will hear from the Honorable William Orton 
on behalf of the American Bar Association. Mr. Orton, your full 
statement will be entered for the record. And you can proceed 
with your 5 minute summary.

                      Opening Statement--Mr. Orton

    Mr. Orton. Thank you, Madam Chairwoman and members of the 
committee. It is a pleasure to be here. By way of introduction, 
I am Bill Orton. I was a former Member of the House of 
Representatives from 1991 to 1997, and I am a member of the 
American Bar Association's Standing Committee on the Law 
Library of Congress.
    I am appearing today at the request of the President of the 
American Bar Association, William H. Neukom. I know from my 
experience in this body that you can read and have studied my 
written statements, and so I won't go over all of that. I will 
simply touch a couple of the highlights and then respond to 
questions if you have any. The written testimony represents the 
position of the American Bar Association. My comments 
afterwards would represent my own views.

                          SUPPORT FULL FUNDING

    I won't take time talking about the many wonderful things 
that I could spend hours on about the Law Library of Congress. 
But in 1932 the ABA recognized the vital importance of the Law 
Library and formed the committee on which I serve to be the 
voice of the legal profession concerning the law library's 
ongoing development and effective operation. Pursuant to our 
stewardship, we strongly support full and robust funding of 
both the entire Library and the Law Library of Congress. It is 
with this in mind that I convey to you the ABA's deep 
appreciation of your support of the Library, but also sorrow in 
criticism for the serious wounds inflicted by many budgetary 
cuts in the past decade and a half.
    The Law Library has been recognized by American business as 
the mother lode of reliable information on foreign and 
comparative law. With the expansion of American enterprise 
abroad, this area of law is critical. With a high percentage of 
foreign law specialists in the Law Library near or beyond 
retirement age, the Law Library does not have a budget to 
implement a succession plan to replace and train them.
    In addition to our support for full and robust funding for 
the Library, we are also advocating for greater transparency in 
the appropriation process for the Law Library, thereby 
promoting greater liability of the Congress' commitment to each 
of the Library's successes. We also believe that one means of 
accomplishing such transparency could also provide a necessary 
mechanism for attracting private source funding from those whom 
the Library serves. I will return to that in a moment.
    We are sensitive to the realities of the appropriation 
process, recognizing that some see it as a zero-sum game where 
you must take from the right hand to give to the left. I urge 
you to refrain from the analysis that would take funds from the 
larger library to give to the Law Library, but we do urge you 
to restore what was taken away over time and equip it to fully 
serve the functions for which it was created 175 years ago.

                        CLASSIFICATION PROBLEMS

    There are obvious problems that continue at the Law 
Library. For instance, cataloging the law collection into the K 
classification. Despite the Library's commitment to catalog the 
classification, a third of the entire collection remains under 
the old classification and unavailable because only a few 
staffers remember the old system and could find the volumes 
under that old classification. Several years after the Law 
Library created the K classification, while all other libraries 
have finished, the Law Library is the only library that has not 
completed the K classification. There is real concern the Law 
Library could become a museum.
    Periodicals and loose leaf collections, which provide the 
most current analysis and status of the law, until recently 
were as much as a year out of date. This standard among law 
libraries entails a delay of only 3 days to a week posting 
these services. The Law Library, which was a year backlogged, 
currently takes 30 to 90 days to post. Under this standard our 
Law Library would rate only as a third-class Law Library.

                      INDEPENDENT BUDGET AUTHORITY

    One remedy would be to fully fund the Library. Another step 
towards solution is to provide transparency and accountability 
through a process advanced by Senator Ted Stevens to create and 
require an independent line item and budget authority for the 
Law Library of Congress in the Federal budget of the Library of 
Congress. Accordingly, we have been working with Rep. Zoe 
Lofgren on legislation that would propose such an approach.
    In addition, our committee is interested and willing to 
assist with funding challenges of the Law Library of Congress. 
As a vehicle to receive private funding assistance, Rep. 
Lofgren's bill would authorize a private-public funding 
foundation to support the Library of Congress' ongoing 
projects. We have included Dr. Billington and his staff in 
discussions of these and other creative solutions.
    We want to be clear that the Library staff opposes the 
budget line item for the Law Library. We continue to seek 
creative solutions with the Library. But until such an 
alternative is advanced, we ask for your support for the line 
item for the Law Library and for the public-private foundation.

                         SPECIAL APPROPRIATION

    We also seek your support for a special appropriation of a 
modest $3.5 million to bring the Law Library collection 
current, cover necessary staff replacement and other needed 
resources. We also ask for your support for the global legal 
information network to achieve stability. A private foundation 
was established to transition----
    Ms. Wasserman Schultz. About 30 seconds.
    Mr. Orton [continuing]. To transition into a 
nongovernmental entity; however, it is a victim of its own 
rapid growth. It now needs a minimum of funding to carry it 
until it can transition to an all-private foundation.
    And with that, I would be happy to answer any questions you 
might have.
    [Mr. Orton's prepared statement, disclosure form, and 
resume follow:]

[GRAPHIC] [TIFF OMITTED] T2315B.040

[GRAPHIC] [TIFF OMITTED] T2315B.041

[GRAPHIC] [TIFF OMITTED] T2315B.042

[GRAPHIC] [TIFF OMITTED] T2315B.043

[GRAPHIC] [TIFF OMITTED] T2315B.044

[GRAPHIC] [TIFF OMITTED] T2315B.045

[GRAPHIC] [TIFF OMITTED] T2315B.046

[GRAPHIC] [TIFF OMITTED] T2315B.047

[GRAPHIC] [TIFF OMITTED] T2315B.048

[GRAPHIC] [TIFF OMITTED] T2315B.049

[GRAPHIC] [TIFF OMITTED] T2315B.050

[GRAPHIC] [TIFF OMITTED] T2315B.051

[GRAPHIC] [TIFF OMITTED] T2315B.052

[GRAPHIC] [TIFF OMITTED] T2315B.053

[GRAPHIC] [TIFF OMITTED] T2315B.054

[GRAPHIC] [TIFF OMITTED] T2315B.055

[GRAPHIC] [TIFF OMITTED] T2315B.056

[GRAPHIC] [TIFF OMITTED] T2315B.057

[GRAPHIC] [TIFF OMITTED] T2315B.058

[GRAPHIC] [TIFF OMITTED] T2315B.059

[GRAPHIC] [TIFF OMITTED] T2315B.060

[GRAPHIC] [TIFF OMITTED] T2315B.061

[GRAPHIC] [TIFF OMITTED] T2315B.062

[GRAPHIC] [TIFF OMITTED] T2315B.063

[GRAPHIC] [TIFF OMITTED] T2315B.064

[GRAPHIC] [TIFF OMITTED] T2315B.065

[GRAPHIC] [TIFF OMITTED] T2315B.066

[GRAPHIC] [TIFF OMITTED] T2315B.067

                        ENHANCED PRIVATE FUNDING

    Ms. Wasserman Schultz. Thank you very much, Mr. Orton. 
Doesn't the Library of Congress already have the ability to 
raise private funds for the Law Library?
    Mr. Orton. They do have the ability to raise private 
funding. The problem that we have had, as we go around seeking 
funding and the amount of funding and the continuing nature of 
the funding that would be needed to fund the type of projects 
that the Law Library needs, we find that people are hesitant to 
commit the amount and the continuing funding without being 
certain that their private source funding will not simply 
replace government appropriations. The way to do that is 
provide transparency of the government appropriations so they 
can see through the line item that the government 
appropriations are there, they are continuing. And then they 
know that the money that is going into the private foundation 
is not replacing the government appropriations. They are going 
into the private foundation and the private foundation is----
    Ms. Wasserman Schultz. The same thing could still happen. 
Congress could still back out the same funds because it would 
be public how much money you raised into the foundation.
    Mr. Orton. They could. But it would be then public and 
there would be public accountability for what is happening. 
There would be transparency. It would be evident that because 
the private foundation money is coming in, that then more 
budget cuts are going directly to the Library. And it would be 
very evident that the public funding of the Library is going 
down while the private funding is going up. And then you could 
tie it directly and put public pressure to bring the public 
funding back up.
    Ms. Wasserman Schultz. And then as far as the line item 
itself, a separate line item, wouldn't that make it more 
difficult for the Library of Congress to transfer money to the 
Law Library in the event there was an emergency?
    Mr. Orton. I don't see why it would.
    Ms. Wasserman Schultz. Well, my understanding is that it 
would. Administratively it would be more difficult for them to 
seamlessly transfer funds to you in the event there was a 
funding gap if you have a separate line item. The way our silos 
work, if you have a separate silo, then it is not seamless, 
like it is right now, that you are just part of the overall 
library's budget.
    Mr. Orton. Well, their budget has been so small and is such 
a small percentage of the overall budget there have not been 
emergencies. I don't know what type of emergency there would be 
necessitating any kind of significant contribution. I would 
think that if there were such an emergency, the private sector 
could step in and help with that kind of an emergency also.
    Ms. Wasserman Schultz. Okay. Thank you very much, Mr. 
Orton. We appreciate your testimony.
    Mr. Orton. I appreciate the opportunity.
                              ----------                              


                       NATIONAL TOUR ASSOCIATION


                                WITNESS

HON. JAMES SANTINI, NATIONAL TOUR ASSOCIATION

                       NATIONAL TOUR ASSOCIATION

    Ms. Wasserman Schultz. Next we will hear from the Honorable 
James Santini representing the National Tour Association. Mr. 
Santini, your full statement will be in the record and you can 
proceed with your summary of your 5-minute statement.
    Mr. Santini. Thank you, Madam Chair.
    Ms. Wasserman Schultz. You are welcome.

                     Opening Statement--Mr. Santini

    Mr. Santini. I appreciate the opportunity to represent the 
National Tour Association before you and your committee on the 
vital topic of access to the new Visitor Center. It is a matter 
of keen concern and interest to a broad cross-section of the 
motor coach and tour industry. You see, I am from the National 
Tour Association. And that is an organization that carries 
packaged tour members. But we have the American Bus 
Association, we have the Youth Travel Association, we have the 
United Motor Coach Association.

                        CVC TRANSPORTATION PLAN

    And we are deeply concerned about the proposal for how to 
manage in peak period up to 1,000 tour buses, 55,000 tours 
coming to Washington, D.C., and presumably many of them visit 
the Capitol Visitor Center by having them disembark at Union 
Station, park at Union Station, and then be required to get on 
an alternative form of transportation provided by the 
Circulator or the District of Columbia. Pay a dollar apiece to 
go to and a dollar apiece to come back from the Visitor Center. 
That response is not an adequate solution in any way to 
reasonable access, reasonable management of the volume of the 
tourists that come by motor coach.
    Let me ask you to look at the solutions or the responses 
that I think are more in the vein of common sense than the one 
that has been proposed in the transportation plan that you are 
considering.

                          SECURITY PROCEDURES

    Put into place a system whereby tour buses, passengers and 
their contents are inspected to enable them to move to the 
closest drop-off point to the new Capitol Visitor Center. The 
system could maintain maximum security and little logistical 
problem for the public or CVC security personnel.
    Travel and tourism advocacy groups suggest the 
establishment of procedures through which tour operators can 
minimize screening by using steps to expedite clearance such as 
no luggage on the bus, registering the passenger and scheduling 
in advance or other steps that will assist the Capitol Police 
in their duties to maintain maximum security.
    Identify an area close to the Capitol Visitor Center that 
can serve as a location for screening, holding empty buses, and 
waiting to reload their passengers after visiting Capitol Hill.
    Four, drop-off locations for security-cleared buses to pick 
up and drop off passengers on a prescheduled basis.
    And five, establish an internal-external communications 
plan to educate tour operators on how to participate in the 
implementation of the overall program.
    I would use the remaining few minutes of time to----
    Ms. Wasserman Schultz. A minute and 10.
    Mr. Santini. What is that?
    Ms. Wasserman Schultz. You have a minute.
    Mr. Santini. All right. I will try to keep it to 60 
seconds.
    If you and the members of your committee, Madam Chair, were 
to issue, I think, a rational mandate to all the parties of 
interest involved in this particular issue, compel them to sit 
in a room, either in the Union Station or in the Capitol Hill 
Police station, and hammer out a balanced and rational response 
here, we all have an interest in making this work better than 
it ever could or would under the proposed travel plan. And we 
should be able collectively, all parties of interest, to hammer 
out that solution and come back to you with a proposal that has 
unanimous support of the parties of interest. And I think we 
would be able to do that.
    Ms. Wasserman Schultz. Does that conclude your testimony?
    Mr. Santini. That concludes my testimony.
    [Mr. Santini's disclosure form and bio, and the prepared 
statement of Randy Julian and his disclosure form and bio, 
follow:]

[GRAPHIC] [TIFF OMITTED] T2315B.068

[GRAPHIC] [TIFF OMITTED] T2315B.069

[GRAPHIC] [TIFF OMITTED] T2315B.070

[GRAPHIC] [TIFF OMITTED] T2315B.071

[GRAPHIC] [TIFF OMITTED] T2315B.072

[GRAPHIC] [TIFF OMITTED] T2315B.073

[GRAPHIC] [TIFF OMITTED] T2315B.074

                          BUS DROP-OFF POINTS

    Ms. Wasserman Schultz. Thank you very much. This committee 
has been quite concerned about the proposal for bus 
transportation and drop-off, at the CVC. I followed up after 
our last CVC hearing when Mr. Latham and I expressed concern 
about the plan to use the West Front as well as the Union 
Station for drop-off and bus parking at Union Station. We have 
the same concerns about--and I feel comfortable speaking for 
both of us but I am sure he can speak for himself--we have 
concerns about the dollar charge. We have concerns about the 
number of people that would end up being able to go on each 
Circulator bus because with large groups of school kids that we 
get coming through here all the time, the amount of time it 
would take to transport them from Union Station to the Capitol 
would really be too much to expect of a large group of kids 
like that to wait.
    So I met with Terri Rouse, the Executive Director of the 
Capitol Visitor Center, and talked to her about that. They 
envision that mostly the drop-offs would continue at the West 
Front. That is both from Chief Morse as well as Terri Rouse. 
And the option for Union Station would be mostly used to park 
the buses, if that plan is how they go forward, where most 
people are going to be dropped off at the West Front and buses 
can park at Union Station, where they cannot do that now. Right 
now they are expected to circulate until they pick up their 
group again. That seems actually better than the situation now.
    Mr. Santini. That essentially, as I understand it, is the 
situation now, Madam Chair. At least insofar as I understand 
that disembark and embark procedure that they have.

                          PRIVATE SECTOR ROLE

    We are suggesting that the private sector should assume a 
larger responsibility and role here. For example, they would 
empty all luggage from all motor coaches that are providing 
access to the Capitol Hill before they get to Capitol Hill. And 
I think adding a significant----
    Ms. Wasserman Schultz. Where would you do that?
    Mr. Santini. They would leave them at the hotel. They would 
just simply not bring them with them. And they would arrange 
their tour schedule in such a fashion that they would have a 
prearranged deposit point for that luggage with the 
understanding that that is a reasonable way to gain access to 
the new Visitor Center. And then provide in advance, for 
example, in coordination with the Capitol Hill Police, not only 
an itinerary but the clearance of who is on that coach. And for 
the most part, a significant number are students who are coming 
to visit Capitol Hill as part of their school assignment. Tens 
of thousands are represented by that category. A minimum amount 
of security risk, I think, is entailed in those kinds of access 
situations.
    Ms. Wasserman Schultz. Okay.
    Mr. Santini. And we want to be a partner in the resolution 
here.
    Ms. Wasserman Schultz. Well, we will be sure to relay that 
desire on the part of the Tour Association to the Capitol 
Visitor Center leadership. Mr. Latham.

                       TALKS WITH CAPITOL POLICE

    Mr. Latham. Yeah. I just appreciate your putting forth some 
ideas. This obviously is a big issue with us. The police have 
said that, you know, they are going to have such a backlog of 
buses it is going to be impossible to manage. Number one, have 
you talked to the Capitol Police? Number two, do you have an 
answer for them?
    Mr. Santini. I think, in part, we suggest an answer to the 
Capitol Police in the conclusion of our testimony today. And I 
believe that if we are going to use the West Front as a 
meaningful drop-off point, that is a situation that exists now. 
As I understand it, that First Street entrance facility there 
by the Botanical Gardens is what they have now. We are also 
offering to make that part of the scrutiny job that much easier 
by arriving with baggage bays that are empty.
    Mr. Latham. It is still going to back it up. Have you 
talked to the Capitol Police?
    Mr. Santini. Yes. Since 2003 we have been in an ongoing 
discussion with the Capitol Police. And I suppose we were 
responsible at one point in time for deferring implementation 
of this particular plan to this date with our persuasive 
efforts. This particular plan from Ms. Rouse and the Capitol 
Police, to be honest with you, caught us somewhat by surprise 
because we thought that we had addressed and taken care of the 
issue of access to the Capitol by motor coach.
    Mr. Latham. Okay. Thank you.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Santini. Thank you, Madam Chair.
                              ----------                              


                              EASTER SEALS


                                WITNESS

JENNIFER DEXTER, ASSISTANT VICE PRESIDENT, GOVERNMENT RELATIONS, EASTER 
    SEALS
    Ms. Wasserman Schultz. Next we will hear from Jennifer 
Dexter, the Assistant Vice President of Government Relations 
for Easter Seals. Ms. Dexter, your full statement will be 
entered into the record and you can proceed with a 5-minute 
summary.

                     Opening Statement--Ms. Dexter

    Ms. Dexter. Thank you very much, Madam Chair. I appreciate 
the opportunity to be here today. Easter Seals very much 
appreciates the opportunity to come today to talk about how 
visitors, advocates and people with disabilities particularly 
will be able to access the new Capitol Visitor Center. We 
appreciate all the work that has gone in to making the CVC as 
accessible as possible. We know how much time and attention has 
been given to that, and we really look forward to bringing all 
our volunteers, our clients, our staff up to appreciate the new 
building.
    The focus of my remarks though is going to be on the 
transportation plan that we just heard about and how it could 
potentially hinder the ability of many people to visit the 
Capitol to participate in meetings with their elected officials 
and really just participate in the public process.
    I am going to share a bit of our experience trying to 
negotiate getting people with disabilities up for congressional 
appointments in hope that it might inform the debate a little 
bit.

                   DIFFICULTIES FOR DISABLED, ELDERLY

    For more than a decade, we have been bringing people up to 
Capitol Hill every other year as part of our convention. I have 
been directly involved in coordinating the transportation 
aspects of that since 1996. Our experience is really, I think, 
a case study in how it has become increasingly difficult for 
people with disabilities and older adults to participate in the 
public policy process through meetings with their elected 
official.
    Our policy and practice has been to provide transportation 
from our convention hotel on coach buses up to the House of 
Representatives and Senate office buildings for our 
participants, many of whom have mobility impairments or are 
older adults. In the past we dropped them off at a location 
prearranged with the Capitol Police that was adjacent to the 
congressional office buildings and was convenient. In order to 
assist people with disabilities for whom the distance between 
the House and the Senate would be a challenge, we also provided 
a small bus that would circulate throughout the day that people 
could get on and off to facilitate that transfer.
    As security concerns rightfully have increased, however, 
that solution has not been possible for us. Our last convention 
was in 2007 and we worked tirelessly to stay within the current 
rules and to work with every potential stakeholder, including 
congressional offices--Mr. Latham was kind enough to help us 
with some support in talking to the Capitol Police to work with 
us. The Capitol Police and our participants were as informed as 
possible.
    We began that process several months before our convention. 
We had letters of support and phone calls from Members to both 
the House and Senate-side police and had direct communication 
with the Capitol Police themselves. Everyone could not have 
been more accommodating and wanting to work with us and willing 
to work with us. We finally reached a solution where we had a 
drop-off location just out at the security perimeter over at 
Second and C and we were using the Peace Circle to take people 
back to the hotel. And to facilitate the back and forth between 
the House and the Senate, we had arranged two times during the 
day where many coaches could enter the perimeter, do two stops 
and then leave the perimeter again and get screened each time.
    However, when the day actually came, because of lack of 
available personnel at the time to actually screen the mini 
coach at the location, a situation that we were prepared for 
and had been warned might happen, we weren't able to use those 
mini buses and had to come up with on-the-fly solutions during 
the day.
    Further compounding the issue is that public transportation 
such as Metro and taxi aren't a viable option for us, as I will 
explain. Washington, D.C. doesn't have accessible taxis. Thus, 
a person who uses a motorized wheelchair can't transfer out of 
their wheelchair----
    Ms. Wasserman Schultz. You have about a minute.
    Ms. Dexter [continuing]. And is more reliant on things like 
mini coaches and other kinds of transportation.
    Last year I helped one of our clients that needed help from 
the House to Senate side jump in a cab, as we have all done, 
and she was a small girl so luckily her mother could help 
transfer her into the taxi. But as they drove away, I see the 
trunk and the wheelchair was hanging half out, and I am just 
crossing my fingers and praying, I hope the trunk doesn't come 
down on it. I hope it doesn't break. It was upsetting to feel 
like we couldn't get our folks up here and around up here in a 
way that didn't risk their health or their mobility equipment.
    The other issue is that Union Station is a real issue for 
people with disabilities because the accessible path from Union 
Station isn't the one you or I would use. There are no curb 
cuts on the Columbus Fountain Circle. So to get from Union 
Station to the Capitol, you have to go around and up. So it is 
about twice as far. So you either have to inconvenience your 
whole group if you are with a tour group and take everyone 
around the long way or you have to kind of separate yourself 
and catch up with your group later, which isn't really always 
appropriate.
    Because of some of these issues, what we have decided next 
time we bring people up----
    Ms. Wasserman Schultz. I need you to wrap up, Ms. Dexter.
    Ms. Dexter. Absolutely. We are probably going to use 
private vehicles with drivers. That is an option for us, but 
that is not an option for most people. So I just encourage you 
to try and come up with a solution to this issue that allows 
people with disabilities to have the access they need.
    [Ms. Dexter's prepared statement, bio, and disclosure form 
follow:]

[GRAPHIC] [TIFF OMITTED] T2315B.075

[GRAPHIC] [TIFF OMITTED] T2315B.076

[GRAPHIC] [TIFF OMITTED] T2315B.077

[GRAPHIC] [TIFF OMITTED] T2315B.078

[GRAPHIC] [TIFF OMITTED] T2315B.079

[GRAPHIC] [TIFF OMITTED] T2315B.080

                                Closing

    Ms. Wasserman Schultz. Thank you for your testimony. Mr. 
Latham.
    Thank you very much.
    Ms. Dexter. Thank you.
                              ----------                              --
--------


     U.S. GOVERNMENT ACCOUNTABILITY OFFICE EMPLOYEES ORGANIZATION/
INTERNATIONAL FEDERATION OF PROFESSIONAL & TECHNICAL ENGINEERS, AFL-CIO 
                                 & CLC


                                WITNESS

RONALD LA DUE LAKE, CHAIR, INTERIM COUNCIL, U.S. GOVERNMENT 
    ACCOUNTABILITY OFFICE EMPLOYEES ORGANIZATION/INTERNATIONAL 
    FEDERATION OF PROFESSIONAL & TECHNICAL ENGINEERS, AFL-CIO & CLC
    Ms. Wasserman Schultz. Next we will hear from Mr. Ronald La 
Due Lake, Chair of the Interim Council of the GAO Employees 
Organization. Mr. La Due Lake, your full statement will be 
entered into the record and you can proceed with a 5-minute 
summary of your statement.

                   Opening Statement--Mr. La Due Lake

    Mr. La Due Lake. Thank you. I am Ron La Due Lake, the Chair 
of the Interim Council for the GAO Employees Organization and a 
specialist in the Applied Research and Methods Team. It is a 
privilege to appear before this subcommittee. We are 
particularly grateful, Madam Chair Wasserman Schultz, for your 
efforts to ensure adequate funding for GAO and also for your 
support of our efforts to unionize over the past 2 years. Thank 
you very much.
    The GAO Employees Organization represents about 1,760 
analysts, just over half of GAO's 3,100 employees. Last fall 
GAO employees voted by a 2-1 margin to establish this union. 
Since our votes to organize we have elected an interim council 
of 39 members that represents each mission team and field 
office, developmental employees and various diversity groups. 
We respectfully seek your continued support in order to sustain 
and grow the workforce necessary to provide high quality 
service to Congress and the American people.
    Our ability to sustain our workload is being challenged by 
both the decreasing numbers of our workforce and the increasing 
demand for our work. GAO's full-time equivalent staff usage is 
at an all-time low of 3,100 FTEs in fiscal year 2008, down 163 
since 2003. In the first quarter of fiscal year 2008, we 
received 26 percent more requests from Congress than we did in 
the first quarter of 2007. Potential mandates for GAO work are 
up about 86 percent over the same time period as last year. We 
are very concerned about the impact of stretching our limited 
resources across an increasing number of engagements.

                       SUPPORT FOR BUDGET REQUEST

    For all these reasons, we ask that this committee support 
GAO's 2009 appropriation budget request such that GAO's 
capacity could be replenished at the rate needed to meet the 
increasing and compelling demands of the U.S. Congress. Should 
it be necessary for GAO to use 2009 funds to meet the intent of 
the retroactive pay provision in H.R. 5683, the GAO Act of 
2008, we would appreciate your assistance in making sure that 
these funds are separate from those intended for the 2009 
annual pay increase.

                      ACCESS TO BUDGET INFORMATION

    Historically, GAO has not shared detailed budget 
information with its staff or the public, including the annual 
budget justification submitted to the Congress and realtime 
reports on plans and actual obligations and expenditures.
    Recently, GAO took a positive step toward budget disclosure 
when it issued a report on its contract awards for the past 2 
fiscal years.
    We believe management should take more proactive steps in 
making the budget process fully transparent. We would like to 
work with management to achieve our goals in a fiscally 
responsible manner by having access to relevant and detailed 
budget information.
    GAO's employees would very much appreciate any assistance 
you can provide to encourage GAO management to provide full 
disclosure on its operating budget, budget justifications and 
actual expenditures in real time. We are proud of the work we 
do for the U.S. Congress. We are committed to establishing a 
constructive partnership with GAO management.

                      RELATIONSHIP WITH MANAGEMENT

    In early February, we quickly completed our first 
negotiated pay agreement with GAO management for 2008. We have 
begun to develop a working relationship with Acting Comptroller 
General Gene Dodaro. We are very encouraged by Mr. Dodaro's 
statement before this subcommittee that he was committed to 
working constructively with employee union representatives to 
forge a positive labor relationship.
    Our hope that GAO management would view us as a full 
partner has not been realized. For example, we were 
disappointed that GAO management did not proactively share with 
us their views or suggested changes to H.R. 5683, GAO Act of 
2008, even though some of these would directly impact our 
bargaining unit.
    We were also disappointed that GAO management did not meet 
with us to discuss their fiscal year 2009 budget request before 
the hearing before this subcommittee, nor have they yet 
provided any budget documentation.
    In another example, GAO has decided to evaluate its 
performance management system; and we wholeheartedly agree that 
this needs to be done. However, GAO has already gathered a 
great deal of evidence about problems with the performance 
management system. It is our view that there is evidence to 
support some adjustments to the system right away. As the 
exclusive representative for the bargaining unit, we look 
forward to working with GAO on this.
    In closing, I'd like to reiterate our appreciation for the 
opportunity to testify and look forward to working with you. I 
would be pleased to answer any questions that you or other 
members of the subcommittee may have.
    Ms. Wasserman Schultz. Thank you, Mr. La Due Lake.
    [Mr. La Due Lake's prepared testimony, disclosure form, and 
CV follows:]

[GRAPHIC] [TIFF OMITTED] T2315B.081

[GRAPHIC] [TIFF OMITTED] T2315B.082

[GRAPHIC] [TIFF OMITTED] T2315B.083

[GRAPHIC] [TIFF OMITTED] T2315B.084

[GRAPHIC] [TIFF OMITTED] T2315B.085

[GRAPHIC] [TIFF OMITTED] T2315B.086

[GRAPHIC] [TIFF OMITTED] T2315B.087

[GRAPHIC] [TIFF OMITTED] T2315B.088

[GRAPHIC] [TIFF OMITTED] T2315B.089

[GRAPHIC] [TIFF OMITTED] T2315B.090

[GRAPHIC] [TIFF OMITTED] T2315B.091

[GRAPHIC] [TIFF OMITTED] T2315B.092

[GRAPHIC] [TIFF OMITTED] T2315B.093

[GRAPHIC] [TIFF OMITTED] T2315B.094

[GRAPHIC] [TIFF OMITTED] T2315B.095

                     NEW ACTING COMPTROLLER GENERAL

    Ms. Wasserman Schultz. I have been really pleased to watch 
the evolution of the process that you have been through with 
your fellow employees and the recognition finally that the 
union received from GAO. The only question I have, which you 
alluded to briefly, is have you seen improvements in terms of 
your relationship with the Acting Comptroller General versus 
the former Comptroller General?
    Mr. La Due Lake. Yes. We have several experiences in his 
brief time as Acting Comptroller General that are very 
encouraging to us. One is that we invited him to meet with the 
interim counsel for a collegial meet and greet. He came. He 
spoke with us. He reiterated that he was looking forward to 
working with us, and he also reiterated what he has been saying 
to several mission teams in staff meetings around the 
organization, that, number one, management intends to take a 
serious look at our performance management system, which is a 
serious concern for us; and, number two, that he considers our 
current workload an issue that we need to address. So from our 
perspective as a bargaining unit, we are quite encouraged by 
this and look forward to working with him.
    Ms. Wasserman Schultz. Great. I look forward to continuing 
to work with you, And I appreciate the input that you gave us 
today.
    Mr. Latham.
    Thank you very much.
                              ----------                              


                          U.S. CAPITOL POLICE


                                WITNESS

MATTHEW A. TIGHE, FRATERNAL ORDER OF POLICE, U.S. CAPITOL POLICE

                      Opening Statement--Mr. Tighe

    Ms. Wasserman Schultz. Next, we'll hear from Officer 
Matthew Tighe, the Chairman of the U.S. Capitol Police Labor 
Committee.
    Officer Tighe, your statement will be entered into the 
record and you can proceed with the 5-minute summary.
    Mr. Tighe. Thank you, ma'am.
    Honorable Chair and members of the committee, I would like 
to thank you for the opportunity to testify before you today. I 
am here not only to speak to you as chairman of the Capitol 
Police Labor Committee but as a police officer as well. As 
chairman of the Fraternal Order of Police Labor Committee for 
the United States Capitol Police, I represent more than 1,000 
sworn members of our Department.
    The men and women of the United States Capitol Police take 
great pride in being given the responsibility of protecting 
Members of Congress, the congressional community and the 
millions who visit here. Those who are recruited and trained to 
carry out our vital mission are among the best educated and 
motivated people I have encountered anywhere in the law 
enforcement community. They bring intellect and on-the-ground 
experience to the myriad of tasks associated with securing and 
protecting everyone within the Capitol complex. I believe we 
are a well of underutilized insights and ideas that can support 
future improvements in securing the Capitol.
    The Capitol complex faces a constant threat that is not 
always easy to detect or identify. To deter and combat threats, 
the Department must be given the adequate and appropriate 
resources to fulfill our mission.

                     NEED FOR CONGRESSIONAL SUPPORT

    In addition to the obvious need for training, equipment and 
adequate funding to carry out our mission for the Congress and 
the Nation, we need you to understand our mission and your 
cooperation in the performance of our mission. We recognize 
that often our duties may be viewed as an inconvenience, but 
they are essential for maintaining the security throughout the 
complex. An officer needs to stay focused on the possible 
threat without fear from reprisal for properly carrying out 
their duties. Due to this ever-changing threat, officers cannot 
passively monitor activity but must be able to take a proactive 
approach to investigate suspicious activity.
    The effectiveness of the individual officer at each of the 
posts, each of the patrol vehicles and their various support 
positions around the Department is most affected by their 
personal motivation. It is dangerous for everyone who relies 
upon us if we are reluctant to do what is difficult but 
required. The human factor in our profession is unusually 
critical because a blind eye or turned head can allow the 
person intent on harm to bring arms, toxins or other dangerous 
commodities to the halls and offices of the Capitol complex.
    Your police officers must feel that they will be supported 
by their supervisors, their Chief, the Police Board and their 
Members when they make good-faith efforts to do their job. If 
they come to a common sense that good efforts are punished by 
the powers that be because they feel inconvenienced, then more 
damage is done to our security than you may understand. I urge 
this committee and the Congress to regularly publish its 
support for its police officers who diligently perform their 
duties as individuals and as an agency. Where inconvenience 
meets security, we must encourage the responsible officers and 
officials to support security and to recognize those who work 
to secure those we protect.
    I have devoted a lot of my time to our mission to protect 
you. Now I wish to raise a serious issue that is a more 
traditional union concern. I would like to highlight our 
retirement.

                         RECRUITMENT CHALLENGE

    The law enforcement profession is more competitive now than 
ever. It is critical to the Capitol Police to not only recruit 
the most qualified personnel possible but also to retain them 
for the length of their career. One of the greatest deciding 
factors an applicant considers when making a decision for 
employment in law enforcement is the compensation package 
offered by each agency.
    Our goal is to enhance the retirement benefits to be more 
competitive with other agencies, thus more appealing to 
potential applicants. In doing so, we will not only be able to 
attract the best applicants but to retain the officers that are 
currently in the field. The cost associated with training a new 
officer just to have them leave for another agency is wasting 
the resources provided by Congress and the taxpayer.
    In too many instances, the U.S. Capitol Police Department 
is a recruiting arm for competing local and Federal law 
enforcement agencies. Many young men and women who become U.S. 
Capitol Police officers begin to look elsewhere after 
completing a few years in our Department. This very issue faced 
the D.C. Metropolitan Police Department in the early 1970s when 
Congress approved an extension of its authorized strength. Even 
with the unprecedented step of authorizing early outs for 
military personnel who join the Metropolitan Police Department, 
the MPD was unable to reach the new authorized strength because 
too many new recruits left for law enforcement careers 
elsewhere after securing a few years of experience. It is a 
matter of record that the only thing that stabilized MPD's 
workforce was the adaptation of a 20-year retirement system by 
the Congress.
    Subsequent to Home Rule for the District, the city 
abandoned 20-year retirement. Now they are in the process of 
passing legislation that will restore 20-year retirement as 
they work to increase the size of their police department and 
stabilize their force again.
    We recognize the challenge that this presents and are aware 
of the PAYGO issue but hope to work with all of the relevant 
committees to find an offset and accomplish this goal in the 
future.
    That concludes my statement. I'd be happy to answer any 
questions.
    Ms. Wasserman Schultz. Thank you so much, Officer Tighe.
    [Officer Tighe's prepared statement, bio, and disclosure 
form follow:]

[GRAPHIC] [TIFF OMITTED] T2315B.096

[GRAPHIC] [TIFF OMITTED] T2315B.097

[GRAPHIC] [TIFF OMITTED] T2315B.098

[GRAPHIC] [TIFF OMITTED] T2315B.099

                           FEAR OF REPRISALS

    Ms. Wasserman Schultz. You referenced a restraint that you 
indicate some officers feel about the actions that they are 
able to take to do their job. Can you elaborate on that a 
little bit?
    Mr. Tighe. Well, ma'am, unfortunately, many times officers 
are worried about upsetting key staffers or even members of 
certain committees. They feel if they do their job correctly 
and they inconvenience people, delay them coming in through the 
doors, that they will face reprisal.
    Ms. Wasserman Schultz. Can you be more specific? Do you 
mean like if they require a staffer----
    Mr. Tighe. Oftentimes there are complaints that are 
generated against officers for simply carrying out their 
duties. And, to be honest, when the complaints come from 
certain members or staffers, the officers feel that they are 
going to get in trouble.
    Ms. Wasserman Schultz. I don't mean to press you. But do 
you mean, for example, if an officer expects someone, a staff 
person, to go through the magnetometer, as opposed to going 
around the magnetometer if they are not with their boss?
    Mr. Tighe. Exactly. Sometimes they will be doing their job, 
they won't recognize somebody, they will ask them to take off 
their shoes. People will get upset on the street. They will be 
stopped for traffic infractions, and they will be upset that 
they were stopped. Oftentimes, you are asked, ``Do you know who 
I am''; and the officers simply state, ``No, I am just carrying 
out my duty''.
    Ms. Wasserman Schultz. Okay. Well, I appreciate you 
bringing that to our attention; and that is something we would 
be glad to follow up on.

                            RETIREMENT PLANS

    On the retirement issue, Capitol Police officers are part 
of the Federal retirement system. And, for example, you know, 
D.C. police are not and other police agencies are not. Are you 
suggesting that the Federal retirement benefit package is not 
as lucrative as other police agencies that are not part of that 
system?
    Mr. Tighe. What I am saying is we lose a lot of our 
officers to local departments, but we also lose them to Federal 
agencies. The difference with our retirement compared to other 
Federal agencies is the law enforcement availability pay which 
is factored into many 1811 positions when they get to 
retirement. So, basically, they get a 25 percent higher 
retirement benefit than a Capitol Police officer.
    Ms. Wasserman Schultz. I am sorry for my ignorance, but I 
don't know what law enforcement availability pay is.
    Mr. Tighe. They are given 25 percent more in their base 
pay. It is basically in lieu of overtime. They are given what 
is called LEAP pay, And that is factored into the base salary. 
When they retire, that is included in their----
    Ms. Wasserman Schultz. And the overtime is not factored 
into----
    Mr. Tighe. A Capitol Police officer's overtime is not 
included into the retirement benefit.
    Ms. Wasserman Schultz. Okay. And quite a bit of the hours 
that you work is overtime?
    Mr. Tighe. Correct. So an officer would be used to that 
salary.
    Ms. Wasserman Schultz. And that is a competitive 
disadvantage. I understand. Okay. Thank you.
    Mr. Latham.
    Thank you very much, Officer Tighe. Let me just say that I 
don't think we are able to express enough to the Capitol Police 
force how much we appreciate your protection and your 
representation and your service to us as Members, to the 
Capitol community and to the visitors and citizens that come to 
tour the Capitol complex. And we truly, truly appreciate your 
work.
    Mr. Tighe. Thanks for recognizing, ma'am; and, also, we 
would like to thank you for your continued support of the union 
and the Department.
    Ms. Wasserman Schultz. You are very welcome.
    Mr. Latham. If I could, I will associate myself with your 
remarks. But, also, if there is someone who feels intimidated 
or something, I would like to know it, who it is and what is 
going on on specific cases, because that simply is totally out 
of bounds.
    Ms. Wasserman Schultz. And we'll follow up with the police 
leadership on that as well.
    Mr. Tighe. Thank you, ma'am.
    Ms. Wasserman Schultz. Thank you very much, Officer.


                 AMERICAN ASSOCIATION OF LAW LIBRARIES


                                WITNESS

MARY ALICE BAISH, ACTING WASHINGTON AFFAIRS REPRESENTATIVE, AMERICAN 
    ASSOCIATION OF LAW LIBRARIES

                      Opening Statement--Ms. Baish

    Ms. Wasserman Schultz. Okay. Next we'll hear from Mary 
Alice Baish, the Acting Washington Affairs Representative of 
the American Association of Law Libraries.
    Ms. Baish, your full statement will be entered into the 
record; and you can proceed with a 5-minute summary. Thank you, 
and it is good to see you.
    Ms. Baish. Good afternoon. Thank you for this opportunity 
to appear before you today on behalf of the American 
Association of Law Libraries, the American Library Association 
and the Special Libraries Association.

                      SUPPORT FOR FULL GPO FUNDING

    Madam Chair Wasserman Schultz and Ranking Member Latham, we 
really appreciate you giving us this opportunity to urge your 
support for the full Fiscal Year 2009 appropriations request of 
the U.S. Government Printing Office. Our communities are 
committed to public access, to government information and a 
robust Federal depository library program. Your constituents 
benefit daily from the collections and services of the 30 
depository libraries in your districts and States, as well as 
the government information available on line at all libraries.
    I would like to point out the depository libraries spend 
millions of dollars every year for staff space and the 
technological infrastructure needed to put your constituents in 
touch with the government information they need that comes in 
all formats, depending upon the agency's decision to produce 
it. Past studies have shown that depository libraries in fact 
spend about $10 for every $1 of Federal investment. So the 
monies that you appropriate to support public access in the 
FDLP are multiplied many times over by the costs contributed by 
depository libraries.
    My long statement describes in detail why we are asking you 
to fund fully GPO's congressional printing and binding, 
salaries and expenses and revolving fund. Monies in all three 
accounts contribute to promoting public access to print and 
electronic documents and to meeting the needs of depository 
libraries.

                         FEDERAL DIGITAL SYSTEM

    I would like to use my brief time this morning really to 
urge you to agree to GPO's request of $21.2 million for the 
Federal Digital System. We believe that FDsys is absolutely 
essential to GPO's future. It is a myth to think that utilizing 
the Web to provide public access to reliable government 
information doesn't carry a hefty price tag. There are enormous 
costs in managing the life-cycle of on-line information, 
including its permanent public access and preservation.
    The funding of FDsys to date has come from monies 
reprogrammed in 2005. We ask that you show your support for 
FDsys with a commitment to its launch next fall and to its 
future enhancements.
    The GPO access system authorized by legislation back in 
1993 is the central mechanism for making Federal government 
information available to the public. GPO has done a remarkable 
job on a shoestring and now estimates that about 94 percent of 
new titles in the Federal depository library program are 
electronic. With this increasing emphasis on on-line access, it 
is time to replace the obsolete technology of the GPO access 
system with the state-of-the-art FDsys; and here is why.
    GPO access uses WAIS, a pre-Web technology that makes it 
challenging for the average user to search and locate the 
information they need. In addition, there are times when a 
technology fails, as it recently did when access to 3 years of 
the on-line Congressional Record, 1994 to 1996, became 
unavailable to users. Fortunately, in this case, the 
Congressional Record is one of GPO's essential titles and so is 
still available for anyone in print who can go to a local 
depository library.
    During the past year, we have been very pleased with 
progress that GPO has made in a number of areas because of the 
new functionalities offered through FDsys. I would like to 
briefly mention two of them that are especially noteworthy.
    First, digital authentication. GPO has begun implementing 
digital signatures to certain electronic documents on GPO 
access. This establishes GPO as the trusted information 
disseminator for the Federal Government by providing the 
assurance that an electronic document has not been altered 
since GPO disseminated it. This year, GPO launched an on-line 
collection of authenticated public and private laws of the 
110th Congress. The ability to authenticate on-line legal 
resources is especially important. And in February, GPO 
digitally signed the 2009 on-line version of the budget of the 
United States Government and also published it in print after 
OMB had announced that it would only publish the 2,200 page 
budget on line.
    Ms. Wasserman Schultz. You have 30 seconds, Ms. Baish.
    Ms. Baish. Thank you.
    OMB's shortsighted decision resulted in a flurry of news 
stories about how valuable these four print volumes are in 
terms of usability.
    Second, Web harvesting. GPO has made great progress in 
harvesting agency Web documents. In 2006, they completed a very 
important pilot with the Environmental Protection Agency in 
which they harvested over 200,000 unavailable EPA on-line 
documents. So the Web harvest is really needed so that GPO can 
increase public access to these Web-based agency documents and 
also ensure their preservation.
    I hope you'll agree with us that full funding for GPO in 
2009 is vital to supporting the needs of depository libraries 
and your constituents who use them every day. Last year, I 
asked you to become champions of GPO and the FDLP. This year, I 
ask that you please champion FDsys and, at the same time, 
support GPO's other funding needs that are really crucial to 
their information dissemination program.
    Ms. Wasserman Schultz. Thank you, Ms. Baish.
    Ms. Baish. The FDLP is your program, and we really 
appreciate your continuing support.
    Ms. Wasserman Schultz. Thank you very much. We appreciate 
your testimony.
    Mr. Latham. 
    Thank you very much.
    [Ms. Baish's prepared testimony, disclosure form, and CV 
follow:]

[GRAPHIC] [TIFF OMITTED] T2315B.100

[GRAPHIC] [TIFF OMITTED] T2315B.101

[GRAPHIC] [TIFF OMITTED] T2315B.102

[GRAPHIC] [TIFF OMITTED] T2315B.103

[GRAPHIC] [TIFF OMITTED] T2315B.104

[GRAPHIC] [TIFF OMITTED] T2315B.105

[GRAPHIC] [TIFF OMITTED] T2315B.106

[GRAPHIC] [TIFF OMITTED] T2315B.107

[GRAPHIC] [TIFF OMITTED] T2315B.108

[GRAPHIC] [TIFF OMITTED] T2315B.109

[GRAPHIC] [TIFF OMITTED] T2315B.110

[GRAPHIC] [TIFF OMITTED] T2315B.111

[GRAPHIC] [TIFF OMITTED] T2315B.112

[GRAPHIC] [TIFF OMITTED] T2315B.113

[GRAPHIC] [TIFF OMITTED] T2315B.114

[GRAPHIC] [TIFF OMITTED] T2315B.115

[GRAPHIC] [TIFF OMITTED] T2315B.116

[GRAPHIC] [TIFF OMITTED] T2315B.117

[GRAPHIC] [TIFF OMITTED] T2315B.118

[GRAPHIC] [TIFF OMITTED] T2315B.119

                       GOVERNMENT PRINTING OFFICE


                                WITNESS

JOHN E. ELFREY, VICE PRESIDENT, LL2135 INTERNATIONAL ASSOCIATION OF 
    MACHINISTS, GOVERNMENT PRINTING OFFICE

                     Opening Statement--Mr. Elfrey

    Ms. Wasserman Schultz. Last but not least, Mr. John Elfrey, 
the Vice President of the International Association of 
Machinists at the Government Printing Office.
    Mr. Elfrey, you are welcome. Your full statement will be 
entered into the record, and you can proceed with a 5-minute 
summary of your statement.
    Mr. Elfrey. Honorable Chairwoman, I appreciate the 
opportunity to talk to you today concerning the management in 
the Government Printing Office and the morale of its employees.
    I've been a machinist at the Government Printing Office for 
11 years. My responsibility includes repairing the presses for 
the Congressional Record, passports and the Federal Register. I 
am also a member of the International Association of Machinists 
and Aerospace Workers and am Vice President of Local Lodge 
2135.

                           MORALE DOWN AT GPO

    There was a time in the not-too-distant past that GPO was a 
great place to work. It was a place where people came to work 
with smiles on their faces. Today, the smiles are gone, morale 
is at an all-time low and the only thing that keeps GPO 
employees going is their need to bring home a paycheck to their 
families and a sense of duty to the Nation and the taxpayers.
    The shift began in 2002, the day that Bruce James, the new 
Public Printer, walked through the doors of GPO. Mr. James 
began his tenure by calling the employees at GPO ignorant and 
illiterate. There was such a backlash to his comments that Mr. 
James had to make public apologies, but the damage was already 
done.
    To add insult to injury, security became an obsession with 
the Public Printer. Employees were made to feel like they were 
security risks. When I questioned the Labor Relations 
Department about the new security procedures, I was told by 
them that all Federal agencies were going through the same 
changes, but I made phone calls to 14 different agencies and 
found out that none of them were making employees with valid ID 
badges go through the same measures we were going through. Some 
of these agencies were the State Department, the FAA and the 
IRS. And yet employees at GPO with valid ID badges were made to 
empty their pockets, go through magnetometers and have their 
lunches x-rayed.
    Moreover, Congress had appropriated $500 million for 
security upgrades at GPO such as hydraulic barriers to keep 
trucks out from invading the building, but these were never 
installed. Instead, it was rumored that this money was placed 
in the revolving fund and used for travel.
    Over the years, because of a variety of reasons like 
technology changes and outsourcing, the numbers of employees 
have slipped from 8,500 employees to 2,200 employees. At the 
time that the GPO had 8,500 employees, there were three 
production managers.
    In the past when GPO cried poverty, they typically would 
reduce costs by cutting overhead. The previous Public Printer, 
Michael DeMario, eliminated 104 management positions, including 
five Deputy Public Printers. Congress authorized early 
retirement, and we lost many low-paying jobs. My shop alone 
lost six full-time employees, and the workload increased, also 
detrimental to our 
morale.
    The cuts in management were short-lived. In the first 2 
years that Mr. James was Public Printer with employment levels 
at 2,200, Mr. James had more people in management than GPO had 
when we had 8,500 employees. We now have approximately six 
production managers with an unknown number of assistant 
production managers and production engineers that the GPO is 
paying between $90,000 and $143,000 a year. Moreover, Mr. James 
hired back 105 of the positions that Mr. DeMario had reduced. 
Worse, while the GPO had two professional photographers on its 
staff, Mr. James hired a personal photographer at $90,000 a 
year.
    Coincidentally, Mr. James had made it known to a number of 
media outlets that the job he wanted after the GPO was the 
Governor or the Senator of Nevada. I personally witnessed Mr. 
James making a video showing him heading towards Capitol Hill.
    In 2002, after assessing the training needs of GPO, Mr. 
James promised a joint venture with local universities and 
colleges to meet the needs of the employee education. With 
great fanfare, Mr. James hired Steve Patrick to head training 
and develop it, and Mr.----
    Ms. Wasserman Schultz. You have about a minute, Mr. Elfrey.
    Mr. Elfrey. Pardon me?
    Ms. Wasserman Schultz. You have about a minute.
    Mr. Elfrey. Within a month, Mr. Patrick and Mr. Carr 
announced the establishment of the GPO University to meet the 
training goals. Two days later, Mr. Carr was fired.
    In 2006, GPO received $5 million to help meet training 
requirements. At the best, the only training we ever received 
was Windows XP or Word Perfect and that was if the workload 
would permit. It is hard to believe that $5 million was spent 
on Windows XP training.
    GPO had a great opportunity to invest in their greatest 
asset, their workforce, but they didn't. A month ago, Mr. 
Patrick left GPO, still talking about the skills and the 
assessments.
    As I stated earlier, the morale at GPO is at an all-time 
low. The employees have had to endure being called names, being 
treated like security risks with over-the-top and intrusive 
security checks, outsourcing and reductions in force and, 
ultimately, concession bargaining.
    Ms. Wasserman Schultz. I have to ask you to wrap up, Mr. 
Elfrey.
    Mr. Elfrey. All right.
    I would just like to say that we have been trying to get an 
agreement with GPO for over 2 years. We had an agreement in 
principle with Mr. Michael Stein, who was hired as head of 
labor relations to simplify the pay scales for 23 bargaining 
units. We came to an agreement in principle, and the next day 
Mr. Stein was fired. I told my membership that I wouldn't get a 
haircut until we got a new contract, and this is where I stand 
today.
    Ms. Wasserman Schultz. Thank you very much, Mr. Elfrey.
    [Mr. Elfrey's prepared testimony, disclosure form, and 
resume follow:]

[GRAPHIC] [TIFF OMITTED] T2315B.120

[GRAPHIC] [TIFF OMITTED] T2315B.121

[GRAPHIC] [TIFF OMITTED] T2315B.122

[GRAPHIC] [TIFF OMITTED] T2315B.123

[GRAPHIC] [TIFF OMITTED] T2315B.124

                           NEW PUBLIC PRINTER

    Ms. Wasserman Schultz. I noted that your testimony--much of 
the criticism almost exclusively relates to the former Public 
Printer. Has your relationship with the new Public Printer, Mr. 
Tapella, improved at all?
    Mr. Elfrey. Mr. Tapella came up to the pressroom; and after 
5\1/2\ years at GPO, he personally admitted that he didn't know 
where the press room was and that he had to be led there. So I 
don't think that the workers are having any better----
    Ms. Wasserman Schultz. So you haven't had any improvement 
in your relationship with the----
    Mr. Elfrey. No.
    Ms. Wasserman Schultz [continuing]. Management of the 
printer since his taking over? Okay.
    Mr. Elfrey. No.
    Ms. Wasserman Schultz. Okay. Thank you very much for your 
testimony.
    Mr. Latham? No.

                            Closing Remarks

    Thank you very much. We appreciate your testimony. We 
appreciate the testimony of all of the witnesses and the 
opportunity to hear from you.
    I can assure you that, as the Chair of the subcommittee, I 
will follow up with each of the agency heads on the concerns 
raised by each of the people who testified today. We will look 
into the criticism and the concern; and, in some cases, we will 
be able to help change the situation or at least inquire as to 
how the situation might change and improve. Because it is 
important to me as the Chair to make sure that the quality of 
life in the working environment for employees in the Capitol 
complex is of very high quality.
    With that, I want to thank Mr. Latham; and the subcommittee 
stands in recess until the next meeting which will be our 
hearing on CVC oversight on May 22nd.
                                            Thursday, May 22, 2008.

                         CAPITOL VISITOR CENTER

                               WITNESSES

STEPHEN T. AYERS, AIA, ACTING ARCHITECT OF THE CAPITOL
BERNARD UNGAR, CAPITOL VISITOR CENTER PROJECT EXECUTIVE, ARCHITECT OF 
    THE CAPITOL
TERRIE S. ROUSE, CEO FOR VISITOR SERVICES FOR THE CAPITOL VISITOR 
    CENTER, ARCHITECT OF THE CAPITOL
TERRELL DORN, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, GOVERNMENT 
    ACCOUNTABILITY OFFICE

                         Chair Opening Remarks

    Ms. Wasserman Schultz. Okay. Good morning. I would like to 
call to order the Legislative Branch Subcommittee of the House 
Committee on Appropriations. This is our 11th oversight hearing 
of the Capitol Visitor Center, and I am pleased to hear that 
the CVC is still on track with a $621 million estimate and an 
opening month of November. We are continuing to have these 
oversight hearings because we want to make sure that we keep on 
top of the progress that is being made, in terms of the 
completion of construction, the punchlist and other smoke 
control and fire alarm testing, system testing, and the million 
other little details that are going to unfold as we progress 
towards November.
    We want to get a regular update today on the CVC's 
progress. We have a number of important issues that we want to 
cover. I know we will want to talk to you about the bus issue 
and how we are going to work out the drop-off portion of that 
problem, the issue of staff-led tours and the CVC's Web site 
and how our constituents will access it, and a number of other 
issues.
    The statements will all be in the record, and each of the 
panelists will proceed with a 5-minute summary. Mr. Latham, if 
you have anything to add.
    Mr. Latham. Just look forward to the testimony and we will 
proceed.
    Ms. Wasserman Schultz. Okay. Great. Today we are joined by 
Stephen Ayers, the Acting Architect of the Capitol; Terrie 
Rouse, the CEO for Visitor Services at the CVC; Bernie Ungar, 
the CVC Project Executive; and Terry Dorn, Director of Physical 
Infrastructure Issues at GAO.
    Mr. Ayers, you can proceed with a 5-minute summary of your 
statement, and your statement will be entered into the record.

                    Opening Statement--Stephen Ayers

    Mr. Ayers. Thank you, Madam Chair, and good morning, 
Congressman Latham. I am pleased to be here today to report on 
the progress made to complete the Capitol Visitor Center and 
prepare for its operation and opening later this year.
    The comprehensive Fire Alarm and Life-Safety testing 
continues on schedule, and we fully anticipate to meet our July 
31st date for a temporary Certificate of Occupancy. Our cost to 
complete remains $621 million, and we have sufficient 
contingencies in place to meet our dates and our costs. The 
smoke control issues in the atria areas have been resolved, and 
we are testing the wiring enhancements that we have spoken 
about previously. Those tests have been completed. Along with 
the ongoing fire alarm testing, we are completing minor 
construction in the East Front, the Library of Congress tunnel, 
the House Hearing Room, exterior grounds, and the Senate atrium 
stairs. Work on the House atrium stair is essentially complete.

                             PROJECT UPDATE

    With regard to the remaining construction work, I am 
pleased to note that ceiling tile installation is nearly 
complete in the Library of Congress tunnel, and the terrazzo 
floor work is progressing well. Stone masons are now setting 
stone at the base of the tunnel walls, and painters are 
painting the ceiling in the west end of the LOC tunnel. Workers 
continue installing the railing in the East Front interior 
stairs, and masons are preparing to set black granite slabs 
around the two large sky lights that flank Emancipation Hall, 
which will be the focal point of those water features.
    In the Exhibition Hall, work on punchlist items continues. 
All major furniture and exhibit cases have been installed. And 
as I reported last month, the 11-foot touchable model of the 
Capitol dome has been installed. The six smaller scale models 
of Capitol square during various time periods will be installed 
in June. Work in the House and Senate Virtual Theaters has been 
completed, and the films will be installed later this summer. 
In the House Hearing Room, fabric wall panels have now been 
installed, and carpet installation is ongoing and should be 
complete this week.
    Crews continue to work to complete punchlist items such as 
mill work, wall stone, floor stone, grout, plaster, ceiling, 
doors, and paint and other finishes. Outside workers continue 
to install the glass panel on the elevators along the plaza. 
Crews are also restoring and grading the south egg to prepare 
the area for sod. They are planting trees, shrubs, and other 
small plants along the CVC entrance paths.

                   CHANGE ORDERS AND PUNCHLIST ITEMS

    As of today, there are approximately 6,100 open items on 
our punchlist, and we have abated over 2,000 since our last 
hearing in April. We are also continuing to address various 
issues that have arisen, such as those associated with 
equipment that operates the CVC's fountains and security system 
wiring.
    In April, 37 change orders were settled. In anticipation of 
the receipt of the temporary Certificate of Occupancy, the 
Capitol Superintendent's office continues to hold relocation 
coordination meetings with future occupants, and is ordering 
long lead equipment, furniture, and tools for the necessary 
maintenance functions in the Visitor Center.
    Madam Chair, as we reported last month, we received the 
independent consultant's preliminary report on the plaza paver 
situation. The issues discussed in the report include such 
matters as the provision for expansion and water drainage, and 
the composition of the material on which the pavers are set. I 
want to assure the subcommittee that we are working very 
aggressively on a course of action to correct the problems 
identified. These issues are procurement sensitive, and we will 
provide our complete action plan, which is due to this 
subcommittee May 30th.
    In anticipation of the CVC's openings, Ms. Rouse and our 
team continue to work with oversight committees and 
congressional leadership on plans for the CVC visitor services 
operations, and I know she has several updates to share with 
the subcommittee today.
    Madam Chair, we are reminded each day, as thousands of 
visitors pass through the Capitol Building, that the CVC will 
greatly enhance the visitor experience, offer additional 
educational opportunities, and provide the necessary amenities 
to the millions of people who visit here each day.
    This one-of-a-kind facility will be a true asset to the 
Capitol complex, and our country, and we continue to appreciate 
the support of this subcommittee and the Congress as we work to 
ready the CVC for the visiting public later this year. This 
concludes my statement.
    [Mr. Ayers' prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315C.001
    
    [GRAPHIC] [TIFF OMITTED] T2315C.002
    
    [GRAPHIC] [TIFF OMITTED] T2315C.003
    
    Ms. Wasserman Schultz. Thank you very much. Ms. Rouse.

                    Opening Statement--Terrie Rouse

    Ms. Rouse. Good morning. Madam Chair, Congressman Latham, 
members of the subcommittee, I am pleased to appear before you 
again to update you on our progress in readying the Capitol 
Visitor Center from an operational perspective. In keeping with 
the best practices among museums and large facility 
professionals, we plan to open the Capitol Visitor Center when 
all visitor areas have been tested and fully functional.
    From opening day onward, the Visitor Center will need to 
operate at full readiness on a daily basis. Once we open the 
doors to the public, we want our operation to be flawless in 
order to proudly showcase the Capitol Building and the 
Congress. Ahead of our opening we need to undertake a 
comprehensive public education campaign so that we can manage 
the expectations of our visitors, especially visitors who have 
never been here before. Prior to that, we will implement an 
internal communication plan to make sure that all Members and 
staff are fully apprised of our new visitor activities and 
policies and trained in the new facility.

                              CVC WEBSITE

    The Visitor Center Web site, which will be live prior to 
opening, will be a critical component of this public education 
campaign. Our Website will alert visitors to the Capitol to 
what they are allowed to carry with them in the building, as it 
is part of the Capitol. The Capitol Visitor Center's list of 
prohibited items will mirror the list designated by the Capitol 
Police for the Capitol Building.
    As we discussed at previous hearings, the Web site will 
contain critical logistical information, such as how tours and 
advanced reservations will work, how visitors may approach the 
Capitol, and the amenities we are providing like the restaurant 
and gift shops. We will even include a special section with 
tools and lesson plans for teachers who are bringing their 
students on field trips to Washington. It is our goal that the 
Web site will not only offer information about Members of 
Congress and the Capitol Building, it will also motivate people 
to become engaged in civic activity.
    With an extensively illustrated on-line exhibition area, 
the Web site will be step one in the inspirational journey that 
people will take when they visit the U.S. Capitol. We hope that 
visitors who will look at the Web site and who visit the 
Capitol will be inspired to go home and get involved, perhaps 
on the basis of the grass roots level with the community and 
their local government. We want them to go home and attend a 
town hall meeting, visit the local representative's office, 
write a letter to an elected official on an issue that they 
care about, or even volunteer in the communities. We hope that 
people will leave the Visitor Center with a passion to become 
engaged in the civic life of their neighborhoods.
    Madam Chair, as I have noted in prior hearings, we have 
much to do and not much time to do it in to prepare for the 
public opening. We look forward to the final passage of the 
legislation that establishes our Visitor Center organization, 
which provides the management and administration of the Visitor 
Center.

                        CERTIFICATE OF OCCUPANCY

    We look forward to the receipt of the temporary Certificate 
of Occupancy so that we can start moving our staff and the 
equipment into the brand new facility, and we are preparing to 
begin testing and adjusting our operational plans. Guides and 
Visitors Assistants need time to train inside the facility as 
soon as the final Certificate of Occupancy is awarded.
    Thank you again for this opportunity to update the 
subcommittee on our activities, and thank you for your 
continued support and interest. I would be pleased to answer 
any questions.
    [Ms. Rouse's prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315C.004
    
    [GRAPHIC] [TIFF OMITTED] T2315C.005
    
    [GRAPHIC] [TIFF OMITTED] T2315C.006
    
    [GRAPHIC] [TIFF OMITTED] T2315C.007
    
    [GRAPHIC] [TIFF OMITTED] T2315C.008
    
    Ms. Wasserman Schultz. Thank you, Ms. Rouse.
    Mr. Dorn.
    Mr. Dorn. Good morning. Thank you, Madam Chair, Mr. Latham.

                     Opening Remarks--Terrell Dorn

    Our status update this morning is somewhat routine in the 
sense that the project's budget of $621 million and the CVC's 
scheduled availability for opening remain unchanged. In fact, 
the fire alarm testing has gone so well that I find myself in 
the unfamiliar territory of being somewhat more optimistic than 
the AOC. I believe the fire alarm testing will finish slightly 
ahead of schedule.

                       PUNCHLIST ITEMS AND PAVERS

    What I would like to highlight this morning are two issues, 
the punchlist and the pavers. On the punchlist, the CVC team 
has managed to reduce the list from the 15,000 items we have 
been talking about for the past few months down to about 7,000 
items. The exact number, however, is unknown because at least 
two groups, the Fire Marshal and the Office of Compliance, are 
maintaining separate lists as they do their inspections. Prompt 
furnishing of these informal lists to AOC, and consolidation of 
all of these lists is important to help ensure all the repair 
work is done in the most efficient manner.
    For example, if the main punchlist pointed out that the 
bronze finish on a handrail needed correction, you would not 
want to bother doing that if the Office of Compliance's 
separate list recommended that the whole handrail be replaced 
for a safety reason. In addition, the AOC needs the punchlist 
from other stakeholders so they have time to separate the 
punchlist from the wish list. It is not unusual at this stage 
of a project for new tenants in a building to request things 
that they want to customize their space or for inspectors to 
suggest things that they think should be done differently.
    For example, Office of Compliance inspectors have 
identified several somewhat minor items that they would like to 
see changed, even though as designed and as constructed they 
meet the terms of the contract and they meet the terms of the 
building code. Unnecessary changes, even from good ideas, are 
much more costly at this late stage of the job than they would 
have been during design. They can be a drain on the project 
budget and a distraction to finishing the job at hand.
    As a result of an earlier CVC hearing, AOC developed a 
process for vetting and approving user-requested changes, and 
they should consider following that process in this case.

                              PAVER DAMAGE

    For the past several months the subcommittee has discussed 
needed repair of the damaged granite pavers on the plaza. Last 
month the Chair requested an action plan from the AOC. Since 
then, we have reviewed a draft report of the plaza's problems 
by one of AOC's consultants. And from the report it appears the 
repairs may involve the majority of the plaza, and will be very 
time-consuming. It is not yet clear who will bear the burden of 
funding the repairs. Given the information available at this 
time, we believe there are sufficient contingency funds in the 
current project budget to address the situation. However, we 
share the Chair's concern that repairs must be well planned out 
so that there is no impact on the project's opening or the 
inauguration ceremonies. While no reliable schedule or cost 
estimates are available at this time, AOC is working with the 
plaza designer and other stakeholders to prepare new estimates.
    This concludes my statement. I will be available to answer 
any questions.
    [Mr. Dorn's prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315C.009
    
    [GRAPHIC] [TIFF OMITTED] T2315C.010
    
    [GRAPHIC] [TIFF OMITTED] T2315C.011
    
    [GRAPHIC] [TIFF OMITTED] T2315C.012
    
    [GRAPHIC] [TIFF OMITTED] T2315C.013
    
    [GRAPHIC] [TIFF OMITTED] T2315C.014
    
    [GRAPHIC] [TIFF OMITTED] T2315C.015
    
                         PRE-INSPECTION PROCESS

    Ms. Wasserman Schultz. Thank you very much, Mr. Dorn. I 
appreciate all the panelists' input. Mr. Dorn, I actually want 
to ask you and Mr. Ungar about the issue you just talked about 
related to the OOC's pre-inspection process. Are you finding 
examples of where the OOC is asking for changes that are not 
required by regulations or code but that maybe they would like 
to see?
    Mr. Ungar. Yes, Madam Chair. There have been a few 
instances in which the Office of Compliance has asked us to 
consider making non-code required changes. What we are doing in 
each one of those cases is to clearly distinguish between code 
required and suggested items. We are considering each one of 
those on a case by case basis, and making a judgment as to 
whether it would be something that we feel is a reasonable 
change to make.
    Ms. Wasserman Schultz. Okay. And in terms of prioritizing, 
you are obviously prioritizing the code required changes----
    Mr. Ungar. Absolutely.

                    CODE REQUIREMENTS--DISAGREEMENTS

    Ms. Wasserman Schultz [continuing]. Over those. And are 
there any issues that are being raised by the OOC that you 
anticipate would delay the opening?
    Mr. Ungar. Not at this point, Madam Chair. I think there 
may be an issue or two we have a disagreement on, but we are in 
the process of working through those. But at this point I do 
not see anything that would affect the opening.
    Ms. Wasserman Schultz. Are those disagreements code 
required disagreements or not?
    Mr. Ungar. That is one of the disagreements, whether a 
particular item is code required. It has to do with the force 
with which it takes to open certain doors that would be an ADA 
requirement. There is discussions between us, as to exactly 
what the requirements are.
    Ms. Wasserman Schultz. Okay. Mr. Dorn, do you want to 
comment?
    Mr. Dorn. I think Bernie covered that, that there are 
several items that are not code required. And I have had 
discussions with the Office of Compliance over the past week 
about the need to work with the inspectors and make sure that 
they clearly stress the point of what is a requirement and what 
is a suggestion.
    Ms. Wasserman Schultz. Okay. This is something that 
obviously concerns me. I would assume it would concern Mr. 
Latham, too. We do want to make sure that we open the safest 
possible Capitol Visitor Center, but we also want to make sure 
that we not nitpick to such an extent that we add on things 
that are going to potentially delay the opening. I mean if they 
are nice-to-haves, if they are things that we maybe should do 
or could do to improve safety and improve the experience of the 
visitors that come through, then that is fine. But if those are 
also things that could be done post-opening, or that could be 
considered post-opening, then we need to make sure that we 
inject some sense into this process.
    Mr. Ungar. Madam Chair, I think the Office of Compliance is 
quite aware of that, and they have told us multiple times that 
they will work very hard with us to avoid anything that would 
adversely affect the opening.

                            BUSING CONCERNS

    Ms. Wasserman Schultz. Okay. I think, Mr. Latham, for the 
June oversight hearing we will have the OOC come to the hearing 
and we can ask them some questions and just get their feedback. 
Just so we can make sure that everybody is on the same page.
    I want to skip to the busing issue. At the public witness 
hearing that we had in the subcommittee we heard from two 
different entities on the real concerns that there are about 
the drop-off process. And you know, Chief Morse is not here 
today, and was not expected to be here, but Easter Seals raised 
the issue of the difficulty that they have in getting people 
with disabilities now to the Capitol and around the Capitol 
complex in this security environment.
    How do we anticipate getting people with disabilities to 
the CVC in terms of it being very different for someone with a 
disability to be even dropped off at the West Front and try to 
get them to the CVC entrance? Whoever feels comfortable 
answering.
    Ms. Rouse. Madam Chair, as it stands now we are going to--I 
guess we could use the map that we have--we are going to follow 
what has been the practice, and hopefully in the next fiscal 
year be able to augment it with additional vehicles. We have a 
shuttle system that the Guide Service has been running for some 
time which takes people from the West Front, which is where 
people primarily get on.
    Ms. Wasserman Schultz. If you could make it a little closer 
to us, that would be great. Not you, but someone. Thank you 
very much.
    Ms. Rouse. I am sure Mr. Ayers will augment anything I have 
to say. People typically are dropped off where you will see a 7 
minute wait time. 70 percent of the people who come to the 
Capitol are coming on tour buses. They are typically dropped 
there. Usually waiting for them are small, adapted golf carts, 
if you will, that if someone identifies that they have 
difficulty walking we simply transport them around to the East 
Front. In this case it will be the CVC. It would be wonderful 
to be able to add to that fleet of vehicles so we can transport 
people.

                               GOLF CARTS

    Ms. Wasserman Schultz. How many do you have now?
    Ms. Rouse. I think there are about six adaptive----
    Mr. Ayers. That is correct.
    Ms. Rouse. Six golf carts that have been retrofitted a 
little bit.
    Ms. Wasserman Schultz. Are those golf carts that can 
accommodate a disabled person?
    Ms. Rouse. Yes. Someone with wheelchair capacity. We need 
something that probably is more fitting for that job. It runs 
them on the West Front up to the CVC, and it can run them back 
as well. So adding to that fleet would probably be an ideal 
thing to do to be able to accommodate that. We also need to be 
able to directly communicate with people about what the needs 
are and be able to deal with it. Our Visitor Assistants will be 
there waiting for them. So we will be able to address almost 
anyone's needs as they are coming off their buses or as they 
are arriving. However, having additional vehicles would be of 
some help.
    Ms. Wasserman Schultz. Golf carts do not have seat belts. 
And beyond not having seat belts there are varying degrees of 
disability. And some people have a very compromised physical 
situation and other people have a much easier time. So I just 
cannot imagine that golf carts are the solution to moving 
people with disabilities around to the CVC.
    Ms. Rouse. What we will provide for you at the next 
hearing, we will try to come up with examples of better types 
of equipment being used to manage people who have those 
difficulties. Once someone gets into the CVC, of course, we 
have wheelchairs, and we will be able to accommodate motorized 
vehicles.
    Ms. Wasserman Schultz. My time has expired, but Mr. Latham, 
since I know you are interested in the bus issue too, I wanted 
to cover the pre-inspections that they suggested last time, so 
maybe you can cover that in your 5 minutes.

              TOURIST TRANSPORTATION AND INCLEMENT WEATHER

    Mr. Latham. Well, thank you. You know, this is fine on a 
nice pleasant day in May. I am just wondering about what to do 
in the middle of a torrential rainstorm, or when it is zero 
outside and you are loading people on golf carts or making them 
do a 7-minute walk up around the Capitol, outside. I would hope 
that there would be some better solution to all this. I just 
have real concerns about it. The whole idea of this is to have 
access to the Capitol. Obviously, the security situation has 
changed since the original concept. But it is still very 
problematic as far as I am concerned.
    Not to digress, but I am going to. Ms. Rouse, in your 
opening statement you talked about making people more 
politically active and encouraging them then to go home and 
write letters to their Congressmen--is that the purpose of the 
CVC?

                              CVC MISSION

    Ms. Rouse. The purpose of the CVC is many things. One of 
the educational objectives is to try to engage people to be 
inspired. So we hope once they go through on a tour or go 
through the exhibition that it will make them be inspired to 
really be engaged with what goes on in their environment. So 
that is the subtext of it. It is just an educational awareness. 
We are not trying to throw books at them or engage them in any 
political party activity. We want them to be engaged in their 
own world.
    Mr. Latham. Okay. You are talking about their going home 
and being politically active.
    Ms. Wasserman Schultz. She said civically active.
    Ms. Rouse. Civic activity.
    Mr. Latham. Okay. I just have concerns that maybe we are 
digressing from the purpose of the Visitors Center here a 
little bit. And that can be of concern to anyone around here if 
you can be influenced one way or another, which is not good. We 
get enough letters. I am sorry.
    Ms. Wasserman Schultz. He said it, not me.
    Mr. Latham. I love the letters, actually.

                       OOC REQUIREMENTS--NON-CODE

    Can you be more specific? What kind of noncode requests are 
you talking about from the OOC?
    Mr. Ungar. One example are some of the handrails in the 
CVC. The Office of Compliance asked us to consider turning the 
ends in toward the wall so they would not stick out in a 
straight manner. In the emergency exit stairs, they are turned 
in toward the wall so nobody snags a coat or something else on 
there. It is code required. In the more decorative stairways it 
is not. They have asked us to consider turning these in. What 
we have decided to do is look at those, case by case, and if it 
makes sense to do that we will do it.
    Another example has to do with railings, handrails in our 
Exhibition Gallery. OOC has asked us to consider adding a 
couple near where visitors would sit. We have decided that was 
a worthwhile suggestion. We are going to go ahead and do that 
one.

                          PAVER COST ESTIMATES

    Mr. Latham. Okay. Mr. Ayers, on the pavers issue again, I 
would like to know: What was the initial cost estimate, how 
much time was spent as far as installation of those, and is 
there an estimate of the costs as far as what it is going to 
take to resolve this? Also, is there enough--enough money in 
the budget for contingencies? If you could for my benefit let 
me know how long this is going to take and what it is going to 
cost.
    Mr. Ayers. Yes, sir, I would be happy to do that. We have a 
report that is due to this committee on the 30th. I will be 
sure to include those things in that report if that is okay.
    Mr. Latham. What did it cost initially? Do you know?
    Mr. Ayers. I do not know. Mr. Ungar, do you know?
    Mr. Ungar. It was a little over $3 million, best I can 
recall, to initially install. It was not done all at once. We 
did a portion of it for the inauguration, and we did the 
remaining parts in segments. So it took a period of years, but 
it was not starting on one day, continuously worked on for the 
whole period.
    I do want to mention, that I do not think, and I have not 
had a chance to talk to Mr. Ayers about this but I really do 
not believe we are going to be able to have a complete plan, as 
you asked for, by May 30th, because we are still sorting 
through the design issues and options. It will probably be a 
little bit beyond that time before we can put something 
together on that. Even after we come up with our proposal, I 
think we are still going to have to discuss our proposal with 
you all and other congressional stakeholders to see if 
everybody is in agreement with what we would propose to do and 
the timing. We do have sufficient funds in contingency for the 
replacement.

                            PERIMETER FENCES

    Mr. Latham. I assume the fences are going to stay up until 
that is completed?
    Mr. Ungar. That is another issue. I think in terms of the 
entire perimeter fence from a construction point of view, that 
probably could come down in the August time period, maybe early 
September, other than around certain portions of the plaza that 
we might be working on. That decision involves more than a 
construction question. I think there is Capitol Police interest 
there and maybe some other interests. So that is a bit of an 
open item at this point.
    Mr. Latham. Okay. How are we doing on time?
    Ms. Wasserman Schultz. You are a minute and a half over. I 
was being generous.
    Mr. Latham. Go ahead.
    Ms. Wasserman Schultz. Thanks so much. Ms. Lee.

                         CVC OPENING TIMEFRAME

    Ms. Lee. Thank you. Let me see if there is anything 
resolved yet on the opening of the CVC, especially as it 
relates to receiving visitors. Is it still December, or do we 
know yet, or how are we working that through?
    Ms. Rouse. Good morning. We do not know yet. It is still 
going to be up to Congress to decide. We do have some varying 
questions about when to open. The CVC team is proposing that a 
good opening would be mid-November to the end of December time 
period, which would allow us to have readiness in various areas 
of the operation. So that is the general idea that we are 
planning for.
    My colleagues are going to provide the building with a 
Certificate of Occupancy, which will allow us to move into the 
facility. It is now we must plan the timing for when best to 
open. We also know our colleagues down the Hill at the National 
Museum of American History will be opening in approximately the 
same time period, between November and December of this year. 
So we would like to not compete with them, if at all possible. 
The one challenge we have for visiting the Capitol is that we 
want to, as part of our public awareness campaign, make sure 
that the etiquette of visiting the Capitol is very much in 
people's minds, because it is not like visiting a museum; you 
are visiting the U.S. Capitol. So there are slight differences 
such as the size of your backpack, you cannot bring food, you 
cannot bring water. There are other considerations which go to 
the working nature of our building. So that is the summation of 
that issue.

                       DIVERSITY OUTREACH EFFORTS

    Ms. Lee. Good. And let me commend you also for your 
reaching out to really a wide and diverse array of 
organizations, caucuses, and individuals as it relates to your 
hiring. And of course training comes after that in terms of 
diversity training, what have you. And I am curious about some 
aspects of your training program, such as training tour guides 
in the history of the building of the Capitol with slave labor. 
How is that going to be taught and some of the other historical 
facts that really, you know, have not been part of American 
history? How do you envision that happening?
    Ms. Rouse. Our plan is we will be training staff, our CHIP 
program for congressional staff, as well as our guides. We are 
taking what is academically referred to as a holistic 
perspective on training. The diversity of the country is what 
it is. So we want to make sure that all of the people who visit 
are welcomed, and everyone understands who they are and they 
can respond to them accordingly.
    The issue of how the Capitol was built, the labor involved 
in it, being able to articulate that clearly goes to people's 
greater understanding of the structure and the magnitude of it. 
It also goes to the issue of how the country has been 
continuing to change. I think it is a great story of how labor 
has become such the master of the complex. So we will continue 
to do that. If I get my way, I will get a chance to do 
programming about contemporary construction. That is our goal.
    Ms. Lee. Good. And finally--is my time?
    Ms. Wasserman Schultz. You are fine.

            WOMEN-OWNED AND SMALL BUSINESS OUTREACH EFFORTS

    Ms. Lee. Okay. On the outreach and minority and women-owned 
business, small business hiring, I mean procurement efforts, 
contracting, retailing, how is that going? And we received a 
report back yet on the numbers?
    Ms. Rouse. No, you have not received a report back yet. And 
we are working on that. I did talk directly to my staff person 
who is procuring for the gift shop. We are going to seek to 
reach and get vendors from every State to make sure we have 
nationwide impact so we can reflect that within the store. The 
themes of the stores are ``We The People,'' so we want to 
reflect the people in our stores. We also will be able to 
hopefully continue to work with our colleagues at the Capitol 
Historical Society to make sure that their products and people 
are aware of what will be there. We hope to have for you by the 
next hearing a report on that.
    Ms. Lee. Good. And can you notify Members of Congress so 
they can notify their small businesses who may or may not be 
interested, women-owned businesses, in participating?
    Ms. Rouse. We can do that.
    Ms. Lee. Okay. Thank you very much. Thank you, Madam Chair.
    Ms. Wasserman Schultz. Thank you, Ms. Lee.
    Mr. Bonner.
    Mr. Bonner. Thank you, Madam Chair. You have been on TV a 
lot this week. I have been enjoying seeing my chairwoman all 
over the TV tube.
    Let's see, Ms. Rouse.
    Ms. Rouse. Yes, sir.

                  AUDIENCE PARTICIPATION--SOFT OPENING

    Mr. Bonner. Could you tell us what type of audience you 
plan to invite to participate in the test and adjust period of 
the CVC? And I am late, so if this question has already been 
posed to you I will retract it.
    Ms. Rouse. No, I can tell you what we proposed, and I thank 
you for asking the question. Even though it has not been 
finally decided, we had thought of doing so in the month of 
October or even late September, we will still be moving statues 
in and invite people who are forgiving, if you will, of 
watching a production come on line. That would be Senate staff 
and their families, House staff and families, the Library of 
Congress staff and their families, people who are members of 
Capitol Hill who could come in and get an inside view of it. We 
would not until, of course Congress approves it, begin to 
invite people who are outside the family. Hopefully that would 
be later on, perhaps in November. But initially it would be 
members of the Hill.
    Mr. Bonner. Possibly some of the wounded military 
personnel----
    Ms. Rouse. Absolutely.
    Mr. Bonner [continuing]. From the hospitals?
    Ms. Rouse. Absolutely.
    Mr. Bonner. And then what kind of public awareness 
activities do you have planned?
    Ms. Rouse. We have a variety of things planned, which of 
course are awaiting approval by our oversight committees. Some 
of it is just direct public awareness. We need to let people 
know what the etiquette is coming to the U.S. Capitol. We need 
to let people know how, if they choose to do a tour and a 
guided tour, how you use our Advanced Reservation System or the 
telephone numbers. A simple thing we have to tell people is 
where the Capitol Visitor Center is. Oddly enough, it is under 
street level. So people need to know what to look for.
    A secondary part of it for the school groups and the bus 
groups that need to register in advance, we need to let them 
know that we need you to register so we can get back to you in 
the event there are changes. Ultimately, we want school groups 
K through 12 to have preparation in advance so our Web site can 
go online with curriculum tie-in material for each State. I do 
not think I will have that for opening per se, but that is the 
goal by the middle of next year.

                        CVC VISITOR PROHIBITIONS

    Mr. Bonner. And for instance, by contrast when visitors go 
down to the White House they cannot take cameras, they cannot 
take backpacks or umbrellas or things like that. Will there be 
similar types of prohibitions coming into the Visitor Center?
    Ms. Rouse. Yes. The prohibitions are the same as they 
currently are for the Capitol will be unless something changes 
by the Capitol Police. Of course you can bring a camera if you 
like, but a small backpack, not a large backpack. No food, no 
water, which is part of the reason why we will have 
restaurants. Even small things like, perfume is too much 
liquid. What I do not want is for people to arrive at our door, 
too many people to arrive at our door and we have to have big 
bins out front where people are having to throw things away.
    Even the airports have gotten much better at informing 
people of what to expect when they go to the airport. We want 
to reach that level of penetration so people understand what 
they need and what the etiquette is for the building.
    Mr. Bonner. And will they not be able to bring water in, 
for instance, because of a security issue or because there are 
vendors selling it on-site?
    Ms. Rouse. It is the standard practice now that if you are 
an outsider, not staff, if you are an outsider you cannot bring 
food and water into the Capitol. So we are simply following 
that practice. But we have bottled water inside and we have 
water fountains inside. So that will not be an issue for 
anybody. Food they will have to purchase on site. They also 
will not be able to take it outside of the restaurant.
    Mr. Bonner. Okay. Great. Let me shift gears real quick like 
to the GAO.

                        CVC SMOKE CONTROL SYSTEM

    Mr. Dorn, in your submitted testimony you mentioned that 
there have been some difficulties in testing the smoke exhaust 
system and fire alarm. What type of problems are we talking 
about? And could you anticipate that these problems would delay 
the Certificate of Occupancy?
    Mr. Dorn. First, no, we do not anticipate that it would 
delay the Certificate of Occupancy. But for the details, Bernie 
Ungar could probably do the best description.
    Mr. Bonner. Okay. And again forgive me if this question has 
already been posed, because I did come in late.
    Mr. Ungar. No, it has not been asked yet, sir. A recent 
example is today we are winding up the first segment of our 
testing of the CVC smoke control system. One of the problems we 
have encountered is that there are certain areas, relatively 
small areas within the facility, where we have not been able to 
achieve the air pressure that we need for certain situations if 
we have to go into a smoke control mode. What we are doing to 
address those issues is getting with our engineers to come up 
with some solutions. We do not think there are major problems 
at this point. If we have to make a change, we will do that. We 
will then work with the Fire Marshal to retest the system.
    Mr. Bonner. Okay. Thank you, Madam Chair.
    Ms. Wasserman Schultz. You are welcome, Mr. Bonner. Thank 
you very much. I guess we are back to me now. I have three 
questions that I would like to get done in my 5 minutes.

              CVC WEB SITE AND ADVANCE RESERVATION SYSTEM

    Ms. Rouse, on the CVC Web site we had an opportunity to 
follow up since the last CVC hearing. And I think you and I 
have a clearer understanding of the direction that I think the 
Web site should go in terms of accommodating Members who wish 
to give staff-led tours and have their constituents get direct 
access right to their scheduling process.
    Can you talk about the evolution of the Web site and where 
you are in terms of making sure that there is a button that can 
be clicked on that says, ``book a tour with your Representative 
or with your Senator?''
    Ms. Rouse. I certainly can. And there will be a button that 
says that.
    Ms. Wasserman Schultz. Hallelujah.
    Ms. Rouse. From our discussions, and it did provide the 
staff an opportunity to better articulate what we are doing, on 
each Member's Web site there will be a button to allow them to 
manage the Advance Reservation System. They can customize it to 
whatever their needs might be, if it is something they want to 
do or something they do not want to do. Or they can change it 
at any moment, they will be able to do that. We are hoping 
through the month of July to be actually testing our Advance 
Reservation System.
    Ms. Wasserman Schultz. It will be on the Member's Web site. 
Will it also be on the CVC's Web site?
    Ms. Rouse. Absolutely, yes. We have a Webmaster who will be 
helping us with that and for everybody, all 540 Members' 
offices and their district offices. We are buying licenses for 
all of them so we will be able to bring that on line. We will 
test in the month of July and get feedback from a limited group 
of people on such things as the buttons and the function. In 
September, we will be setting up the allocations. In this we 
will be asking Members what it is that they would like to do. 
We will customize it to their needs. With a little help we will 
be beta testing September 22nd to October 3rd. Visitor Services 
will do the beta testing for us. People will begin booking 
through them. Then we will do similar testing for part of 
October with Member offices. The feedback we get with that will 
allow us to make any adjustments and customizing further. We 
will then go live as Congress gives us permission to do so.
    So hopefully, by early October we will have a pretty good 
feel for it. The nice thing about Web sites and Webmasters is 
you can keep adjusting.
    Ms. Wasserman Schultz. Thank you very much, and I 
appreciate the work that you have been doing on that. It took a 
while, but I am glad to see that we made that progress.

                       BUS PRE-INSPECTION OPTION

    Just back to the busing issue. Also at the public witness 
hearing it was suggested by the National Tour Association that 
they would like to work with the Capitol Police and with the 
AOC on the possibility of pre-inspecting buses, making sure 
that the buses that come through drop off their luggage and all 
their belongings at the hotels before they come for their tour 
of the CVC and for their drop-off, and that the buses go 
through a pre-inspection process.
    Is that something that is being pursued? Are we actually 
evolving the transportation plan here? Because this is, I 
think, the third CVC oversight hearing we have had in which we 
have had this conversation, and I just keep seeing this map. 
And I feel like nothing has changed from the initial plan. And 
we have expressed enough concern that I think we all would like 
to see some changes made. So what is your process that is 
designed to make sure that we can evolve the plan to make it 
more workable for anywhere from constituents who are not 
disabled to constituents with disabilities?
    Ms. Rouse. Madam chair, I guess our best response to that 
is that we are going to continue to meet. We have been 
convening on the transportation issue. We have not convened on 
it for the last month or so because the Capitol Police have 
been discussing this on a hearing level. I suspect what we will 
need to do is go back and convene again on where we are on this 
issue. It is the responsibility of the Capitol Visitor Center 
to report on that, because we are communicating to the public 
what their options are. It will be up to the Capitol Police to 
see what it is that they are going to allow to happen.
    Ms. Wasserman Schultz. Maybe we can make sure that this 
does not take as long as the Web site did.
    Ms. Rouse. We will try.

               CHANGE ORDERS AND MULTIPLE PUNCHLIST ITEMS

    Ms. Wasserman Schultz. That would be good. We want to make 
sure we accommodate the needs of all people who visit the CVC.
    Change orders and the punchlist. Obviously, from when Ms. 
McCollum raised the issue of there being 14,000 items on the 
punchlist initially, and now we are down to 7,000, that is 
great, but I know there are multiple punchlists. And I do not 
really understand how we are whittling down the items on some 
of these separate punchlists. It seems like there are these 
specialty punchlists. How are we prioritizing the winnowing 
down of the items on those? And what is the progress being 
made? Because I know in the report that we get I am seeing the 
main punchlist numbers, but not all of them.
    Mr. Ayers. That is true, you are seeing the main punchlist. 
I think today we are down to 6,100, which is about 2,000 fewer 
since our last hearing as I noted. There are a handful of other 
specialty lists. For example, we have a specialty list that has 
20 or 30 items on it with our technical security contractor. We 
have a list from the Office of Compliance that probably has 100 
items on it, most of which I think are complete. There may be a 
dozen or so open items on that list.
    Anything you would like to add to that, Mr. Ungar?
    Mr. Ungar. Yes, ma'am, there are basically only three 
specialty lists, as you call it. They are special for a 
particular reason. They are higher priority items than the 
general items: security, fire alarm, and basic life-safety for 
example. That is why they are separate. They are maintained for 
different reasons, different purposes.
    Ms. Wasserman Schultz. Are you comfortable with the pace of 
the progress on those lists?
    Mr. Ungar. At this point, yes, ma'am.
    Ms. Wasserman Schultz. Okay.
    Mr. Ungar. They are separate because we want to give them 
priority attention.
    Ms. Wasserman Schultz. Mr. Dorn, do you have any concerns 
about the progress that is being made on some of these separate 
lists or the punchlist overall?
    Mr. Dorn. Not on the progress being made. I think they are 
all working towards that. One thing to recognize also in this 
area is that not all punchlist items are created equally, of 
course. Some of them are, as we discussed at earlier hearings, 
easy to take care of, and others--I mean the list with a dozen 
items--might be the hardest list that you have got.
    Ms. Wasserman Schultz. Right.
    Mr. Dorn. So I do think it is important that these other 
people keep AOC informed of what their concerns are so that AOC 
again can merge the corrections and make sure that we are not 
correcting one thing and then tearing it out because another 
list had a different concern about the same item.
    Ms. Wasserman Schultz. Yes, Mr. Ungar.
    Mr. Ungar. If I can just add, I do not think that is going 
to be a problem. All of these specialty lists are really under 
the leadership of Doug Jacobs. He is aware of every single item 
that is on there. He is feverishly working to make sure that 
the type of situation that Mr. Dorn raised does not happen. 
Just adding these to the bigger list is not really the 
solution. Mr. Jacobs keeps on top of that.
    Ms. Wasserman Schultz. I was not suggesting he do that. I 
was just wanted to make sure that since this is an oversight 
hearing we ask about all the balls that are in air right now. 
Thank you for your indulgence.
    Mr. Latham.

                           LOC TUNNEL UPDATE

    Mr. Latham. Thank you. Mr. Ayers, I wanted to ask about the 
Library of Congress tunnel progress. I understand that there 
have been some leakage problems, pretty significant. What is 
the status of that? And is there enough money to fix the 
problem, if in fact there is the leakage problem?
    Mr. Ayers. We have experienced some leaks in the Library of 
Congress tunnel. We do think, ultimately, that they are 
manageable. We are working now to fix many of those from the 
top level. One of the problems we found was that the 
construction above is not complete, and thereby we have some 
drainage problems above that is forcing water into the tunnel. 
We are comfortable we are able to fix those problems.
    Mr. Latham. How much water?
    Mr. Ayers. Well, initially we had numerous leaks. And we 
have had a variety of repair techniques, I would say 80 to 90 
percent of which have been effective. We have maybe 10 percent 
of those that remain to be problems for us. I do not think it 
is--from my perspective, it is not a significant issue.
    Mr. Latham. Is there enough money, within the 10 million 
limitation?
    Mr. Ayers. We are very confident we will be within that $10 
million limitation.

                          CVC LEAKAGE PROBLEMS

    Mr. Latham. Okay. Just one final question on the CVC in its 
entirety. We have had an awful lot of rain this spring. Are 
there leaks elsewhere in the CVC or any other significant 
problems?
    Mr. Ayers. There are no significant problems. We have had 
minor leaks throughout the facility over the course of the last 
year or two, most of which have been fixed already.
    Mr. Latham. Where?
    Mr. Ayers. The House connector tunnel is one area. 
Certainly along some of the perimeter walls have been some 
other areas. Those are the only ones that I recall. Mr. Ungar, 
do you recall others?
    Mr. Ungar. There have been a few others, sir. For example, 
in one of the meeting rooms. We try to address those, 
obviously, as soon as we identify them. We have got basically a 
list of areas in which we have leaks. And Mr. Jacobs, again, is 
going to be working with our architect to figure out the best 
way to address them. Some of them are a little more complicated 
than others. But we are waiting to get together with all the 
appropriate folks to figure out what the best steps are to 
address the ones that we continue to have.
    Mr. Latham. Okay. Thank you.
    Ms. Wasserman Schultz. Thank you, Mr. Latham.
    Ms. Lee.

                  TRANSPORTATION COST--VISITOR OPTIONS

    Ms. Lee. Okay, let me go back to the question of Capitol 
Police and transportation, what have you. I remember last time 
we talked a little bit about the cost of transportation from 
Union Station to the Visitor Center. Was it a dollar? You guys 
still talking about that?
    Ms. Rouse. What we were doing with our convening is trying 
to make sure that we had a mechanism to tell all the public 
what their options were to get from Union Station to the 
Capitol, if that was an option that they were going to 
exercise. You can see from the map there that it is about four 
blocks, or about an 11-minute walk. If someone opted to take 
the Circulator bus, it would be a dollar. That Circulator bus, 
and its stop is right in front of the CVC, would also take them 
down to the stadium. So it is really serving this part of 
Washington, DC.
    Ms. Lee. But you know what, the only problem is that may be 
the only option. It is great to be able to have options and 
give people their options, but what if that is the only option? 
So if you are relegated to that you become victimized and 
discriminated against really because you have selected that 
option because you could not handle the other options for 
whatever reason. And so I am still a little worried about that.
    Ms. Rouse. Yes, ma'am. I think probably one of our tasks 
will be with the CVC and AOC, is to communicate again with the 
Capitol Police and try to articulate better what it is that the 
options will be for people if they happen to be coming from 
Union Station and they cannot use the Circulator bus.
    Ms. Lee. Are we going to ask the Capitol Police to come and 
kind of talk that through with us, Madam Chair, or is that 
something----
    Ms. Wasserman Schultz. They were here at the last meeting.
    Ms. Lee. Yeah.
    Ms. Wasserman Schultz. We certainly can have them come 
back.
    Ms. Lee. After you all have your discussions maybe?

                              BUS OPTIONS

    Ms. Wasserman Schultz. I think you really need to sit down 
with all the parties that are involved in the development of 
this bus plan and come back to us with some answers. Because we 
have continued to ask questions and we are still in the same 
place.
    Ms. Lee. Yeah. And I do not know if that is--is that a 
financial issue, or is this something that is being driven by 
the Visitors Center or by the city with regard to the charge of 
the $1?
    Ms. Rouse. The Capitol Visitor Center, our job is just to 
report on how people can get there. The Circulator bus, it is a 
city bus, and this is their mechanism. They added one stop in 
front of the CVC to accommodate the increased visitorship.
    Ms. Wasserman Schultz. Would the gentlewoman yield?
    Ms. Lee. Yes.
    Ms. Wasserman Schultz. I am on the Financial Services 
Appropriations Subcommittee, and when we considered DC's 
budget, Mayor Fenty was there, and the only question I asked 
him was about the Circulator buses, and the charge of $1, and 
their size, and the fact that they do not really fit more than 
40 people. And he is supposed to get back to us on some of our 
concerns. But really everybody needs to sit down and come back 
to us. So maybe we will have them come back at the next 
hearing.
    Ms. Lee. Come back. Okay. Thank you very much. Because that 
is still looming out there, and I would like to see it 
resolved.
    Ms. Wasserman Schultz. Yes, ma'am.
    Ms. Rouse. Mr. Bonner.

                    CVC SIGNAGE--CONTACTING MEMBERS

    Mr. Bonner. Yes, ma'am, thank you. A couple more quick 
questions. When I was an intern it seems like in 1881, it was 
actually 1981, the signage in the Capitol complex was 
atrocious. You did not know whether you were in the Rayburn 
Building or the Cannon Building unless you knew your way 
around. And I must say that in recent years the signage has 
improved considerably.
    That said, hoping that millions of people come to the CVC 
as their gateway to the Capitol, what methodology do you 
anticipate there being when a visitor does not call one of 
their Members or Senators in advance and they just show up in 
the CVC in terms of them knowing how to get in touch with their 
Member or their Senators if that is something that they would 
like to do, hopefully to tell us we are doing a good job, 
obviously, not a bad job.
    Mr. Ayers. I can respond to that, and thank you for your 
comments on the signage throughout the Capitol complex. We have 
invested a great deal of time, and the Congress has supported 
that effort with significant funds in recent years. It is 
really looking up, I agree with you. When a visitor comes into 
the Visitor Center, of course, they can inquire at one of the 
information desks about who their Member is and, where their 
Member's office is located. But in addition, in the exhibits in 
the Exhibition Hall a member of the public can look up their 
Member and look up where their Member's office is located, and 
from there begin a journey to their office.

                              CAPITOL MAP

    Mr. Bonner. Might I suggest, and I have not precleared this 
with the chairwoman or anyone else, this is just off the top of 
my head, which is sometimes dangerous, but when I started here 
in 1981 as an intern, there was a police officer, and he is 
still here today, and he used to keep a pad with a map of the 
Capitol grounds on it. It seems to me if you had some way to 
amplify that concept so that if at the visitor's desk they come 
in and want to see Congressman Latham, or they don't even know 
who their Congressman is, if they can get a pad while in the 
complex, and that way they can write down that he is in Room 
345 in the Cannon Building and the two Senators from their 
State are in the Russell Building and the Dirksen Building, 
just something that a person can have with them that has also a 
general layout of the House office buildings and the Senate 
office buildings. Just a suggestion.
    Mr. Ayers. Great idea. In fact, I have a pad of that 
Capitol complex myself in my desk drawer, and I use it 
regularly with visitors as well. Great idea.
    Mr. Bonner. Two other quick questions.

                LANGUAGES--AVAILABILITY TO CVC VISITORS

    Number one, we oftentimes when we are talking about the 
buses or whatever, we are thinking about our constituents that 
we know will be coming here. But how many different languages 
will be available for visitors from around the world who will 
come here, and what method will they have access to understand 
the history of our country and the building?
    Ms. Rouse. I can answer that. Initially there will be 
Spanish, German, French, Japanese, and Chinese language 
material available for people doing the tour, conventional tour 
guides. Also in the Exhibition Hall in the CVC, those five 
languages will also be on audio heads. I hope as time goes on 
and as our Visitor Center guides come on, we will be able to 
have them have that language capability as well.
    I don't think that we will have it tied down by the time we 
open, but as years go on, we will be able to offer a tour in 
Spanish or German because we have that need among our visitors.
    Mr. Bonner. Will we be monitoring to see if we need to 
expand the languages?
    Ms. Rouse. Yes, evaluation will be a key component of what 
we will be doing in the Visitor Center. We need to know what 
people are getting or not getting, and we will be able to 
report back on that.

                     CVC STATUES--SITE DESIGNATION

    Mr. Bonner. One more quick question. Have all of the sites 
for the statues in the CVC been designated yet? And if not, who 
do we talk to if we are interested in a statue of our 
distinguished chairwoman or some other famous American?
    Mr. Ayers. We have put together a statue relocation plan 
both for statues to move to the Visitor Center as well as the 
resulting shuffle that will obviously take place within the 
Capitol Building. We have forwarded our recommendations to the 
Joint Committee on the Library, which has oversight over that 
matter.
    Mr. Bonner. Well, Helen Keller, Alabama, she will be coming 
here in a few of months, and I certainly hope she has a 
prominent place.
    Thank you, Madam Chair.
    Ms. Lee. On the languages, how did you come up with those 
five languages? Are these the most common languages spoken in 
the world or what was the process to make the decision?
    Ms. Rouse. That predated me, but I suspect it was probably 
based on demand that those five languages were picked. Spanish, 
German, French, Chinese, and Japanese. But we can investigate 
through sort of anecdotal comments through the guide service 
what other languages are beginning to be on demand, and we will 
pass them on at the next meeting.
    Ms. Lee. Thank you very much.

                CR IMPACT ON CVC--CHAIR CLOSING REMARKS

    Ms. Wasserman Schultz. Ms. Rouse, as you know, we are 
facing a difficult fiscal environment. There are going to be a 
lot of challenges and difficult decisions we are going to have 
to make as legislators. You have requested a 58 percent 
increase in your operating funds for the CVC for fiscal year 
2009. Given that we may not even have an appropriations bill 
that will pass by the beginning of the fiscal year, which is a 
concern that Mr. Latham has repeatedly expressed, I want to 
make sure that you are prepared to operate the CVC in a 
continuing resolution environment.
    So by June 6, if the Architect of the Capitol could submit 
a plan for operating the CVC under a continuing resolution for 
the first half of fiscal year 2009, we would appreciate it 
because we think that you need to think that all of the way 
through. I know there are some important and grandiose plans 
for opening the CVC, much of which will not be possible in the 
event that we are in a CR for the first part of the year, so we 
want to make sure that you are ready. If you can do that by 
June 6, that would be great.
    Thank you.
    With that, this subcommittee stands in recess subject to 
the call of the chair.

[GRAPHIC] [TIFF OMITTED] T2315C.016

[GRAPHIC] [TIFF OMITTED] T2315C.017

                                             Tuesday, July 8, 2008.

                         CAPITOL VISITOR CENTER

                               WITNESSES

STEPHEN T. AYERS, AIA, ACTING ARCHITECT OF THE CAPITOL
BERNARD UNGAR, CVC PROJECT EXECUTIVE, ARCHITECT OF THE CAPITOL
TERRIE S. ROUSE, CEO FOR VISITOR SERVICES FOR THE CAPITOL VISITOR 
    CENTER, ARCHITECT OF THE CAPITOL
PHILLIP D. MORSE, SR., CHIEF OF POLICE, U.S. CAPITOL POLICE
TERRELL G. DORN, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, GOVERNMENT 
    ACCOUNTABILITY OFFICE
PETER EVELETH, GENERAL COUNSEL, OFFICE OF COMPLIANCE

                         Chair Opening Remarks

    Ms. Wasserman Schultz. Good evening. I would like to call 
the meeting of the Legislative Branch Subcommittee of the House 
Committee on Appropriations to order.
    This evening is our 12th oversight hearing on the Capitol 
Visitor Center, and I appreciate everybody accommodating the 
Members' schedule. We have had some adjustments to make in the 
legislative calendar, and I wanted to make sure, originally, 
that we would have this hearing prior to the originally 
scheduled Appropriations markup tomorrow; but we did not want 
to juggle the calendar again, so here we are.
    We have an unusually large panel tonight, but we have a lot 
of ground to cover. And I wanted to make sure particularly that 
we have a final oversight hearing in July--not final as far as 
the work that we are doing, but I did want to make sure that we 
have an oversight hearing before the scheduled temporary 
certificate of occupancy so that we could make sure that we 
have as many boxes checked as possible.
    So I don't want to speak very long. We have a lot of ground 
to cover, as I said. Primarily, the focus of this hearing will 
be the bus drop-off plan for visitors to the Capitol Visitors 
Center and our regular update on the progress of the Capitol 
Visitors Center.
    We want to talk with you, Ms. Rouse, about the progress 
that you are making, and the implication of a CR, in the event 
that we are in one, as well as our usual questions for you 
about staff-led tours. And also cover the OOC questions that 
arose from the last hearing and the concerns that might be out 
there.
    And, Chief Morse, we are also going to go over some of the 
bus transportation plans with you as well.
    So, with that, Mr. Latham.
    Mr. Latham. Just in the interests of time, welcome 
everyone, and I look forward to the testimony. Thank you.
    Ms. Wasserman Schultz. Great. Thank you.
    We have joining us this evening Stephen Ayers, the Acting 
Architect of the Capitol; Bernie Ungar, the CVC Project 
Executive; Terry Dorn, the Director of Physical Infrastructure 
Issues at GAO; Terrie Rouse, CEO for Visitor Services at the 
CVC; Phillip Morse, Chief of the U.S. Capitol Police; and Peter 
Eveleth, General Counsel of the Office of Compliance.
    Mr. Ayers, you are up first, and you can proceed with a 
summary of your 5-minute statement, and your statement will be 
entered into the record. Welcome.

                    Opening Statement--Stephen Ayers

    Mr. Ayers. Thank you, Madam Chair, Congressman Latham, and 
members of the subcommittee. I am pleased to be here today to 
report on the progress that we have made to complete the CVC 
and prepare for its operation and opening later this year.

                          CONSTRUCTION UPDATE

    As we have reported for the past several months, the 
comprehensive fire and life-safety testing continues on 
schedule, and we remain confident that we will receive a 
temporary certificate of occupancy by July 31st, as planned. We 
have also been working closely with the Office of Compliance to 
identify and resolve facility design and construction related 
issues well before the CVC opens to the public.
    In February, the Office of Compliance and our project team 
launched a collaborative effort under which the Office of 
Compliance has been pre-inspecting various aspects of the CVC 
as they have been completed, informally bringing issues to our 
attention, and working with us to resolve those issues. We are 
pleased to report that, at this time, the Office of Compliance 
has looked at nearly all of the areas for which pre-inspections 
were planned prior to occupant move-in, and we are in agreement 
with the Office of Compliance on all deficiencies, and most 
have already been corrected.
    Along with the ongoing fire alarm testing, we are 
completing minor construction in the East Front, the Library of 
Congress Tunnel, the Senate Atrium Stairs, and the Exterior 
Grounds. In the House Hearing Room, crews recently completed 
the carpet installation and will be completing the remaining 
work in July.
    In addition, workers have been completing grout work 
between some of the 46,000 pieces of sandstone throughout the 
facility. Metal workers continue setting exterior bronze wall 
panels adjacent to the north and south entrance doors, and 
others are making adjustments to the bronze panels that line 
the escalator on the south side of Emancipation Hall.
    On June 30th, we opened to pedestrians the East Front 
basement corridor, which connects the House and Senate wings of 
the Capitol Building. All of the testing and acceptance 
activities associated with the fire alarm system in this area 
were successfully completed. Outside, preparatory work along 
First Street on the Pepco vault was completed 2 weeks ahead of 
schedule, and crews are laying sod on the south egg, and are 
planting new trees and shrubs along the CVC entrance paths.

                  RELOCATION OF THE STATUE OF FREEDOM

    In the Russell Building, we are preparing the plaster model 
of the Statue of Freedom for its move to the Capitol Visitor 
Center. In order to safely move the model and maintain public 
access through the basement rotunda, a scaffold has been 
erected around the model, which is enclosed by an 8-foot wall 
and plastic sheeting. Project activities in the Russell 
basement rotunda are expected to take 6 to 8 weeks, and the 
model is scheduled to be fully installed in the CVC by mid-
October.
    As of July 2nd, there were approximately 4,200 open items 
on our main punchlist. In May, 26 change orders were settled, 
and in June, 28 were settled.

                           PLAZA PAVER UPDATE

    With regard to the plaza paver issue we discussed last 
month, we are continuing to review the matter in detail, but 
based on what we have learned, we have developed an action plan 
to begin repairs. We will begin work on the plaza in stages 
this August, and plan to complete the repairs in November. We 
will continue to assess the issues of liability over the next 
several months; however, we believe we have sufficient funds in 
hand for these repairs.

                        CVC OPENING PREPARATION

    In preparation for the CVC's opening, in the Exhibition 
Hall audiovisual technicians continue testing monitors, 
interactive stations, and sound systems, as well as making 
adjustments to the lighting components. In addition, the six 
Capitol Square models have been installed, as well as most of 
the additional exhibit graphics.
    Our Capitol Superintendent's Office is also continuing to 
hold relocation coordination meetings with future occupants to 
coordinate the delivery and installation of furniture to office 
suites. A preliminary schedule has been developed which 
incorporates the input and feedback from various offices that 
will be relocating to the CVC.
    Madam Chair, as always, we appreciate the continued support 
of this subcommittee and the Congress as we work to ready the 
CVC for the public later this year. That concludes my 
statement, and I would be happy to answer any questions you may 
have.
    Ms. Wasserman Schultz. Thank you very much.
    [Mr. Ayers' prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315D.001
    
    [GRAPHIC] [TIFF OMITTED] T2315D.002
    
    [GRAPHIC] [TIFF OMITTED] T2315D.003
    
    [GRAPHIC] [TIFF OMITTED] T2315D.004
    
    Ms. Wasserman Schultz. Mr. Dorn.

                    Opening Statement--Terrell Dorn

    Mr. Dorn. Thank you, Madam Chair, Mr. Latham, members of 
the subcommittee. My status update this evening is somewhat 
routine, and I will keep it brief in order to provide more time 
for questions.

                          CONSTRUCTION UPDATE

    The project's estimate of $621 million and its scheduled 
availability for opening remain unchanged. Fire alarm testing 
is continuing to go well, and I still expect it could finish 
slightly ahead of schedule. Construction necessary for a 
certificate of occupancy appears to be essentially complete and 
able to support the transition operations once the Fire Marshal 
gives his approval to begin occupancy. Punchlist operations are 
expected to continue for some months into the future, but are 
not expected to be overly disruptive.
    As I discussed at our last hearing, it is not unusual at 
this stage of a project for new tenants in a building to 
request changes to customize their space or for inspectors to 
find things that could have been done differently. My 
understanding is that since that time, AOC and OOC have worked 
collaboratively and reached agreement on all outstanding issues 
between them that need to be corrected prior to the CVC 
opening.
    As expected, other user-requested changes continue to come 
in as tenants visit their new spaces. AOC is trying to maintain 
the balance between making some needed changes now and pushing 
others off until construction is complete. None of the changes 
are significant; however, they can be a distraction from 
finishing the construction in hand.
    In summary, there are no new construction issues since the 
last hearing. Construction costs and schedule remain the same 
and will be able to support the CVC opening when needed. Thank 
you, ma'am.
    Ms. Wasserman Schultz. Thank you, Mr. Dorn.
    [Mr. Dorn's prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315D.005
    
    [GRAPHIC] [TIFF OMITTED] T2315D.006
    
    [GRAPHIC] [TIFF OMITTED] T2315D.007
    
    [GRAPHIC] [TIFF OMITTED] T2315D.008
    
    [GRAPHIC] [TIFF OMITTED] T2315D.009
    
    [GRAPHIC] [TIFF OMITTED] T2315D.010
    
    [GRAPHIC] [TIFF OMITTED] T2315D.011
    
    Ms. Wasserman Schultz. Ms. Rouse.

                    Opening Statement--Terrie Rouse

    Ms. Rouse. Madam Chair, Congressman Latham, members of the 
subcommittee, I am pleased to appear before you again with an 
update on the Capitol Visitor Center operations.

                     CONTINUING RESOLUTION CONCERNS

    At the last hearing, the subcommittee requested that the 
Architect of the Capitol submit a plan to operate the Capitol 
Visitor Center under a continuing resolution for the first half 
of the fiscal year. While it may be possible to open the 
Capitol Visitor Center under the constrained circumstances of a 
continuing resolution, you need to know what this means in 
practical terms.
    The most critical area of impact would be our inability to 
staff the Visitor Center to the level required to adequately 
serve the millions of visitors and constituents who are 
expected to come to the Capitol.
    The Capitol Visitor Center is a complex operation that 
requires many properly trained people to operate smoothly. With 
limited funds, we will be challenged to have sufficient visitor 
assistants to direct people to the new entrance to the Capitol, 
to manage the visitor flow to the Visitor Center, as well as 
people within the CVC to operate the operations theaters, the 
Capitol Building, and to quickly and efficiently do gift shop 
sales, all of which is designed to make the visitor experience 
run effortlessly.
    Visitation to the U.S. Capitol has increased in recent 
years. More and more families and student groups are visiting 
our hallowed halls. With the opening of the Visitor Center, we 
can expect visitation to increase by as much as 40 percent in 
the first year. This is typical for any new facility.

                 CVC FIRST IMPRESSIONS--TRANSPORTATION

    The Capitol Visitor Center was designed to maximize public 
access to the U.S. Capitol while enhancing the experience for 
the millions of people who come to walk its historic corridors. 
We only have one chance to make a first impression once we open 
the Visitor Center, and we want to make sure everyone's first 
impression of the Capitol Visitor Center is memorable.
    At the last hearing we talked about transportation. In 
June, we facilitated a meeting among the House and Senate 
Sergeants at Arms, the U.S. Capitol Police, and several 
transportation consultants to discuss visitor approaches to the 
Capitol. During the peak tourist season, 60 percent of visitors 
arrive at the Capitol by charter bus, which means they are 
dropped off at the West Front. Twenty-five percent of visitors 
walk to the Capitol from sites on the National Mall, so they 
too arrive at the Capitol via the West Front.
    Here are some of the options we discussed. One possibility 
is a tram that would make a looping route on the surface 
streets that surround the Capitol, including Constitution, 
Independence Avenues, and First Street. Another option is a 
smaller vehicle, similar to the shuttle that the Guide Service 
uses now, which would travel on the paths within the green 
bollards encircling the Capitol grounds. The option we have 
looked at in this category could run on either gas or 
electricity, so we have the potential for energy efficiency as 
we now have with the current shuttles.

                          TRANSPORTATION PLAN

    On the larger scale, officials at the District Department 
of Transportation, DDOT, estimate it would cost approximately 
$3.5 million for the Capitol Visitor Center to procure and run 
its own fleet of buses that would traverse routes from Union 
Station and possibly around the Capitol Building. The cost to 
lease buses would be around $1.5 million.
    As you know, when construction of the Visitor Center, as 
well as the security concerns after September 11th, 
necessitated that larger buses drop off passengers on the West 
Front of the Capitol, a solution was developed to assist 
mobility-impaired visitors to get up the Hill. Currently, a 
fleet of five shuttles, operated by the Guide Service, provide 
assistance to visitors to the Capitol who have mobility 
difficulties. The Guide Service can accommodate wheelchair 
users from any point of origin within the green bollards.
    According to the Guide Service, these five shuttles are 
ready to be replaced. However, funds for the replacement have 
not been included in fiscal year 2008 or fiscal year 2009 
budget requests. Nevertheless, maintaining the current system 
is an option for managing the situation for the near term.
    Any new transportation plan must be vetted and approved by 
the Police Board, a board, as you know, which is made up of the 
Sergeant at Arms from the House and the Senate, the Architect 
of the Capitol, and the Chief of the Capitol Police, who serves 
as an ex officio member.
    From an operational perspective, our tasks will always be 
to provide constituents with clear and concise information 
about how they can approach the Capitol Visitors Center and the 
historic Capitol Building.

                              CVC STAFFING

    Madam Chair, we have much to do with very little time. We 
look forward to the final passage of the legislation that 
establishes our Visitor Services organization, which provides 
the management and administration of the Capitol Visitor 
Center. The Capitol Visitor Center is a multi-faceted operation 
that depends on people trained, and that brings us back to my 
first and most critical point. Our plan was to have on board 
more than 100 Visitor Assistants by September 15th, who would 
join approximately 75 guides and the required management. We 
are currently hiring to meet this goal, but we will adjust our 
plans accordingly to meet the authorized and appropriate levels 
in light of the potential fiscal year 2009 continuing 
resolution.
    The United States Capitol Visitor Center staff is striving 
to reach the goals Congress mandated with the design and 
building of a 580,000-square-foot expansion, the key objective 
being to manage visitor flow and to provide visitors with 
improved amenities, enhanced safety, and overall to improve the 
experience at the Capitol.
    Thank you again for this opportunity to update the 
subcommittee on our activities. I am happy to answer any 
questions.
    Ms. Wasserman Schultz. Thank you, Ms. Rouse.
    [Ms. Rouse's prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315D.012
    
    [GRAPHIC] [TIFF OMITTED] T2315D.013
    
    [GRAPHIC] [TIFF OMITTED] T2315D.014
    
    [GRAPHIC] [TIFF OMITTED] T2315D.015
    
    [GRAPHIC] [TIFF OMITTED] T2315D.016
    
    [GRAPHIC] [TIFF OMITTED] T2315D.017
    
    Ms. Wasserman Schultz. Chief Morse.

                     Opening Statement--Chief Morse

    Chief Morse. Good evening, Madam Chair, Congressman Latham, 
members of the committee.
    The U.S. Capitol Police continues to work closely with the 
Architect of the Capitol, the Capitol Police Board, and other 
stakeholders on the final steps to prepare the Capitol Visitor 
Center for occupancy and operation. Based upon the proposed 
concept of operations, the Department has developed 
operational, emergency response, and evacuation plans for our 
role in supporting this effort. We are prepared to evolve these 
plans to meet changes in the CVC concept of operations.
    The plans have several objectives. One is to move guests 
and visitors as quickly as possible through our screening 
process; to provide an immediate and appropriate response to 
any event which may occur within the facility; to provide 
maximum support, protection, and response for Members and their 
staffs while they are conducting business and meeting with 
constituents within the Visitor Center; and to use state-of-
the-art technology and practices to maximize through-put of 
visitors, and efficiently utilize police staffing for proper 
security and law enforcement coverage within the CVC.

                    EMERGENCY PREPAREDNESS TRAINING

    Additionally, the Department is conducting initial training 
on emergency procedures and evacuation plans for the CVC. We 
believe that the overall sworn training program provided to the 
Capitol Police sworn personnel addresses crowd control under 
various operational situations. We also believe that this 
training and its operational application provide our personnel 
with the resources necessary to address increased pedestrian 
traffic resulting from the operation of the CVC.

                    ENFORCEMENT OPERATIONS TRAINING

    We are finalizing a CVC law enforcement operations training 
plan, which will allow the sworn personnel assigned to the CVC 
to familiarize themselves with the many facets of the facility, 
as well as the expanded uses for the CVC itself, so they may 
provide the same professional law enforcement capabilities 
realized in other buildings within the Capitol Complex.
    I have submitted written testimony for the record, and at 
this time I would be happy to answer any questions you may 
have.
    Ms. Wasserman Schultz. Thank you, Chief Morse.
    [Chief Morse's prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315D.018
    
    [GRAPHIC] [TIFF OMITTED] T2315D.019
    
    [GRAPHIC] [TIFF OMITTED] T2315D.020
    
    [GRAPHIC] [TIFF OMITTED] T2315D.021
    
    [GRAPHIC] [TIFF OMITTED] T2315D.022
    
    [GRAPHIC] [TIFF OMITTED] T2315D.023
    
    Ms. Wasserman Schultz. Mr. Eveleth.

                    Opening Statement--Peter Eveleth

    Mr. Eveleth. Good evening, Madam Chair, Mr. Latham, and 
members of the subcommittee. I am pleased to be here to report 
on the actions taken by the Office of Compliance to ensure that 
when the Capitol Visitor Center opens it will be safe, as well 
as fully accessible to individuals with disabilities.

                       CVC PRE-INSPECTION PROCESS

    There are two points I would like to emphasize. First, 
since we began our preinspections in February, we have worked 
very closely with the CVC construction management to assure 
that health and safety hazards and barriers to accessibility 
are identified and promptly corrected so that this grand 
facility can be opened fully compliant and on schedule. In 
coming weeks, after the Architect has implemented corrective 
measures to fix the hazards that we have identified, our 
inspectors will confirm that they are fully and properly 
abated.
    The final phase of our inspections will begin in August, 
once the CVC staff and contractors have moved into the 
facility. This phase will involve operational aspects of the 
CVC such as emergency action plans, training on fire safety 
devices, and so forth. We anticipate that this inspection will 
be completed in October. From the assurances we have received 
from the AOC, we expect that the hazards identified to date 
will be timely abated; accordingly, they should not delay the 
opening of the CVC.
    Second, I want to assure you that in conducting our 
inspections we have followed OSHA and other well-recognized 
national consensus safety standards, as well as equal access 
requirements of the ADA. These are the same standards that this 
office applies during its biennial inspections of all 
legislative branch facilities.

         OFFICE OF COMPLIANCE AND THE AOC--WORKING RELATIONSHIP

    Throughout our preinspections we worked collaboratively 
with Bernie Ungar and others from the AOC in bringing this 
project to conclusion. Together, we have developed and carried 
out an agreed-upon inspection schedule, and on at least a dozen 
different occasions our inspectors have been in the CVC 
conducting a thorough wall-to-wall inspection.
    AOC and CVC officials and contractors accompanied our 
inspectors on their inspections. As the chart attached to my 
written testimony shows, our inspection has included, among 
other items, fire alarm testing protocols, stair handrails, 
wheelchair ramps, electrical devices, testing for radon, and 
various ADA requirements.
    As to the second point, our staff has been careful to limit 
inspections to hazardous conditions that contravene recognized 
OSHA and ADA regulations. You will note from the chart that for 
each safety hazard found, the applicable safety standard is 
indicated. In nearly every instance, the AOC has agreed with 
our assessment.
    We do not nitpick. If we conclude that a condition does not 
violate the law, we do not require that it be fixed. That said, 
if during an inspection our inspectors should come across a 
condition that in their experience is likely to become a 
hazard, we would be obliged to so advise the AOC and perhaps 
make appropriate recommendations to obviate that potential 
danger. But once again, and I want to repeat, we would not 
require that these recommendations be adopted.
    As the chart also reflects, nearly every one of the 115 
types of hazards identified has been or is slated to be abated 
by the AOC. I would stress that it is the responsibility, of 
course, of the Architect to determine how a hazard identified 
by our office will be abated. It is our role to assure that 
whatever corrective measure the Architect selects, that measure 
must fully abate the hazard.

                       UNRESOLVED PENDING ISSUES

    The few issues still to be resolved during this 
preinspection principally involve the accommodation of 
individuals with disabilities. Most pressing is the need to 
assure safe and prompt evacuation of such persons from the CVC 
in the event of an emergency. In considering these issues, we 
have consulted with the AOC, the Fire Marshal, the Capitol 
Police, as well as the Department of Justice, and the 
Architectural and Transportation Barriers Compliance Board, who 
have provided us with useful advice.
    The resolution of emergency egress issues will likely 
depend in significant part on the emergency action plans 
currently being developed by the CVC Emergency Preparedness 
team. We look forward to working together with the team and CVC 
management in reviewing those plans. Our office and the CVC 
management share a common objective, that of assuring that 
adequate measures to protect individuals with disabilities are 
in place and in advance of the scheduled opening of the CVC.

                        PRE-INSPECTIONS--ONGOING

    In sum, our inspections are ongoing and on schedule. Nearly 
all hazards have been or are planned to be abated. Only a 
handful of issues require further discussion, and we are 
confident that our discussions will yield positive results as 
we go forward.
    I recently had the opportunity to tour the CVC again with 
our Board when our Board of Directors was in town. It is an 
extraordinary facility. As I report to you this evening, I am 
proud of the contributions that our office has been able to 
make toward achieving our shared objective here, that the CVC 
be a safe and healthful facility, fully accessible to disabled 
individuals and one that is ready to open on time.
    In closing, I want to commend the AOC, especially Bernie 
Ungar and those working with him, for their extraordinary 
cooperation and efforts throughout this inspection. We look 
forward to continue to work closely with them until this 
process has successfully completed.
    I am happy to answer any questions you may have.
    Ms. Wasserman Schultz. Thank you, Mr. Eveleth. And by the 
way, congratulations on your reappointment by the OOC Board.
    Mr. Eveleth. Thank you.
    Ms. Wasserman Schultz. You are doing fine work.
    [Mr. Eveleth's prepared statement follows:]

    [GRAPHIC] [TIFF OMITTED] T2315D.024
    
    [GRAPHIC] [TIFF OMITTED] T2315D.025
    
    [GRAPHIC] [TIFF OMITTED] T2315D.026
    
    [GRAPHIC] [TIFF OMITTED] T2315D.027
    
    [GRAPHIC] [TIFF OMITTED] T2315D.028
    
    [GRAPHIC] [TIFF OMITTED] T2315D.029
    
    [GRAPHIC] [TIFF OMITTED] T2315D.030
    
    [GRAPHIC] [TIFF OMITTED] T2315D.031
    
    [GRAPHIC] [TIFF OMITTED] T2315D.032
    
    [GRAPHIC] [TIFF OMITTED] T2315D.033
    
    [GRAPHIC] [TIFF OMITTED] T2315D.034
    
    [GRAPHIC] [TIFF OMITTED] T2315D.035
    
    [GRAPHIC] [TIFF OMITTED] T2315D.036
    
    [GRAPHIC] [TIFF OMITTED] T2315D.037
    
                        BUS TRANSPORTATION PLAN

    Ms. Wasserman Schultz. I want to start my questions on the 
bus transportation plan, because I think there is a universal 
concern in this committee about what those plans are and a 
tremendous amount of angst that I know I have as far as the 
drop-off points, the distance that our constituents will have 
to walk, the uncertainty that still seems to exist, and your 
progress on the potential alternative options.
    During the public witness hearing that we had, the tour 
association came and testified and made a suggestion to us 
about prescreening buses, dropping off luggage and other items 
that are in the belly of the buses at the hotels prior to 
coming to the CVC, which would speed screening once they get to 
a drop-off point. So I have a question for both you, Ms. Rouse, 
and you, Chief Morse.
    Ms. Rouse, I had a chance to meet with you in my office, 
and I know Mr. Latham did as well, to be briefed on the 
progress on the busing plan. There are three things I really 
want to focus on, because I am concerned that we are all over 
the place when it comes to how we are going to proceed.

                            DROP-OFF POINTS

    Right now, from the conversation that we had, my 
understanding is that the main drop-off point for the CVC 
visitor will be the West Front. Is that correct?
    Ms. Rouse. That is correct, yes.
    Ms. Wasserman Schultz. Okay. And that is the main drop-off 
point right now for the Capitol and you have some sort of 
rickety shuttles or golf carts that you use now to bring the 
disabled up and around to the East Front. Will the West Front, 
with the influx of additional visitors, be able to accommodate 
all the visitors as far as being a primary drop-off point?
    Also, how are you planning to use Union Station? Because 
before our conversation--I am not sure Mr. Latham was in the 
same place--I was left with a very different impression at the 
other hearing, when we spoke about the bus plan with you, on 
what your plans were for Union Station. Because it certainly 
sounded at that hearing like you were using Union Station as a 
primary drop-off point, and our conversation led me to believe 
that that is not the case.
    The other issue, the issue you alluded to in your remarks, 
is how you plan to deal with people who aren't disabled that 
may have trouble getting up the hill, that are dropped off at 
the West Front.
    And then the distance between Union Station and the CVC.
    I just asked all my questions up front, and you can feel 
free to answer them all.
    Ms. Rouse. Jump right in, okay.
    We did--after we had our discussion last week, we went and 
did a little bit more homework on the golf carts that we 
currently have and getting proper equipment. And we were able 
to secure sort of an estimate that to get a golf cart that is 
not really a golf cart, but it is a vehicle that has the 
ability to accommodate wheelchairs and people who have some 
mobility----

                     TRANSPORTATION DIFFERENTIATION

    Ms. Wasserman Schultz. Golf cart is sort of an open-air 
kind of thing. Do you mean a tram? Do you mean like a shuttle?
    Ms. Rouse. In between the golf cart and the tram there is 
another vehicle that looks more like a golf cart, but is not 
quite a tram. It is still a plug-in and it is still electrical.
    So we were able to get an estimate for that that ranged 
from a basic model at $9,000 to about $17,000 for one that has, 
you know, a windshield and some way to protect people on the 
side----
    Ms. Wasserman Schultz. How many people do those hold?
    Ms. Rouse. I think it is about 20 people per vehicle. We 
did know that typically we can run two to four of those during 
the course of a day, and that would meet the need. With 
increased attendance anticipated, if we had up to six of them, 
then the Visitor Assistants could run them as needed.
    Now, the way it typically works, we will hopefully have 
more Visitor Assistants on the grounds, if someone gets off the 
bus or someone comes to the West Front and says, ``I am not 
able to walk around the corner'' and they are not in a 
wheelchair, we can accommodate them. Having more vehicles will 
allow us to do that.
    As it is now, people who are mobility challenged are the 
ones who get first choice. We should be able to accommodate a 
few other people. Will we be able to accommodate large numbers? 
No. But we will be able to increase the number of people coming 
through.
    That was the result of that exercise.
    Ms. Wasserman Schultz. At the next hearing can you bring 
examples, visual examples of the types of vehicles you are 
talking about?
    Ms. Rouse. Yes, ma'am.
    The way we were going to use Union Station; what we 
discovered in our conversation was sort of a misunderstanding, 
shall we say. Union Station was a discussion piece that we were 
using because of our involvement with DDOT on how the whole 
community is going to respond to this influx of people coming 
to the Capitol Visitor Center. So we knew of the N22 bus, we 
knew of the Circulator bus, and we knew there was some interest 
on the part of some of the bus companies to use the docking 
ports at Union Station. So we put that forward as an option 
that we could describe to bus companies and to visitors that 
they could get off at Union Station and come down if they 
wanted to, or they could be dropped off at the West Front, go 
park at Union Station and then their various visitors would 
know where they are.
    We have since even had a further discussion. So if the bus 
companies wanted to use Union Station to park, and they wanted 
to have their guests come down on a bus, it would cost them 35 
cents if they were already on Metro; if not, it is $1. It is an 
option that is there for them if they are going to do that, so 
it is not mandatory.
    We are asking people to continue what they have been doing, 
to drop them off on the West Front.
    So that is that array of questions. I do not know if I 
caught them all.

                          VISITOR TRAFFIC FLOW

    Ms. Wasserman Schultz. My time is very expired, but just 
the last piece of it was whether the West Front could handle 
the increase in visitors.
    Ms. Rouse. I believe from discussions with the Capitol 
Police just on a tentative level, I think it can manage the 
number of buses coming in and out.
    But I think what has happened today, in further 
conversations, I think we will be able to provide more 
information to our colleagues with the Capitol Police to let 
them know how many buses are going to be arriving on a given 
day, because that information will be wrapped up into our 
Advance Reservation Systems. So they will pose questions to us, 
and we will report back to them and make sure that we are well 
coordinated on what we are anticipating the bus flow to be into 
the West Front.
    Starting this month, we are actually testing with the Guide 
Service the Advance Reservation System, so we can begin to get 
an understanding of how it is going to operate and begin to see 
which fields of information we will be able to grab and utilize 
for their purposes. It also may have shed some light on any 
security concerns that we might have as well.
    So I think it has engaged us in a more active conversation 
with the Capitol Police.
    Ms. Wasserman Schultz. Okay.
    I will come back to you, Chief Morse, on my next round.
    Mr. Latham.
    Mr. Latham. Thank you, Madam Chair. I think we are both 
still frustrated somewhat. What we would like to see, 
obviously, is a system where we could get people up to the door 
and not have the total meltdown I think we are looking at.

        U.S. CAPITOL POLICE OPERATIONAL CONCEPTS--BUS SCREENING

    Chief, you noted in your statement you are continuing to 
work with the Architect and D.C. Transportation on efficient 
transport of people to the CVC. You also note that you 
developed two operational concepts for screening buses, and you 
are reviewing your needs associated with those plans.
    Can you tell us today--if you have found an efficient way 
of screening the buses so that they could actually go up and 
drop the passengers on the east side?
    Chief Morse. We are currently working with--at the 
direction of the Capitol Police Board, along with the AOC--on 
four options that are inclusive of location and the type of 
screening required, the technology required, the FTE, and any 
costing associated with that, or risk or impact to the selected 
screening site. And we hope to have that prepared by July 21st 
for their review.
    Mr. Latham. July----
    Chief Morse. July 21st for their review.
    Mr. Latham. Okay. I think we need to note what comes out of 
that at the time also.

                    GOLF CARTS--VISITOR FACILITATION

    As far as the carts are concerned, it is still of great 
concern to me to think about people getting off down there, in 
big numbers, to be able to facilitate all those people. Ms. 
Rouse, are there any other options out there yet, or is what 
you gave us in our hearing, is that----
    Ms. Rouse. I think the options that we gave you are the 
ones that we currently have. There are seven variations on that 
theme.
    Mr. Latham. Are you working with the Chief, at all, as far 
as different options?
    Ms. Rouse. Yes, we are working with him. They have sat with 
us through all of our hearings, actually. So we are all pretty 
much gathering the same type of information and bringing forth 
issues as they arise.
    Mr. Latham. With all the carts, where are you going to 
store those when they are in off-hours, and where are they 
going to be plugged in? Or is this going to look like a cart 
parking lot out here?
    Ms. Rouse. I will let Mr. Ayers take that one.
    Mr. Ayers. I think we would store those in one of the 
parking garages, either the Russell underground garage or the 
Rayburn parking garage.
    Mr. Latham. Your option of putting them on the street, how 
safe is that? Is that a major concern to the Chief in having 
open-air vehicles running around on the streets with the 
traffic?
    Chief Morse. The proposed routes that we have talked about 
are within the protected perimeter of the complex itself, and 
are not, I believe--the types of carts they are speaking to 
right now would not be vehicles that would be on the street.
    Mr. Latham. That is one option, though.
    Chief Morse. I believe that is an option--one of the 
options, yes.
    Mr. Latham. Twenty-six?

                        WEST FRONT BUSING OPTION

    Mr. Ayers. For clarity, there is an option, I am not sure 
we have talked about it here today yet, but there is an option 
of unloading buses on the West Front, loading people into 
trams, and driving those trams around Capitol Square, which is 
First Street, up Constitution, back south on First Street on 
the east side, drop people off on the front of the Visitor 
Center entrance on the east side, and then back down 
Constitution and turn right on First Street and make that 
clockwise loop all day long traveling in that fashion.
    So that is one of the options that is on the table as well.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2315E.024
    
    Mr. Latham. Okay. I think that is it for now. Go ahead. 
Thanks.
    Ms. Wasserman Schultz. Mr. Ruppersberger? He is gone.
    Mr. Honda.

              EMERGENCY PROCEDURES--ANTICIPATED LOGISTICS

    Mr. Honda. Thank you, Madam Chair.
    First of all, I have some questions that I have written 
out, and I want to transmit to your staff prior to the July 
10th meeting regarding July 10th's theme of emergency 
procedures and everything else like that. I want to, in 
anticipation of that meeting, let you know that we will be 
sharing the questions to all of you; and hopefully, there will 
be some responses on the July 10th meeting.
    I guess I just share the same sentiments as the other 
members. I guess one basic question, being new and everything 
with the whole issue of parking and traffic and the access of 
charter buses and other buses, storage of the shuttles or golf 
carts, whatever you want to call them, were all these issues 
anticipated a few years ago in the planning of CVC? It is just 
a question I have in my mind.
    Mr. Ayers. Well, certainly as the CVC was designed, it was 
originally designed to drop people off on the East Front of the 
Capitol. So those transportation issues and trams were never on 
the table several years ago, because it was not an issue at 
that point.
    Mr. Honda. How was it not an issue?
    Mr. Ayers. It only became an issue when the Capitol Police 
Board directed that buses, unscreened buses not be allowed on 
Capitol Square.
    And that was implemented a year ago, Chief?
    Chief Morse. Yes, December, I believe.
    Mr. Ayers. Approximately a year ago. So since then----
    Mr. Honda. And this project was initiated after 2001? Or 
was it prior to 2001?
    Mr. Ayers. It was prior to 2001.
    Mr. Honda. And so from 2001 to last year, it took all this 
time for this concern to come to surface?

                       DEPARTMENTAL COMMUNICATION

    I guess the thing I am concerned most about is our 
cooperation between the different departments and agencies and 
that we do not compartmentalize ourselves so much that we are 
not, you know, working on the same things, same project in 
cooperation with each other so that we can, you know, 
anticipate that.
    It seems like one of the main functions of the Architect's 
Office is to think of all these things and bring them all 
together. Not putting it on yourself, Mr. Ayers, but just in 
the process. Hopefully, the things we are doing today are 
incorporating that process or that cooperation so that we 
have--you know, we avoid a lot of these questions and have the 
responses, reports given to us in the context of, you know, 
working with each other and anticipating these kinds of 
situations.
    Thank you, Madam Chair.
    Ms. Wasserman Schultz. Thank, Mr. Honda.
    Mr. LaHood.

                   VACATED STREETS AND BUS SCREENINGS

    Mr. LaHood. Given the fact that the street, or the street 
between Russell and Dirksen is vacated, and the street that 
runs along the Library of Congress and Cannon is vacated, have 
you given any thought to vacating the rest of the street? 
Screening buses maybe between--having the buses pull between 
Russell and Dirksen, screen them there, and then have them pull 
up on a vacated street, which would basically be in front of 
the Supreme Court, Library of Congress, drop people off there 
and then proceed on?
    Have you thought about the idea of vacating the rest of 
that street, using the vacated streets as screening, and then 
having the buses pull up and drop people off?
    Chief Morse. There are certain risks and impacts to 
allowing buses that close to the Capitol complex without them 
being screened. The recommendations that we are going to 
provide, the various four options, have consideration for the 
risks or impacts related to the complex itself for allowing 
proximity with regards to any large vehicle, including buses. 
So the recommendations consider all the risks to the complex, 
the buildings, and other government buildings and neighborhoods 
around the complex itself.
    So we have considered all those factors in determining what 
is the best location to provide----
    Mr. LaHood. Have you considered vacating the street in 
front of the Visitor Center?
    Chief Morse. For screening?
    Mr. LaHood. For anything. For dropping people off so that 
you could----
    Chief Morse. Yes.
    Mr. LaHood [continuing]. A number of buses could pull up 
there, drop people off, and you could keep traffic moving.
    Chief Morse. Yes, absolutely.
    The original--I guess the original design, and as you can 
visually see, are large cut-out areas for vehicles and buses 
for both drop-off and pick-up on First Street on the west 
curbside. But since the restriction has taken place, then that 
is just left to be for any vehicles that are either screened or 
currently authorized to drop off and pick up.

                         CLOSED SESSION REQUEST

    Mr. LaHood. Well, I will just put it this way. If cabs can 
come as close to the Capitol as they can in front of Longworth 
and Cannon and Rayburn--now I know a cab is not as big as a 
bus, but you could pack as much explosives, if that is what you 
are worried about, in a cab as you could in a bus, and there is 
no screening of those vehicles.
    Chief Morse. If I could have a closed session with you, I 
could present to you materials that would be able to answer 
your question.
    Mr. LaHood. I understand.
    Ms. Wasserman Schultz. Would the gentleman yield?
    Mr. LaHood. Yes.
    Ms. Wasserman Schultz. We have a closed session with the 
Chief on Thursday morning. So if you want to come prepared on 
Thursday morning to answer those kinds of questions as well. I 
know that session is----
    Mr. LaHood. The truth is--the truth is that you really have 
not figured out a very good plan for people to get into the 
Visitor Center. Is that accurate?
    Whoever wants to answer it.
    Mr. Ayers. I am happy to do that.
    I think the plan that we have developed is the best with 
what we have before us. The best plan, of course, is to drop 
them off right at the front door.
    Mr. LaHood. That goes to my point about vacating the street 
and figuring out a way to screen the buses--maybe screen them 
down below if you can't screen them on top--vacate the street 
and drop them off there. You would not have to have any carts 
for handicapped people. They could get off of the bus and walk 
into the entrance.
    Look it, this is a patchwork plan that simply is not going 
to work. There is nobody at this dais that believes that what 
you have done--and look it, I am not being--but this is a 
patchwork of an old system, old vehicles, old way of doing 
things.

            VISITOR TRAFFIC--ALTERNATIVE CREATIVE SOLUTIONS

    Now we have a new Visitor Center, $700 million. You need to 
figure out a new way, a different way, a creative way of 
dropping people off rather than trying to patchwork a whole 
bunch of things together. There is nobody here that believes 
that this is going to work. I am not even sure you believe it, 
because it is not finalized, number one. And it is a patchwork 
of some old means of transportation and, you know, trying to 
come up with some different ideas.
    You know, it is going to be mass chaos. It is. And I just 
think you need to have a much better plan.
    Let me just ask one other question, Chief; and that is, if 
you had to vacate the Visitor Center because of an emergency, 
what mechanisms are in place to do that? Say you have several 
hundred people there, including Members of Congress and 
visitors, what is going to happen if you need to evacuate 
immediately the way that you have needed to evacuate Longworth 
or Cannon or the Capitol?
    Chief Morse. It certainly depends on the situation.
    Mr. LaHood. I will give you an example.
    Chief Morse. Okay.

                       ANNUNCIATOR NOTIFICATIONS

    Mr. LaHood. When the annunciators go off in our offices and 
people are streaming out of the Longworth Building, everyone 
assumes there is some kind of an emergency. If that same 
situation occurred at the Visitor Center, how would people 
begin to stream out and how would they know that they needed to 
get out of the Visitor Center?
    Chief Morse. Well, if the evacuation is ordered, then, in 
fact, you would hear the alarm sounding and the lights 
flashing, and the building would be evacuated through the 
various exit points. And they would be evacuated within the 
secure perimeter to designated assembly areas. With the pre-
alarm system that we have in the Capitol Visitor Center as well 
as the Capitol, it gives us the opportunity to assess a threat 
first before we were to evacuate people out into an unknown 
threat.
    So we also have plans to be able to lock down, defend the 
building or the complex, as well as shelter in place. So we 
have plans for all those various situations, and we planned 
accordingly, with the fire system itself, in order to ensure 
the safety of the people in the complex as well as outside.

                       CVC EMERGENCY PREPAREDNESS

    Mr. LaHood. One of the reasons, if I have more time here--
one of the reasons that the evacuation system works, at least 
in the office buildings, is because people in these offices 
have been trained, they know where to go, they know the 
designated areas where they are to go. There is an annunciator 
that tells them to get out.
    And what I want to know is, how are common, ordinary 
citizens who come to visit the Capitol to have any idea where 
to go, where to gather, where to congregate? And are there 
annunciators that will announce to people that they need to get 
out of the building?
    Chief Morse. First, it is the same protocol that we have in 
the office buildings and the Capitol Building that would be 
used to make notification to the people inside, as well as 
direction of the police officers and the staff who works there 
that we are preparing to train. So with the assistance of 
staff, as well as police officers, the current technology, the 
protocols that we have in place that have worked for so long, 
we feel that we have a good plan for evacuation of the building 
in the same manner that we do other buildings currently on the 
Capitol complex.
    Ms. Rouse. I would like to add that training in emergency 
preparedness is a key factor of what we are doing with all the 
CVC staff on our ability to deal with our visitors in our 
space, as well as anyone who might have been on the House side 
or the Senate side of the expansion. It is ongoing training; it 
is constantly reinforced training. In addition, we will begin 
doing drills, actually, as we go into the temporary certificate 
and permanent certificate of occupancy periods to start this 
whole process.
    So it is a key interest and concern of ours that everyone 
is constantly trained, and that we are able to have people 
respond, which includes not only people doing the staff-led 
tours; that part of their training with us will be how to 
respond under emergency preparedness. If it is some time to 
listen to the Capitol Police officer or to listen to the 
Visitor Assistant or to listen to the guide, that is going to 
be a key part of our reinforcement.
    Ms. Wasserman Schultz. The gentleman's time has expired. 
Thank you.
    Ms. Lee.
    Ms. Lee. Thank you, Madam Chair. Good evening.

                          TRANSPORTATION FEES

    Let me ask you, Ms. Rouse, for an update on the 
transportation plan as it relates to charging any type of cost 
to visitors and how that is sort of evolving. I know you have 
several options that you are considering. And I would just like 
to know where we are on that.
    Ms. Rouse. We did get a little update from the Department 
of Transportation. For someone who might be coming via the 
Metro or via the bus, they will be able to transfer to the 
Circulator bus next year for 35 cents. So if a family comes and 
they have used their pass, it only would cost them 35 cents to 
transfer onto the Circulator. If they are coming from Union 
Station and if that is an option they would like to have.
    If they are coming on a bus, they can get off actually very 
near the front of the CVC. If they are coming from Capitol 
South, they are just coming up two blocks.
    So we did go back to DDOT and got that sort of suggestion. 
We have also planted the suggestion for the bus operators that 
if they were using Union Station that they could provide some 
sort of pass for their visitors, for their clients, who happen 
to be getting off there if they took that option so they would 
not have to pay anything at all if they took that.
    But DDOT's clarifying on the 35 cents really made a big 
difference.
    Ms. Lee. Thank you very much.
    Ms. Wasserman Schultz. Mr. Bonner.
    Mr. Bonner. Thank you, Madam Chair. I apologize that I had 
another meeting that I had to attend. And by coming in late, it 
seems to me that the focus of this is on transportation.
    Is that the only topic that we are limited to?
    Ms. Wasserman Schultz. No, you are not limited at all. This 
is a CVC oversight hearing.

                   CVC WELCOME--HISTORICAL DOCUMENTS

    Mr. Bonner. Okay. Well, first of all, I want to apologize 
because I have not had a chance to brief the chairwoman or my 
ranking member about this question. So I am not trying to catch 
anyone off guard, but I would like to focus with our Architect 
here, since we are anticipating an opening of the CVC before 
long.
    I was struck a few days ago, when our Nation celebrated our 
4th of July, around the country many new American citizens took 
the oath of office and proudly proclaimed their joy at finally 
becoming American citizens after many long years along that 
pathway. And in most, if not all, of those ceremonies there was 
also a very solemn moment where these new citizens said the 
Pledge of Allegiance.
    And so I was wondering, if you could tell me--if you could 
switch gears from transportation, because I wholeheartedly 
agree with the chairwoman on her efforts to make entrance into 
the new CVC as accessible as possible; but could you tell me if 
there is going to be an opportunity for the Pledge of 
Allegiance, the Declaration of Independence, the words, In God 
We Trust, things that represent the very essence of what these 
newfound citizens have just worked so hard to become and many 
are excited about now that they are citizens, is that going to 
be part of the welcome as they come into the building?
    Mr. Ayers. Well, certainly many of those things you 
mentioned, Congressman, are in the Exhibition Hall. For 
example, the Pledge of Allegiance in the epilogue section, 
which is the final section of the Wall of Aspirations in the 
contemporary section, there we show an exhibit of the original 
Congressional Record, as well as the Congressional Record for 
the opening day of that particular Congress.
    The Congressional Record will be opened to the opening day 
of the 110th Congress, where the opening prayer of the session 
is said, as well as the Pledge of Allegiance is said. So it is 
there as part of that exhibit, certainly (the Pledge of 
Allegiance).
    In terms of the Declaration of Independence, we do have a 
lithograph of the Declaration of Independence. In fact, there 
are two copies of that in Statuary Hall now. We have a copy 
just like the ones you will see in Statuary Hall in one of the 
exhibits on the Wall of Aspirations as well.
    Mr. Bonner. What size would they be?
    Mr. Ayers. 18 by 30 according to our expert staff.
    Mr. Bonner. What about the words, In God We Trust? Because 
they are in the House Chamber where the Speaker presides, they 
are in the Senate Chamber. But unless you have passes, once you 
get into the Capitol to see that, those are the only two places 
that I am aware of with the motto, In God We Trust. Is that 
going to be embossed anywhere in the wall as you enter the CVC?
    Mr. Ayers. I am not aware that it is embossed anywhere or 
part of a specific exhibit. But certainly if you look at the 
orientation film, as well as many of the exhibits themselves, 
or the House and Senate virtual theaters, which feature those 
specific bodies, there are camera shots and views of the 
Chamber, so certainly you will see those words above the 
Speaker's rostrum throughout the exhibit somewhere. But I am 
not aware of a specific focus of that.
    Mr. Bonner. Well, with your permission, Madam Chair, I 
would like to work with you and the ranking member and see if 
it would be appropriate to at a different time ask some 
additional questions to see if that is possible for--I think 
most Americans would think it would be fundamental that the 
Declaration of Independence, for instance, be--I mean we have 
got the Magna Carta in the rotunda, but we do not really have a 
prominent display, unless you go to the National Archives, of 
the Declaration or the Constitution, that I am aware of, in the 
Capitol; and I think those are pretty fundamental documents.
    But could I reserve the right to get with you at a later 
time and see if we could agree on some type of instruction to 
the Architect?
    Ms. Wasserman Schultz. I would be more than happy to talk 
to you about it with the caution I have a fundamental belief 
that we are not museum curators, we are Members of Congress, 
and I am very hesitant to go down the road of dictating what 
should or should not be displayed in a facility of this type.
    Mr. Bonner. Okay.
    Ms. Wasserman Schultz. But I would be happy to talk with 
you about it.
    Mr. Bonner. Thank you.

                      CONSTITUENT BUSING CONCERNS

    Ms. Wasserman Schultz. Thank you.
    I guess we have come back to me. Okay, good. I really am in 
full agreement with--and I think I can comfortably speak for 
Mr. Latham, as well--patchwork, wax, spit, and tape. I mean, 
those are the things that come to mind when I hear the plans, 
if you can even describe them as plans, for the busing of 
constituents to the CVC; and I am really uncomfortable with the 
direction that this has gone.
    Let me just boil it down. We have the West Front as the 
primary drop-off, a potential for the East Front with an 
examination of that possibility as far as prescreening buses.
    We have Union Station which, while not a primary drop-off 
point, could be used to park buses, but could also be used to 
drop people off, and they can take a Circulator bus, which they 
will probably get charged something for, but we have not 
confirmed what they would be charged exactly. Or they would be 
walking a pretty good distance from Union Station to the 
entrance to the CVC, and we have shuttles for people who might 
have difficulty all the way from the disabled young children or 
frail elderly that might have trouble getting up the hill and 
around from the West Front.
    That is just too complicated, too confusing, and too much 
potential for chaos.
    And so we have some homework for you, Chief, that I will 
describe later. And it sounds like, most of it, you are already 
working on anyway.
    I wish it were funny. It is like this whole thing is really 
getting comical to the point of sadness.

                         SCREENING ALTERNATIVES

    Why can't we prescreen the buses--have them drop off their 
luggage and other things that are in the belly of the bus and 
prescreen them and let them drop off at the East Front? I know 
you do not want them dropped off at the entrance with stuff in 
them, and I can completely understand that.
    But where are we on that possibility?
    Chief Morse. If the direction is to screen buses or large--
you know, large vehicles that may have business at the CVC, 
then we are preparing a plan to present to the Capitol Police 
Board that would provide them options to do that and that would 
have to be a decision----
    Ms. Wasserman Schultz. Right.
    Chief Morse. Made on that issue.
    Ms. Wasserman Schultz. Let me ask you a question. I 
understand you will implement whatever it is that you are 
directed to implement. But could you reach a comfort level to 
where your recommendation would change? Right now you have 
recommended that we shouldn't drop off at the entrance to the 
CVC for safety reasons. But do you think there is a plan that 
could be developed that would give you a comfort level without 
being directed?
    Chief Morse. My comfort level is only with large vehicles 
that are unscreened.
    Ms. Wasserman Schultz. Discomfort.
    Chief Morse. Yes. I want vehicles of that size to be 
screened before they come in close proximity to the complex 
itself.

                    SCREENING AND SECURITY OBSTACLES

    Ms. Wasserman Schultz. And what are the obstacles in the 
path of prescreening buses so that we can get you to that 
comfort level?
    Chief Morse. Well, there are security--some security 
obstacles and then there are logistical obstacles that I don't 
have as much to do with the logistics of it as I do the 
security part of it. With security, we have to obviously find a 
location that is optimum for us and the safety of people and 
other buildings in the area to do a screening process. And then 
the second obstacle, which is easily overcome, is acquiring the 
assets and resources to do that. So when it comes to safety----
    Ms. Wasserman Schultz. Do you have a general estimate on 
how much you think it would cost to implement that type of 
security screening?
    Chief Morse. I will July 21st.

            OFFICE OF COMPLIANCE INSPECTIONS AND OPEN ISSUES

    Ms. Wasserman Schultz. I knew you were going to say that. 
Okay. That is fine. In my remaining second, I want to go past 
the transportation issue. The issue of OOC inspections, 
although it has not been a major complaint, Mr. Eveleth, our 
reason for having you here today is there has been the concern 
expressed by the AOC, confirmed by GAO, that there are items 
that OOC in your inspection process are asking the AOC to 
accomplish in the CVC that are not required by code or by 
ordinance or by law and that essentially--I know you defended 
yourself in your statement and said you are not nitpicking, but 
I think essentially boiled down to, in their estimation, 
nitpicking, and that added up together cumulatively could cause 
a slowdown of the process. I realize that those last 6 items 
that were remaining have now been resolved. Those were code or 
legal requirements, but where are we in terms of the number of 
issues that are raised by the OOC that amount to it was your 
term, that amount to nitpicking, but that are not required? 
Maybe that is not a question for Mr. Eveleth. Maybe that is for 
you, Mr. Ungar.
    Mr. Ungar. Madam Chair, right now, at least from our 
perspective--I think Mr. Eveleth agrees with this--we don't 
have any open issues with respect to the specific inspection 
items that are on the chart that accompany Mr. Eveleth's 
testimony. The open issues that we do have really relate to the 
completion of the evacuation plan that would be used in the 
event of emergency, particularly mobility impaired individuals. 
The Office of Compliance is concerned or interested to make 
sure that we have adequate capability in the facility to handle 
that. Since the plan is not complete yet, we don't know exactly 
all the details on what is going to be required. So there is an 
open item that once this plan is completed, there will probably 
be some construction-related changes that we will be needing to 
make. Of course the Office of Compliance will want us to make 
those. But at this point, we don't know exactly what they are 
going to be, so it is an open item.

         OFFICE OF COMPLIANCE RECOMMENDATIONS VS. REQUIREMENTS

    Ms. Wasserman Schultz. Mr. Dorn, you raised an issue at the 
last hearing. Can you describe what you meant and whether you 
think that issue has been addressed?
    Mr. Dorn. My understanding from talking to Mr. Ungar is the 
issue that I was describing at the last hearing has been 
addressed, and I noted that in my statement this evening. The 
specific ones that were brought up to me had to do with 
handrails and stairwells and things like that, and my 
understanding is that they worked that out. Mr. Eveleth and I 
have had a long conversation about that. My understanding from 
talking to him is his inspectors thought they were making 
recommendations or suggestions, but they were taken as 
requirements. And that is just a caution that we discussed, and 
I think it is all worked out at this point.
    Ms. Wasserman Schultz. Okay.

              PENDING OFFICE OF COMPLIANCE RECOMMENDATIONS

    Mr. Eveleth. If I may. As the chart indicates, it is 
submitted with my testimony and this is agreed to by the 
Architect of the Capitol, there are only two or three items at 
most that are considered to be recommendations by our office. 
And as I said during my testimony, there will be situations 
that will arise where we see a potential problem arising and 
we--in that case, it had to do with a hole in the floor where 
there was a sump pump and how do you get down to the sump pump, 
we have to take a ladder. The concern was if there is water 
down there and you are using a metal ladder and you hit the 
sump pump, you could have an electrical hazard. That area had 
flooded in the past. So they were foreseeing the possibility, 
although there wasn't a hazard at that moment, but if you 
manage to affix the ladder to the side of the wall, you 
wouldn't be jamming a motor and cause that kind of a problem. 
So that was more of a suggestion and the AOC said that is a 
good suggestion. So it was that kind of issue that we were 
talking about.
    The issues that are being talked about here having to do 
with accessibility and egress are most serious questions and 
they are--and the AOC recognizes that--the issues involving the 
ability of disabled--people with disabilities to exit the 
facility in the event of a hazard, are indeed hazards. So the 
question is how do you resolve those particular hazards. So I 
think this has sort of grown out of proportion in fact when 
you--when you sit down and they question these few things.
    Ms. Wasserman Schultz. Well, that is why we have oversight 
hearings, because it rose to enough of a proportion that it was 
raised by both the Architect and the GAO in the CVC oversight 
hearing. So it led me to believe that we needed to bring you 
here so you could talk about it and it clearly led to a 
resolution of the problem.
    Mr. Eveleth. I clearly agree it is certainly a legitimate 
question of inquiry, area of inquiry. And I just wanted to make 
clear of the 100 and some type of hazards that we found, there 
were very few that were ever in dispute in terms of whether 
they constituted a hazard or not.
    Ms. Wasserman Schultz. I think our only concern, Mr. 
Eveleth, is that we not have issues raised that are not 
required that can still be addressed and should be addressed 
because safety comes first, but do not slow down the process to 
such a degree that we are not able to keep the project on 
schedule. And my time has long since expired. Mr. Latham.
    Mr. Latham. Thank you. Ms. Rouse, just to go back a second 
on the transportation proposals that you put forth. It is my 
understanding that for any of those proposals you would need 
about a 4-month lead time to get initiated?
    Ms. Rouse. To buy new equipment, yes.

                                TRAINING

    Mr. Latham. So right now we are past the time basically. I 
am not sure the new ideas will even be able to be implemented 
by the time the CVC opens up. Your opening statement noted a 
potential for a CR and what the ramifications would be on your 
staffing. Do you know the level of resources--you would need to 
make things continue to run smoothly when the fiscal year 
ends--runs out in September. You are going to be straddling two 
different fiscal years here before the CVC opens. How does that 
impact the staffing concerns that you have put forth? I am 
concerned about training, Mr. LaHood talked about the safety 
issue of getting the visitors out of the building and I don't 
know if you are going to have time to have proper training for 
those individuals or whether you are going to have enough money 
to even hire that many individuals.
    Ms. Rouse. The training, I believe, was covered in the 
fiscal year 2008 budget. So I think we will be okay as far as 
training is concerned. What our key issue is going to be are 
salaries for people who are currently under the guide service 
at the moment.
    Mr. Latham. On October 1st, you are going to quit training?

                   CVC OPERATIONS STRATEGY--UNDER CR

    Ms. Rouse. We are putting the training in place now; we 
will begin training the middle of September. So I think that 
will be in the process. It is the salary concern on the 
operation side, things that are currently in the AOC budget, I 
believe we have a strategy to cover those individuals.
    Mr. Latham. What is the strategy? Are you going to cut 
other things?
    Ms. Rouse. We will cut other things, yes.
    Mr. Latham. Like what?
    Ms. Rouse. We will reduce some of our programming, some of 
our other aspects of what we are doing we will just tailor that 
down and part of the markup that was done actually did that 
exercise for us. So that was a good component. We may also have 
to borrow, depending upon the length of the CR money from the 
CVC construction project funds. So I think we have a solution 
on that side. At this moment, the majority of the staffing sits 
on the Senate side under the Capitol Guide Service, and that is 
where our concern is at the moment because that is the majority 
of the staffing which will come after the legislation is done, 
but until that point, we know we are going to have a problem 
there. We are beginning to work that issue with our 
appropriators and we have highlighted the issue to our 
oversight committees and the AOC's staff, as well as our staff, 
are trying to identify all the concerns and that is where that 
is.

                            CVC PAVER COSTS

    Mr. Latham. Okay. I am almost to the point where I think we 
should work very hard to try to get some exception on the CR to 
direct some funding in that particular case. On another note, 
Mr. Dorn, one thing that bothers me, I guess, on the pavers, 
why is it so hard to figure out who is responsible and how much 
this repair or this replacement is going to cost? Do we know 
that?
    Mr. Dorn. As far as the responsibility, GAO, in particular, 
has been careful not to weigh in one way or the other just 
because it would affect any sort of litigation maybe upcoming. 
I suspect that the Architect in these hearings is the same way 
but could probably have a private discussion with you about it. 
As far as the cost goes, we included in our estimate more or 
less $5 million or so in the $621 million. So it is already 
included in that. My understanding from Mr. Ungar is that they 
are under that amount at this point, partly because they are 
not going to do the whole plaza, just the places where the 
vehicles are going to go.
    Mr. Latham. Do you want to speak to that Mr. Ungar, where 
are you, how much?
    Mr. Ungar. Yes, sir. I would prefer not to give the 
specific amount because we are still in the process of an open 
procurement but it would be less than $4 million at this point 
for the plan that we have in place, which would basically, as 
Mr. Dorn said, replace the portions of the plaza that are 
expected to receive routine vehicular traffic.
    Mr. Latham. Are we going to be able to drive out on that?
    Mr. Ungar. That is not our call, but the current practice 
is that cars do come in and drop off, under the porticos on 
each side and there are certain vehicles that will go a little 
bit further into the plaza. But in terms of what the policy 
will be that is certainly up to Congress.
    Mr. Latham. We suggest that whoever makes that suggestion 
should note that right now we have vehicles parked on the 
sidewalks when we have votes in the evening like this, so it is 
almost a hazard out there with the lack of room for any kind of 
organized parking out there. Thank you, Madam Chairman.
    Ms. Wasserman Schultz. You are welcome. Mr. Honda.

                         CVC OVERSIGHT CONCERNS

    Mr. Honda. Thank you. I guess the comment I just want to 
share is that the term patchwork and everything else that we 
are frustrated with, what I have understood is that we have to 
put that in the context of the history of the project, the 
involvement of this committee over the past few years or the 
not involvement. So a lot of it has been due to a lack of 
oversight, and now we are trying to catch up at the last yard 
before we hit the goal line. That seems to be the context that 
I try to keep in mind. That this is what happened. Then the 
concern happening in the last year or so after 4 or 5 years 
since 9-11, that is a great concern that speaks to the lack of 
integrating ourselves in the planning of the process. Have you 
said that, though? We are still responsible for the work--and I 
think this is why the Chair of this committee is concerned 
about continuing the oversight and asking these questions.
    So I just wanted to preface my comments and my question.

                    VACATING STREETS--BUS SCREENING

    But the question that was asked about vacating streets and 
figuring out how we are going to screen these buses, I think we 
understand that there is a need for that. Have you looked at 
technology as being employed currently as pilot projects at 
places like El Paso, where they have to screen thousands of 
trucks, semis? Have you looked at ports where they have to take 
containers off ships thousands at a time over a short period of 
time using current technology that would look for everything 
from drugs to explosives based upon their chemical composition 
and other things, contraband and technology that is being used 
at airports where they are looking at large containers, have 
those been part of your planning where they have portable 
technology that can be placed in certain areas and you just 
pass the vehicle through it in a matter of minutes it is done?
    Chief Morse. Yes, we have. We have looked at those and I 
believe at the previous hearing that was mentioned and that was 
the purpose of our review. Our security services bureau has 
looked at that as a possibility--and it certainly is a 
possibility. But it also creates other logistical situations 
for picking a location that is optimum to that type of 
screening, because the level of X-ray that is used for that 
would require us to offload passengers and certainly place them 
in a facility or cover----
    Mr. Honda. I understand that. I understand it is a matter 
of planning and sequencing and thinking it through so perhaps 
the answers can be provided after you have done some more 
thinking and research on the logistics of the procedures. Thank 
you, Madam Chair.
    Ms. Wasserman Schultz. Thank you, Mr. Honda.

                     WHITE HOUSE SCREENING PROCESS

    Mr. LaHood. Just about every day that I am here, I meet 
people at the White House so that they can have a White House 
tour. Nobody that I know of does better screening of large, 
small, intermediate vehicles than the White House. And what 
they do, they have these dogs that scan or screen the large 
vehicles, sometimes it is a garbage truck, sometimes it is a 
mail truck, sometimes it is my car. And then you are allowed to 
pull your vehicle onto the White House grounds. People are 
instructed not to bring anything except identification. Look, I 
don't want to micromanage this, but I want to suggest this. 
First of all, you tell the buses, you can't bring any luggage. 
You can bring people and that is it. Gather down below, have 
the dogs screen the buses, drive them up on top so that whether 
you are handicapped or able-bodied, you are within walking 
distance of the entrance to the Visitor Center and then at 
someplace find a place to stage those buses so that wherever 
people are going to exit--and look it, this system works pretty 
well.

                      POSTPONEMENT OF CVC OPENING

    Now, they have vacated some streets over there. But I go 
back to what I said before. I think there is a way to do this 
that is not a patchwork of old and new. And can be done in a 
very easy way and a very convenient way and so I hope that you 
will give some consideration. I want to make this suggestion, 
Madam Chair, and that is if we do pass a CR, that we postpone 
or suspend the opening of the Visitor Center. It is also a 
patchwork, what they are trying to do here, hiring people, 
training people, training people how to evacuate the Visitor 
Center with no fire drills.
    One of the things that works around here is the evacuation 
of buildings, particularly office buildings because there have 
been enough fire drills and enough practice sessions that when 
they have to do it, it works very well. And you are trying to 
hire people and train people to not only give people an 
opportunity to see the Visitor Center, but in the case of an 
emergency--and if we don't have the money to hire these people 
and we don't have the money to train these people, I would say 
that we need to tell the leadership of the House if there is 
one bill that needs to pass, it needs to be the legislative 
branch so that we can open the Visitor Center and they have the 
resources, and if that is not going to please what, then I say 
suspend the opening of the Visitor Center until we have the 
right people that are well trained and in place so that we 
don't have the public with nowhere to go or how to go and we 
don't have the transportation to get them here. Thank you.
    Ms. Wasserman Schultz. Thank you, Mr. LaHood. Ms. Lee.

                           PAVER REPLACEMENT

    Ms. Lee. On a more mundane subject, let me ask you about 
the pavers on the east front. In terms of the plan to repair 
those pavers and how much it is going to cost and who is paying 
for it and just kind of give us an update on that.
    Mr. Ungar. Ms. Lee, at this point, as I indicated, our plan 
is to replace those pavers that are basically in the course of 
where the vehicle traffic has been experienced over the last 
year as we have witnessed day to day. A large part of that area 
is on top of the CVC, not on land. It has experienced some of 
the most problems in terms of movement of the pavers, chipping, 
cracking, and so forth. So our plan is essentially to replace 
those pavers, replace the setting bed that those pavers sit on 
with a much more substantive setting bed that will withstand, 
you know, the more frequent vehicular traffic. For the 
remaining part of the plaza, basically west of the skylights 
which is not subject as much to routine traffic, we will repair 
the pavers that are damaged there. Our general time frame to do 
that is that we hope to start right after the congressional 
recess begins in August and replace those sections that are 
closest to the Capitol, which would most interfere with 
congressional operation if Congress were in session, get that 
worked on while Congress is on recess and then do the rest of 
the portion of the plaza in a section-by-section manner so that 
it would not be disruptive to congressional operations.

                          PAVER COST ESTIMATES

    Ms. Lee. And how much is this going to cost and who is 
paying for it?
    Mr. Ungar. Well, again, I would prefer not to publicly 
discuss the cost because it is an open procurement. In terms of 
who is going to pay for it--in order to get the work done 
quickly, the CVC project is going to pay for it initially. At 
the same time, we are going through a fairly extensive process 
to determine responsibility. But that is fairly complicated and 
there are a lot of factors involved and it probably will take 
us several months, at minimum, to resolve that. So in the 
meantime, we are going to go ahead and pay for it while that 
process is underway.
    Ms. Lee. Let me just ask you about the procurement. You are 
in the process. Have you issued an RFP or IFP? Where are you?
    Mr. Ungar. Our plan is to have our Sequence 2 construction 
contractor go ahead and do the replacement and repair work. One 
of the major issues that we have is that if we bring somebody 
else in, they could affect our current contractor's 
responsibility for what is there now. So we don't want to 
further complicate the issue that we have with the situation.
    Ms. Lee. Is this an add-on, then?
    Mr. Ungar. It would be a modification to the contract, yes.
    Ms. Lee. Okay. I got you. Thank you very much.
    Ms. Wasserman Schultz. Thank you, Ms. Lee. Mr. Bonner.

                      MEMBER TOURS--CVC GOVERNANCE

    Mr. Bonner. Thank you, Madam Chair. Mr. Ayers, do you know 
roughly how many members have taken a preview tour of the CVC?
    Mr. Ayers. Approximately 200.
    Mr. Bonner. 200. And was that 200, how many within the last 
6 months?
    Mr. Ayers. 60. 70.
    Mr. Bonner. The reason I ask is to follow up on my first 
line of questioning. I am the newest member of this 
subcommittee, and I will be the first to acknowledge that I 
probably have missed out on a lot of the painful testimony and 
hard questions and sometimes difficult answers that have come 
over the years to get us to this point where we are all 
excited. But I go back to Ms. Rouse's written statement. We 
only have one chance to make a first impression once we open 
the Visitor Center. And we all agree with that, whether it is 
the Chief or the Architect or whomever is involved.
    We have talked so much about pavers, we have talked about 
handrails, we have talked about tiles, we have talked about 
light bulbs and all of these things. And at the same time the 
first impression once they come in is going to be what they 
see. Is it House Administration, is it the Speaker, the 
minority leader? Who exactly in your mind, Mr. Ayers, has 
responsibility for governance of what people will see once they 
get inside the building in terms of the display, in terms of 
the room assignments and naming of the rooms and things like 
that? Is there one authority that you would refer to?
    Mr. Ayers. Well, in terms of the design of the building and 
what is in the building and how that was all developed, all of 
that was done under the purview of the Capitol Preservation 
Commission.
    Mr. Bonner. And are they in the same category as the White 
House Historical Society? I know Mr. LaHood mentioned the 
numerous trips he takes to the White House, takes constituents 
to the White House. When I do that, I am always quick to say it 
is not up to the President and the First Lady to decide to 
paint the green room blue, that that decision is made by 
somebody else. Is this board given the responsibility to make 
the decisions like the displays and like some of the other 
issues that have been raised previously? Is that who a Member 
of Congress would have to go to to find out--oh, we have a new 
member.
    Mr. Ayers. Well, the Capitol Preservation Commission is 
made up of Members. So it is a bipartisan, bicameral group of 
Members that come together to make those decisions. So the 
process by which we went through to determine what is in the 
Exhibition Hall is a group of 12 or 14 historians and curators 
that came together, both the House and Senate historian and 
curators, and the architects. We brought in subject matter 
experts from the Archives and the Library of Congress and the 
Smithsonian to come together to put together what you may see 
in those exhibits. At each significant step along the way, it 
was presented to the Capitol Preservation Commission and 
ultimately approved by the members of the Capitol Preservation 
Commission.
    Mr. Bonner. Okay. Well, I think it is important because if 
60 members--if 200 members have been through at various stages, 
I have been through a couple of times--I think we all want to 
make certain that when the doors do open and the American 
people and the people of the world have a chance to walk in 
this beautiful new building that we all are able to answer the 
very basic question that we will probably be asked of our 
constituents who in the world decided to put that green carpet 
against that purple wall or something to that effect? I agree 
with the Chairwoman, it is not our place perhaps to decide that 
it should be green or purple, but I do think when you ask 
fundamental questions like that, we need to know who is the one 
giving you all the authority and the direction to do that? 
Thank you, Madam Chair.

               FUNDING REALIGNMENT OF CONSTRUCTION FUNDS

    Ms. Wasserman Schultz. Thank you, Mr. Bonner. And I do 
think it is important to note that all of those decisions were 
made prior to the 2006 election, just for the record. Just so 
we know who it is that made the decisions on content. Just very 
briefly, Ms. Rouse, you alluded to your belief that you could 
move money from the construction fund to the operations of the 
CVC, and I am not sure that you legally can do that. So if you 
have not checked with your general counsel and GAO whether----
    Mr. Dorn. We agree that is not--beyond $8.5 million, that 
is not possible.
    Ms. Wasserman Schultz. That was a response to our homework 
from the last time. That is not something I think is an option 
for you. So I think you need to go back to the drawing board in 
terms of your potential choices for how to operate the CVC.
    Ms. Rouse. I think it was borrowing a certain amount.

                         CHAIR CLOSING REMARKS

    Ms. Wasserman Schultz. My understanding is that is not 
okay. So a trip to the drawing board would be necessary. That 
having been said, I think we have reached the point where we 
can conclude this hearing. I do want to go over some homework 
with you, Chief. You reference the four concepts for operating 
the security screening of buses and so we are obviously very 
interested in trying to make this a smooth and seamless process 
for visitors. With that in mind, I know you were making that 
presentation to the Capitol Police Board on the 21st.
    If you can provide us with a report on those concepts as 
well as soon as you have it, make sure that we have that when 
the Capitol Police Board has it so that we can continue the 
open lines of communication that we have now reestablished. And 
if you aren't already including it in that report to them, if 
you could explain how each concept would work if implemented, 
the pros and cons of each and a rough estimate of the cost and 
resource requirements associated with those concepts.
    I have it written down for you so you don't have to speed-
write. So with that I appreciate the members' accommodation and 
all of the staff. I know you gave up a personal evening to help 
make sure that we can continue the oversight of the Capitol 
Visitor Center. I am really pleased that we are still on track, 
that after this hearing when we come back for the next hearing, 
the CVC, knock wood, will have a temporary certificate of 
occupancy and that we will continue to be on track. And I 
really do want to congratulate all of the CVC staff for the 
hard work and really wonderful accomplishments thus far. And 
with that, I want to introduce my daughter Rebecca, who is 
going to close the hearing and the subcommittee stands in 
recess subject to the call of the Chair.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2315D.038
    
                                     Wednesday, September 24, 2008.

                         CAPITOL VISITOR CENTER

                               WITNESSES

STEPHEN AYERS, ACTING ARCHITECT OF THE CAPITOL
BERNARD UNGAR, CVC PROJECT EXECUTIVE
TERRIE S. ROUSE, CEO, VISITOR SERVICES FOR THE CVC, ARCHITECT OF THE 
    CAPITOL
PHILLIP MORSE, SR., CHIEF OF POLICE, U.S. CAPITOL POLICE
BILL LIVINGOOD, HOUSE SERGEANT AT ARMS
DREW WILLISON, DEPUTY SENATE SERGEANT AT ARMS
TERRELL DORN, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, GOVERNMENT 
    ACCOUNTABILITY OFFICE

                        Chair's Opening Remarks

    Ms. Wasserman Schultz. Good morning. I would like to call 
the meeting of the Legislative Branch Subcommittee of the House 
Committee on Appropriations to order. This is the 13th and 
final oversight hearing on the CVC project. We are going to do 
the Evelyn Wood version of this hearing because the CR is on 
the floor at 11:45, and our rules don't allow us to be in 
committee while our bill is on the floor. So I want to thank 
Mr. Latham for his indulgence.
    And we are going to dispense with the opening statements of 
the panelists because we will enter those for the record so 
that we can get through the questions that the members have and 
clear up any last-minute concerns and smooth the edges on this 
project.
    Just briefly, when this subcommittee was reconstituted at 
the beginning of the 110th Congress, the first thing that we 
did was hold an oversight hearing on the CVC project. We wanted 
to show that there was aggressive oversight and that the 
Legislative Branch Subcommittee was back. We inherited a 
project that was plagued by massive budget creep and never 
ending delays. The CVC had joined that sad pantheon of projects 
with the title ``boondoggle.'' And you can contrast that with 
where we are today.

                       PROJECT COST AND SCHEDULE

    Since September 2007, we have had no increase in the 
project's cost and no slippage in its schedule. And that didn't 
happen by accident. A large amount of the credit goes to our 
very own acting Architect of the Capitol Stephen Ayers. Bernie 
Ungar did a yeoman's job at pulling things together, along with 
the hardworking staff at the Architect of the Capitol's Office. 
So really everybody pulled together incredibly well and worked 
hard to get this project back on track in the last 2 years.
    Also a share of the credit belongs to you, Terry. You 
really helped us keep things on track and gave us good advice 
all the way through the process. So you and GAO deserve a great 
amount of credit. And I really want to thank my subcommittee 
members, my ranking member, Mr. Latham, and Mr. Wamp before 
you, and Ms. Lee and all of the other members of the 
subcommittee, because often this was not the top of everybody's 
list in terms of priorities on our schedule. But making sure 
that we safeguard the taxpayers' money was incredibly important 
and providing accountability to this project was as well.

                       Chuck Turner's Retirement

    Before I continue, I do want to take a point of personal 
privilege before we begin the hearing and take a moment to 
recognize a true champion of this institution and the agencies 
that serve it, Chuck Turner. Chuck has been here for more than 
30 years, more than 30 years of Federal service including more 
than two decades with the Legislative Branch Subcommittee for 
both the House and the Senate side, and he is retiring at the 
end of this week.
    Chuck is absolutely the finest example of a public servant 
that we have in this institution. And I can tell you that he 
looked very skeptically at this rookie appropriator who 
suddenly was the Chair of the Legislative Branch Subcommittee 
and thought, oh, my God, what am I going to have to deal with. 
Although he never said that--he was incredibly professional and 
helped guide me in the beginning when I knew very little and 
helped me get up to speed as quickly as possible. And really he 
is one of the most respected and knowledgeable staffers that we 
have on Capitol Hill. He has worked tirelessly for hours upon 
hours.
    This isn't the sexiest subcommittee in the Capitol, and the 
intricacies and knowledge that you have to have are incredibly 
important to make sure that we can take care of all the workers 
and the visitors and the people who come to this institution 
every single day. Really, he is irreplaceable.
    And we are going to miss you. And like I said, please make 
sure that you connect your phone as soon as you get to where 
you are going. Thank you so much. You have been a joy to work 
with. And congratulations on a well-deserved, well-earned 
retirement.
    Mr. Latham.
    Mr. Latham. Thank you, Madam Chairman. And I shared your 
skepticism. No.
    Welcome, panel. And this is the last hearing?
    Ms. Wasserman Schultz. The last one. That is the plan.
    Mr. Latham. I, too, would just like to express my best 
wishes to Chuck in his upcoming retirement, and to let him know 
that I, along with a lot of other members and staffers, really 
hate to see him go. He has been a great asset to this 
subcommittee, to the full committee, and to the House of 
Representatives, and he will be sorely missed. The thing that 
has always struck me most about Chuck is being in the mold of 
the old-school type of appropriation staffers; that is, he is a 
nonpartisan professional staffer who has always provided 
straightforward advice in a factual and nonpartisan fashion. 
And your service to this institution for 30 years has been a 
credit to us all here and certainly to yourself. His focus has 
always been on the mission of the committee of getting the 
appropriation bills passed for the good of the order and the 
institution of the House itself.
    He has well understood the importance of this subcommittee 
to the mission of the House as a critical part of the 
legislative branch. The loss of a staffer like Chuck is no 
small occurrence because his departure means a loss of 
institutional knowledge and institutional know-how. As a member 
of the Appropriations Committee, I know how important that 
knowledge is, and it has been very valued by all of us.
    Chuck, for the House and the committee, I hate to see you 
go. But for you, I am glad that you have an opportunity to open 
another chapter in your life, and good luck to you and the best 
for good health and future happiness. And we will all come out 
to Las Vegas and visit you. We expect a nice bedroom.
    Ms. Wasserman Schultz. A stack of chips!
    Mr. Latham. And tell us which is the best casino. 
Congratulations and good luck. Thank you.
    Ms. Wasserman Schultz. Do you have anything?
    Mr. Turner. All I can say is it has been a great pleasure 
for all these years, and it has been a great pleasure working 
with you and Mr. Latham. And thank God this CVC is almost 
finished.

                  WITNESSES' STATEMENTS FOR THE RECORD

    Ms. Wasserman Schultz. With that, I will briefly introduce 
today's witnesses. It is the usual cast of characters. Stephen 
Ayers is the Acting Architect of the Capitol; Bernie Ungar, CVC 
project executive; Terry Dorn, director of Physical 
Infrastructure Issues at GAO; Terrie Rouse, CEO for Visitor 
Services for the CVC; Phillip Morse, Chief of the U.S. Capitol 
Police; and Bill Livingood, the House Sergeant-at-Arms. And we 
will have a closed portion of the hearing where we will have 
other panelists as well.
    As I said, the witnesses' prepared statements have been 
received and they will be inserted into the record. And I 
actually want to spend about 10 minutes, if that is okay with 
you, Mr. Latham, on the open portion of this hearing. We have a 
couple of questions that we need to get answered, and then we 
are going to close the hearing because we need to deal with the 
transportation issue as it relates to security questions that 
can't be dealt with in public. So if we can just start the 
timer.

                        TRANSPORTATION CONCERNS

    I want to go over some of the transportation issues that we 
can cover in public, and those include some confusion on what 
is going on with West Front drop-off. This is probably directed 
to the Chief and Ms. Rouse. My understanding is that the 
current plan for tours is for buses to drop off and pick up 
visitors at the West Front like they do now, for cart service 
to be implemented so that people who need transportation, for 
whatever reason, up the hill around to the front of the CVC can 
get it, and that what is pending is a decision by the Police 
Board about screening the tour buses and where they would be 
screened and dropping visitors off at the main CVC entrance. Is 
that correct?
    Ms. Rouse. That is correct.
    Ms. Wasserman Schultz. Just so we are clear, what part of 
the transportation plan do you have responsibility for, Ms. 
Rouse?
    Ms. Rouse. Good morning. The part that the CVC team has 
responsibility for is our recommendation to buy new shuttles, 
six of them will carry people from the drop-off point to the 
front of the CVC. Our responsibility would also include making 
sure that anybody who needs the help to come around the 
building can get the help. We have also discussed the path that 
would be taken and that the path would be a circular path 
around the building bringing people, if they needed the help, 
to get back to the drop-off point.
    So that is pretty much our responsibility. We will also 
post a way-finding staff member who would be there to assist 
people if they need it in terms of direction.
    Ms. Wasserman Schultz. And, Chief, what about you? What is 
your role in the process?
    Mr. Morse. With respect to screening of the buses, we would 
certainly facilitate that with our assets and resources. And we 
would make recommendations as to locations that screening could 
take place.

                         CART SERVICE UPGRADES

    Ms. Wasserman Schultz. Ms. Rouse, as far as the timing for 
the upgrading of the cart service, what is your plan for that? 
What is the timetable?
    Ms. Rouse. The timetable that we are working against is 
having these new carts, these shuttles, in place by March, the 
height of the tourist season with eighth graders and that sort. 
Then we would be able to examine and get a real opportunity to 
look at how that would work through the season, which would be 
sometime into August. We would implement and continue to do 
what we are doing to enhance that up until that point.
    Ms. Wasserman Schultz. And between now and then, or between 
December 2, which is the opening, and March, you are going to 
use what you have got now?
    Ms. Rouse. Exactly.
    Ms. Wasserman Schultz. And you have some carts to move 
people around. Right?
    Ms. Rouse. We have six carts to move people. We will try to 
put more of those in service. I anticipate during the holiday 
break there will be a lot more people around, so we will try to 
have as many carts in use then as possible.
    Ms. Wasserman Schultz. Great. And what is the timetable, 
Mr. Livingood? What is the timetable for the Capitol Hill 
Police Board to make a decision on the bus screening process?
    Mr. Livingood. Right now, the Chief's recommendations is 
that we continue as we are, West Front, and not do any 
screening right now. And we are doing just a study of the 
entire perimeter.

                       CVC OPERATIONS DURING A CR

    Ms. Wasserman Schultz. And I am going to ask you some 
questions in the closed portion of the hearing about that 
study.
    Let me ask you, Ms. Rouse, just to be clear. We have been 
working with you, and I know you have been focused on trying to 
put your plans in place for operations under a CR, which we are 
going to have since it is going to be on the floor in 30 
minutes. Where are you in terms of your process? And are you 
going to be capable of opening the CVC with the funding that 
will be provided by the CR?
    Ms. Rouse. And the negotiations have been going on between 
the appropriators staff and others. We have a plan that we are 
feeling comfortable with that we would be able to operate under 
a CR. It will mean tightening our belt in a number of areas and 
putting things off. But I think we have a fairly good 
collaborative relationship on that. Of course, we are hoping 
that the legislation also passes that gives us the authority to 
do what we have to do, because that does impact our ability to 
open the shops and the restaurants.

            CAPITOL HISTORICAL SOCIETY'S ROLE WITHIN THE CVC

    Ms. Wasserman Schultz. And then lastly, and I will turn it 
over to Mr. Latham. On the Capitol Hill Historical Society, we 
have had--this has been a soap opera, the never ending saga of 
the Capitol Historical Society and how are they going to be 
able to market their goods. What is the role of the Capitol 
Historical Society in the CVC? How have you decided to allow 
them to sell their merchandise? And are they going to have a 
kiosk?
    Ms. Rouse. The CVC team has been talking with the Senate 
Rules Committee and the Committee on House Administration, 
about having the Capitol Historical Society's merchandise 
highlighted within our gift shops. We would purchase some 
material from them, they would have their own prominence cards, 
they would have their own Web sites so people can see very 
prominently their material. We have had some very fruitful 
conversations around that. We also thought a lot about how this 
would impact them in terms of their nonprofit budget. Thinking 
clearly about this is a way to, not only fulfill their need, 
but satisfy their need, that goes with their mission.
    In this plan, there isn't the idea of them having a kiosk. 
That hasn't been part of our discussions with them. I must say, 
in our conversations with the Capitol Historical Society, they 
are very excited about the notion of us buying their 
merchandise, and have been working with our gift shop staff to 
facilitate that and also working with historians and curators 
for the review process.
    Ms. Wasserman Schultz. So that addresses their budget 
issue, which was that if they had no kiosk, then they weren't 
going to be able to sell merchandise. If you buy their 
merchandise up front, would you be basically able to buy what 
they have been selling?
    Ms. Rouse. I think we probably will surpass that.
    Ms. Wasserman Schultz. Fantastic. I know those negotiations 
will continue and I know that they are concerned. And what they 
are troubled about is that if they lose a kiosk, they lose 
their public face and it is hard to know that they exist. So 
hopefully we are going to be able to feature them prominently 
enough in the gift shop so that we can ensure that people know 
that they are around. They have been around since 1962. There 
is a lot of member investment in that society and family 
investment in that society. So I would hope that we are able to 
figure things out for them.
    Mr. Latham. And I don't have any more questions for the 
public portion of the hearing.
    Mr. Latham. Okay.

                     CART LOGISTICS--PICKUP ROUTES

    I just have a couple of questions, Ms. Rouse. On the plan 
that you propose, you have got the carts going up and down on 
the House side. Are you saying now that this is a loop and you 
are going to be picking up on the Senate side?
    Ms. Rouse. Yes. Having heard resounding dislike for that 
plan, it is now a loop around the building. Yes.
    Mr. Latham. So you will continue to pick up over on the 
Senate side. What do you anticipate, with regard to any 
problems during votes when the plaza is filled with members and 
security and----
    Ms. Rouse. For the parking?
    Mr. Latham. No. With your plan there, are they going to 
have to reroute the carts during votes?
    Ms. Rouse. I don't know. I think that is something that we 
will definitely find out in the test-and-adjust period. The 
Capitol Police Board is still reviewing the issue of the 
parking on the plaza, which has a little impact for us. But the 
path that we came up is a pedestrian path; it is not on the 
streets or the driveway. So we think we will be able to 
navigate accordingly. But we will know better as we get through 
the process.
    Mr. Latham. But you are aware that that pedestrian path 
goes right through where all the activity is during votes, and 
you have got cars parking in there and everything else.
    Ms. Rouse. We have had several conversations about that.

                              PAVER UPDATE

    Mr. Latham. Mr. Ayers, can you give us an update on what is 
going on with the pavers and who is paying for it, and is there 
anything new on that front?
    Mr. Ayers. Well, we have developed a paver schedule and 
implemented that a month and a half ago. We are on track with 
that schedule. So the actual work is progressing well.
    Mr. Latham. What is that date then?
    Mr. Ayers. The date we started that?
    Mr. Latham. No. Finishing.
    Mr. Ungar. We are shooting for mid November, about the 17th 
or 20th, somewhere in that period is what our target completion 
date is.
    Mr. Ayers. So that work is proceeding well. We are really 
not negotiating with the contractor yet on who is responsible 
for that. We will do that later on the job.
    Mr. Latham. And the cost is, what, $8 million?
    Mr. Ungar. No, sir. The current cost--the estimated cost 
right now to replace the pavers that we have set up for our 
stage one repair effort is about $2.5 million. A little bit 
more than that.

                             FENCE REMOVAL

    Mr. Latham. When do you anticipate the fences coming down?
    Mr. Ungar. We are working very closely with the Capitol 
Police to meet all its security requirements. We are hoping 
that we can start to take the fence down next week. That is our 
goal.
    Mr. Latham. Really?
    Mr. Ungar. Yeah. It is going to be coming down in sections, 
but we are keeping our fingers crossed.
    Mr. Latham. Okay.
    Mr. Ayers. If I can point out, just to manage expectations. 
When the wood fence comes down, a new fence goes up in its 
place that is a snow fence that is see through and low, and a 
chain link fence comes in on the interior portion of the plaza. 
Ultimately, all of those fences don't come down until just 
before the public opening in December.
    Mr. Latham. Okay. I think everything else is going to be 
for the closed session. Thank you.
    Ms. Wasserman Schultz. Ms. Lee.
    Ms. Lee. Thank you. Let me first thank you for your 
leadership this year and for this Congress, and also just say 
to you, I never thought we would see our final hearing on the 
CVC. So I have to thank all of you for really accomplishing 
this very, very exciting project, but also very challenging and 
very difficult. And to our Chair, we couldn't have done it 
without you. So thank you. And to Chuck, I have to just 
congratulate you on your retirement and thank you for your 
steadiness. I think so many of us are new on this subcommittee 
and we were really guided by your wisdom and your expertise. So 
we will definitely miss you. But enjoy this next chapter of 
your life.
    I wanted to just say last week, and this is really 
remarkable. Our staff organized, and some of you may not know 
what the tri-caucus is, but this is the Congressional Black 
Caucus, the Congressional Hispanic Caucus, and the 
Congressional Asian-Pacific American Caucus. So we organized a 
staff tour for last Friday for 3:00, and I believe over 60 
members of staff showed up for that tour, and they were quite 
excited and quite impressed.
    So I have to congratulate you, because, of course, if staff 
is excited and if there is a level of interest with our staff, 
what can we say? I think that is a very excellent barometer of 
the success in what you all have done, especially as it relates 
to the diversity issue and in terms of incorporating the 
diversity of our great country into the overall CVC.

                STAFF COMPOSITION AND DIVERSITY TRAINING

    So I just wanted to ask, and if you don't have this 
information you can just send it to us later. But in terms of 
an update of the diversity efforts and ethnic composition of 
your staff, Ms. Rouse, and also the diversity training that is 
being received and the aspects of the tour guide training, 
because a couple members of the staff asked about the focus on 
the history of slaves in terms of building of the Capitol, 
where that is. And really, I just want to make sure all of that 
is on track, because I want our staff to continue to be excited 
about this because if they are, then the public will be.
    Ms. Rouse. We will provide you all of that information on 
the training that we are doing and the breakdown of the staff 
demographics.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2315E.001
    
    [GRAPHIC] [TIFF OMITTED] T2315E.002
    
    Ms. Lee. Thank you very much. Thank you, Madam Chair.
    Ms. Wasserman Schultz. Mr. Lewis.

                            CVC PROGRESSION

    Mr. Lewis. Thank you very much, Madam Chairman. I wanted to 
come for a moment just to share with those who are here that 
this is the middle of my 30th year on the Appropriations 
Committee and specifically dealing with the legislative branch.
    Vic Fazio and I worked together for many, many of those 
years as he was chairman and I was his ranking member on the 
legislative branch subcommittee. Early on, he and I both had 
very, very serious reservations which we communicated in more 
than one way about a CVC. Really good and interesting idea, if 
you can ever get it done.
    I must say that as I watch this progress, it is a 
phenomenal addition to the Capitol. It will give us a great 
opportunity to introduce the public to their Congress in many a 
way. During all of that time, if we were going to have a CVC, I 
tried to convince David Obey that we ought to have a major room 
there for appropriations, a full committee room. I have not 
been successful to do that, but with Ms. Wasserman Schultz we 
may have one anyway.
    Having said that, during all those years it was my 
privilege to work with Chuck Turner, a very, very stable, 
solid, solid member of our staff. He is leaving, as I think you 
all know, at the end of October. Chuck has a home near downtown 
Las Vegas just far enough away from the strip that he won't 
lose all of his money there. But while many of you may not see 
much of Chuck after he leaves, except at his choosing, I 
probably will see more of him than he might imagine. Arlene and 
I have three grandchildren who live very near the home that he 
has purchased in Las Vegas. We visit them rather than the slot 
machines, and Chuck is one of my favorite people. 
Congratulations to you, Chuck, and thank you very much for your 
long service.
    Ms. Wasserman Schultz. Thank you very much.
    Mr. Bonner.
    Mr. Bonner. Thank you, Madam Chairman. You have covered 
some of the topics already about the drop-off and the traffic 
flow and the questions that were raised earlier about the 
Capitol Historical Society, I think, expressed the concerns 
that we all have. I just have got a couple quick questions for 
Mr. Ayers as well as a word of thanks and also a quick question 
for Mr. Livingood.

                            AOC APPRECIATION

    First of all, a word of thanks. You and your staff have 
been outstanding in responding to my office, so I know you have 
been responsive to every member not just of this committee but 
of the entire Congress in helping us understand what is going 
on at the CVC; and, as the gentlelady from California just 
mentioned, get excited about what is going on, so that when the 
grand opening occurs, we can all be proud of this moment.
    Thank you for your staff giving me and my staff a chance to 
go down just a few days ago. As you will recall, in July I 
raised this question before the committee about the words ``In 
God We Trust,'' and why they were not included in the original 
replica of the dais of the House Chamber in the exhibit area, 
knowing that is it is not a perfect replica but still thinking 
that the omission of the words made more of a statement than 
the fact that the words would have actually been included.
    So thanks for the work your office has done working with 
the Capitol Preservation Commission to put those words where 
they belong. And I am just wanting to make sure on the record 
that, in fact, when the Visitor Center opens, that the words 
``In God We Trust,'' as they are in the House Chamber, will be 
in that CVC replica.
    Mr. Ayers. Yes, sir. They will be.

               PLEDGE OF ALLEGIANCE/STAR-SPANGLED BANNER

    Mr. Bonner. Now, thanks for that. Here is a question. When 
we went on our tour--and our country is going through as we all 
know some very serious times, and this Congress is being asked 
to take measures that perhaps are unprecedented in modern 
times. It seems to me one missed opportunity, and I would just 
put this on the record. I know my chairwoman does not believe 
that we should be museum curators in helping to design where 
each exhibit goes. But if you were to poll the American people, 
and ask them to recite the Star-Spangled Banner and the Pledge 
of Allegiance or to say what the history of our flag is, I am 
afraid that we would find an alarmingly high percentage of 
people who could not do all three.
    And it seems to me, in that beautiful great space that we 
have it is a missed opportunity to not more prominently display 
the Pledge, the Star-Spangled Banner, and the flag itself.
    So without requesting, since I am not the chairman, that on 
behalf of the committee that you do that, my request would be 
would your office work if--because I am going to go through the 
Commission, and ask that they work with your office--I am 
asking, would you work with the Commission to explore the 
possibility of a more prominent display of the Pledge, the 
flag, as well as the Star-Spangled Banner?
    Mr. Ayers. Of course. We would be happy to work with the 
Capitol Preservation Commission to do that.
    Mr. Bonner. Thank you.

                     KIOSK CONSTRUCTION--CR EFFECT

    Now, my question to Mr. Livingood. Thank you. I want to say 
thanks as many chances as I get. I see the construction of the 
kiosk that will be in the Cannon Tunnel for those of us who are 
not in the Rayburn Building. Would a continuing resolution 
affect the operation of that, the funding of that? And how do 
you anticipate going forward, allowing visitors from Longworth 
and Cannon getting over to the building with that new desk?
    Mr. Livingood. That is funded with a CR. And it will be 
open as soon as that desk is finished, very shortly, and we 
have it manned.
    Mr. Bonner. Great response. I have been on the subcommittee 
for about 6 months, and you have acted extraordinarily well, 
Mr. Sergeant. Thank you so much. Thank you, Madam Chair.

                         Chair Closing Remarks

    Ms. Wasserman Schultz. Thank you, Mr. Bonner. I just want 
to remind the members that we do have a Museum of American 
History in the Smithsonian. That would be an appropriate place 
to display the items that Mr. Bonner just detailed. The CVC is 
designed to focus on the history of the Congress and the 
Capitol. So we do have to be careful, again, like you said and 
I have said before, we are not museum curators. We do have to 
be careful about not micromanaging the contents and really 
diluting the purpose of the Capitol Visitor Center. So I would 
just caution the members on the guidance that they provide to 
the people who make decisions about the content of the CVC.
    Do any of the other members have any more questions? Okay. 
Since this is the last CVC hearing, I would be remiss if I 
didn't assign homework. But my homework is this. Just open the 
CVC on time on December 2, safely. Make sure that all the 
logistical items are in place. Keep your nose to the grindstone 
for the next 10 weeks, because that is about all that is left, 
and let's just continue to work towards a successful opening. 
We have come a long way on this project, and I am looking 
forward to seeing it brought in officially for a landing.
    With that, I am going to close the open portion of this 
hearing. If the people in the audience could clear the room 
very quickly because I only have about 15 or 20 minutes left 
before the CR goes on the floor or before the disaster 
legislation goes on the floor. So thank you very much.
    [Witnesses' prepared statements and responses to questions 
follow:]

[GRAPHIC] [TIFF OMITTED] T2315E.003

[GRAPHIC] [TIFF OMITTED] T2315E.004

[GRAPHIC] [TIFF OMITTED] T2315E.005

[GRAPHIC] [TIFF OMITTED] T2315E.006

[GRAPHIC] [TIFF OMITTED] T2315E.007

[GRAPHIC] [TIFF OMITTED] T2315E.008

[GRAPHIC] [TIFF OMITTED] T2315E.009

[GRAPHIC] [TIFF OMITTED] T2315E.010

[GRAPHIC] [TIFF OMITTED] T2315E.011

[GRAPHIC] [TIFF OMITTED] T2315E.012

[GRAPHIC] [TIFF OMITTED] T2315E.013

[GRAPHIC] [TIFF OMITTED] T2315E.014

[GRAPHIC] [TIFF OMITTED] T2315E.015

[GRAPHIC] [TIFF OMITTED] T2315E.016

[GRAPHIC] [TIFF OMITTED] T2315E.017

[GRAPHIC] [TIFF OMITTED] T2315E.018

[GRAPHIC] [TIFF OMITTED] T2315E.019

[GRAPHIC] [TIFF OMITTED] T2315E.020

[GRAPHIC] [TIFF OMITTED] T2315E.021

[GRAPHIC] [TIFF OMITTED] T2315E.022

[GRAPHIC] [TIFF OMITTED] T2315E.023



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Ayers, S. T............................................1, 213, 253, 321
Baish, M. A......................................................   180
Dexter, Jennifer.................................................   145
Dorn, T. G.............................................1, 213, 253, 321
Dunlap, J. K.....................................................    80
Elfrey, J. E.....................................................   203
Eveleth, Peter...................................................   253
Julian, Randy....................................................   139
La Due Lake, Ronald..............................................   154
Livingood, Bill..................................................   321
Morse, P. D., Sr............................................1, 253, 321
Orton, Hon. William..............................................   103
Pare J. G., Jr...................................................    53
Roth, D. M.......................................................    70
Rouse, T. S............................................1, 213, 253, 321
Santini, Hon. James..............................................   134
Tighe, M. A......................................................   172
Ungar, Bernard.........................................1, 213, 253, 321
Willison, Drew...................................................   321


                               I N D E X

                     Architect of the Capitol (AOC)

                                                                   Page
Achievements and Challenges......................................    42
Additional Homework Assignment By Congressman Wasserman Schultz..    48
Applicant Diversity..............................................    39
Bus Fare.........................................................    37
Bus Volume--Enhanced Security....................................    32
Busing Plan Concerns.............................................    28
Cannon Tunnel and Staff-Led Tours................................    46
Chair Closing Remarks............................................    47
Chairs Opening Remarks...........................................    01
Charter Bus Operations...........................................    28
Circulator Buses.................................................    29
Circulator Buses.................................................    35
Constituent Concerns.............................................    44
Cost Overruns and Change Orders..................................    45
CR Impact On Operational Plans...................................    43
CVC--A Welcoming Experience......................................    43
CVC Capitol Historical Society Discussions.......................    37
CVC Completion Costs.............................................    28
CVC Main Entrance--Capitol Access................................    36
CVC Website Navigation Concerns..................................    40
Drop Off Concerns--Inclement Weather.............................    33
Educational Tours................................................    29
Gift Shops.......................................................    36
Homework--Paver Damage...........................................    47
Issues of Diversity..............................................    38
Lack of Website Icon Similarities................................    40
Large Groups--Best Practices.....................................    31
Large Vehicles and Security Concerns.............................    30
Managing Large Tourist Groups....................................    31
Maximizing Constituent Opportunities.............................    41
Opening Remarks--Congressman Latham..............................    02
Opening Statement--Chief Phillip Morse...........................    15
    CVC Tourist Entrance.........................................    15
    Pedestrian Traffic...........................................    15
Opening Statement--Stephen Ayers.................................    02
CVC Construction Update..........................................    02
CVC Governance and Awards........................................    03
    Punch List Items.............................................    03
Opening Statement--Terrell Dorn..................................    21
    CVC Cost Estimates...........................................    21
    Fire Alarm Life-Safety Testing...............................    21
Opening Statement--Terrie Rouse..................................    09
    Advance Reservation System...................................    10
    Charter Bus Operations.......................................    10
    CVC Operations...............................................    09
    CVC Staffing Update..........................................    09
Operations Plans for Inclement Weather...........................    46
Outreach Efforts.................................................    38
Paver Assessment.................................................    33
Paver Contract Resolution........................................    34
Prepared Statement--Chief Phillip Morse.......................... 16-20
Prepared Statement--Stephen Ayers................................ 05-08
Prepared Statement--Terrell Dorn................................. 22-27
Prepared Statement--Terrie Rouse................................. 11-14
Proposed Bus Plan................................................    32
Proposed Change Order Estimates..................................    45
Questions for the Record From The Honorable Tom Udall............ 49-51
    Advance Reservation System...................................    51
    Change Orders................................................    51
    Landscaping..................................................    49
Small Business Clarification.....................................    38
Small Business Programs..........................................    38
Tour Drop Off Re-Evaluation......................................    35
Transportation Plan Coordination.................................    36
Tunnel Challenges and Concerns...................................    46
U.S. Capitol Police Operational Plans............................    42
Various Language Availability....................................    39

                     Architect of the Capitol (AOC)

Audience Participation--Soft Opening.............................   240
Bus Options......................................................   246
Bus Pre-Inspection Option........................................   243
Busing Concerns..................................................   236
Capitol Map......................................................   247
Chairs Opening Remarks...........................................   213
Change Orders and Multiple Punchlist Items.......................   244
Code Requirements--Disagreements.................................   235
CR Impact on CVC--Chair Closing Remarks..........................   249
CVC Leakage Problems.............................................   245
CVC Mission......................................................   237
CVC Opening Timeframe............................................   239
CVC Signage--Contacting Members..................................   247
CVC Smoke Control System.........................................   242
CVC Statues--Site Designation....................................   248
CVC Visitor Prohibitions.........................................   241
CVC Website and Advance Reservation System.......................   242
Diversity Outreach Efforts.......................................   239
Golf Carts.......................................................   236
Homework Question for the Record.................................   250
    Operating Plan Under 6 Month CR.............................250-251
Languages--Availability to CVC Visitors..........................   248
LOC Tunnel Update................................................   245
OOC Requirements--Non-Code.......................................   238
Opening Statement--Stephen Ayers.................................   213
    Project Update...............................................   214
    Change Orders and Punchlist Items............................   214
Opening Remarks--Terrell Dorn....................................   226
    Punchlist Items and Pavers...................................   226
    Paver Damage.................................................   226
Opening Statement--Terrie Rouse..................................   219
    CVC Website..................................................   219
    Certificate of Occupancy.....................................   220
Paver Cost Estimates.............................................   238
Perimeter Fences.................................................   238
Pre-Inspection Process...........................................   235
Prepared Statement--Stephen Ayers...............................216-218
Prepared Statement--Terrell Dorn................................228-234
Prepared Statement--Terrie Rouse................................221-225
Tourist Transportation and Inclement Weather.....................   237
Transportation Cost--Visitor Options.............................   246
Women-Owned and Small Business Outreach Efforts..................   240

                     Architect of the Capitol (AOC)

Annunciator Notifications........................................   306
Bus Transportation Plan..........................................   300
Chair Closing Remarks............................................   318
Chair Opening Remarks............................................   253
Closed Session Request...........................................   305
Constituent Busing Concerns......................................   309
CVC Emergency Preparedness.......................................   307
CVC Operations Strategy--Under CR................................   313
CVC Oversight Concerns...........................................   314
CVC Paver Costs..................................................   313
CVC Welcome--Historical Documents................................   308
Departmental Communication.......................................   304
Drop-off Points..................................................   300
Emergency Procedures--Anticipated Logistics......................   303
Funding Realignment of Construction Funds........................   318
Golf Carts--Visitor Facilitation.................................   303
Member Tours--CVC Governance.....................................   317
Office of Compliance Inspections and Open Issues.................   311
Office of Compliance Recommendations vs. Requirements............   311
Opening Statement--Chief Morse...................................   277
    Emergency Preparedness Training..............................   277
    Enforcement Operations Training..............................   277
Opening Statement--Peter Eveleth.................................   284
    CVC Pre-Inspection Process...................................   284
    Office of Compliance and the AOC--Working Relationship.......   284
    Unresolved Pending Issues....................................   285
    Pre-Inspections--Ongoing.....................................   285
Opening Statement--Stephen Ayers.................................   254
    Construction Update..........................................   254
    Relocation of the Statue of Freedom..........................   255
    Plaza Paver Update...........................................   255
    CVC Opening Preparation......................................   255
Opening Statement--Terrell Dorn..................................   260
    Construction Update..........................................   260
Opening Statement--Terrie Rouse..................................   268
    Continuing Resolution Concerns...............................   268
    CVC First Impressions--Transportation........................   268
    Transportation Plan..........................................   269
    CVC Staffing.................................................   269
Paver Cost Estimates.............................................   316
Paver Replacement................................................   316
Pending Office of Compliance Recommendations.....................   312
Prepared Statement--Chief Morse.................................278-283
Prepared Statement--Peter Ames Eveleth..........................286-299
Prepared Statement--Stephen Ayers...............................256-259
Prepared Statement--Terrell Dorn................................261-267
Prepared Statement--Terrie Rouse................................271-276
Screening Alternatives...........................................   310
Screening and Security Obstacles.................................   310
Suggested Postponement of CVC Opening............................   315
Training.........................................................   313
Transportation Differentiation...................................   301
Transportation Fees..............................................   307
U.S. Capitol Police Operational Concepts--Bus Screening..........   302
Vacated Streets and Bus Screenings...............................   304
Vacating Streets--Bus Screening..................................   314
Visitor Traffic--Alternative Creative Solutions..................   306
Visitor Traffic Flow.............................................   302
West Front Busing Option.........................................   303
White House Screening Process....................................   315

                     Architect of the Capitol (AOC)

AOC Appreciation.................................................   331
Capitol Historical Society's Role Within The CVC.................   325
Cart Logistics--Pickup Routes....................................   326
Cart Service Upgrades............................................   324
Chair Closing Remarks............................................   333
Chair Opening Remarks............................................   321
Chuck Turner's Retirement........................................   322
CVC Operations During a CR.......................................   324
CVC Progression..................................................   331
Fence Removal....................................................   326
Kiosk Construction--CR Effect....................................   332
Paver Update.....................................................   326
Pledge of Allegiance/Star Spangled Banner........................   332
Prepared Statement--Chief Morse.................................350-353
Prepared Statement--Stephen Ayers...............................334-337
Prepared Statement--Terrell Dorn................................342-348
Prepared Statement--Terrie Rouse................................338-341
Project Cost and Schedule........................................   321
Questions for the Record By Vice Chair Barbara Lee..............355-356
    Capitol Visitor Center Diversity............................355-356
Staff Composition and Diversity Training.........................   327
Transportation Concerns..........................................   323
Witnesses' Statements For The Record.............................   323

                                  <all>
</pre></body></html>
